               United States Department of the Interior
                                Office of Inspector General
                                     Washington, D.C. 20240

                                                                              September 19, 2007


Memorandum

To:           Secretary Kempthorne

              C. Stephen Allred
              Assistant Secretary – Land and Minerals Management

From:         Earl E. Devaney
              Inspector General

Subject:      Transmittal of Office of Inspector General Report of Investigation – “Minerals
              Management Service: False Claims Allegations”

        With this memorandum, I am transmitting the Office of Inspector General (OIG) Report
of Investigation, “Minerals Management Service: False Claims Allegations.” This Report of
Investigation chronicles a series of events that led to the filing of multiple qui tam, or false
claims, lawsuits by employees and former employees of the Minerals Management Service
(MMS). It also reports on numerous incidents of alleged retaliation against these employees and
former employees.

        This report tells the tale of Minerals Revenue Management (MRM), a program within
MMS fraught with difficulties stemming from myriad causes: it presents examples of a systemic
dilemma in MMS – that of the bureau’s conflicting roles and relationships with the energy
industry. It also hints of a profound failure in the development of a critical MRM information
technology (IT) system; it reveals a working environment in which poor communication, or no
communication, compounded an already existing element of distrust; and it demonstrates a band-
aid approach to holding together one of the Federal Government’s largest revenue producing
operations. In addition, we discovered a number of other significant issues worthy of separate
investigation, including ethics lapses, program mismanagement and process failures.

        Our investigation revealed a complex, and sometimes confusing, array of facts. In order
to minimize complexity and confusion, we report our findings by 1) the qui tam lawsuits and
their respective bases, 2) employee reporting requirements, and 3) use of official and/or
proprietary data/information. We also chronicle multiple allegations of reprisal and address
these in a separate section of our report.

       We found that the collective bases for the qui tam lawsuits were either premised on a lack
of knowledge of other MMS efforts to collect royalties and interest or the relators’ (person
bringing the claim) fundamental disagreement with MMS management decisions and MMS
guidance that the oil companies were following. Better communication about management’s
decisions may have forestalled the filing of these lawsuits.

        On the other hand, in the case of interest calculations – where MRM established a policy,
nearly a decade ago, that it would assume that calculation of interest was a “hardship” on the oil
companies if their payment forms did not include interest – no amount of communication would
likely convince the relators, or the general public, that this was a sound policy decision. Rather,
even the Associate Director of MRM conceded that this was the “easy way.” Instead, MRM has
manually calculated interest for the oil companies for years, while it has also spent considerable
amounts of money to modify its IT system to calculate interest automatically. To date, the effort
to automate interest calculations has been largely unsuccessful. The original procurement of and
subsequent modifications to this system are now the subject of a separate OIG investigation.

        In each of these cases, we found that the relators failed to follow either MMS or
Departmental reporting requirements. Again, however, systemic communications failure
exasperated the relators’ fundamental distrust that their management chain would proceed
appropriately. As for the propriety of auditors using information obtained in the course of their
jobs to bring a qui tam lawsuit, the courts have opined that government employees such as these
relators were not, as a class, automatically precluded from bringing claims based on facts they
learned during the course of their official duties.

        Our findings concerning the use of official and/or proprietary information remain
inconclusive, primarily due to dated, vague policies and rules and poor overall document control.
We are also given pause by certain of the relators’ assertions that, in effect, by filing qui tam
lawsuits, the records never left the custody of the government, although we reserve judgment as
to the validity of this assertion.

        Lastly, we considered 18 allegations of retaliation against the relators. Taken
individually, the allegations of retaliation range from trivial to troubling. Although we found no
conclusive evidence that MMS deliberately retaliated against the relators, we found some
disconcerting behavior – among other things, management’s manifest inattention to personnel
matters affecting the reassigned relators when MMS management should have been paying
extraordinary attention. Taken collectively, this created an environment where reprisal could
certainly be perceived.

        As you may know, two of the qui tam cases have since been dismissed – one on
jurisdictional grounds, but the other on substantive grounds. The reasoning in the latter decision
would suggest that the remainder of the cases might be dismissed as well.

        Regardless, the findings of our investigation call for a number of improvements in the
management of the MRM program, particularly in regard to document control, guidance
clarification (and, in the case of the interest calculation “hardship” policy, perhaps recision), and
far greater attention to the management and treatment of the reassigned relators. For a manager
to claim that “paperwork is not my forté” regarding critical personnel matters is simply
inexcusable.
        Finally, it should go without saying that my expectation is that none of the witnesses
identified in our report, especially those who provided us with their most candid views, will
suffer any sort of retaliation or retribution for their cooperation with the OIG in this
investigation.

       If you have any questions or concerns about this report, please do not hesitate to contact
me at (202) 208-5745.
 Investigative Report
                            Minerals Management Service
                              False Claims Allegations


                                Report Date: September 7, 2007
                            Date Posted to Web: September 26, 2007




This report contained information that has been redacted pursuant to 5 U.S.C.§§ 552(b)(2), (b)(4), (b)(5),
(b)(6) and (b)(7)(C) of the Freedom of Information Act and the Privacy Act, 5 U.S.C. § 552a. Some
references indicating gender are written in the masculine form to protect the identities of individuals and to
facilitate the reading of the report.
                                          TABLE OF CONTENTS

RESULTS IN BRIEF.....................................................................................................................3
BACKGROUND ............................................................................................................................4
     Minerals Management Service ............................................................................................4
     Qui Tam ...............................................................................................................................4
     The Auditors’ False Claims Act Lawsuits............................................................................5
     Employee Reporting Requirements......................................................................................6
     Use of Official and/or Proprietary Data/Information .........................................................6
DETAILS OF INVESTIGATION................................................................................................8
     Bobby L. Maxwell v. Kerr-McGee Corporation et al ..........................................................9
              Maxwell’s Qui Tam Complaint .............................................................................9
              2004 Investigation in Response to Qui Tam Filing............................................10
              2005 [Exemption (b)(6) & (b)(7)(C)] Complaint About Maxwell....................11
              2006 OIG Investigation of Maxwell’s Claims....................................................11
                      Legitimacy of Maxwell’s Claim ................................................................12
                      Maxwell’s Other Assertions ......................................................................19
                      Reporting and Safeguarding Requirements ..............................................22
                      MRM Safeguarding Responsibilities and Actions.....................................24
              Declination of Prosecution ..................................................................................26
     Little and Morris v. ENI Petroleum Company, Inc., et al..................................................27
              Little and Morris’s Complaint............................................................................27
              2005 Investigation in Response to Qui Tam Filing............................................28
              2006 OIG Investigation of the Relators’ Claims ...............................................28
                      MRM Support System – Interest Billing/Collection Issues.......................34
                      Potential Time Value Loss.........................................................................39
                      MRM Collection of Interest on Interest.....................................................40
                      MRM Instructions to Auditors Regarding Interest Collection ..................41
                      Allegation that MRM Returned Valid Payments.......................................43
                      Reporting and Safeguarding Requirements ...............................................46
                                  Reporting Requirements.................................................................47
                                  Safeguarding Requirements ...........................................................50
              Declination of Prosecution ..................................................................................52
              Dismissal of Lawsuit ............................................................................................52
     Little v. ENI Petroleum Company, Inc., and AGIP Exploration Company .......................54
              Randy Little’s Qui Tam Complaint ....................................................................54
              Investigations in Response to Qui Tam Filing ...................................................55
                      Transportation Costs Questioned...............................................................56
                      MMS Management Response to Questioned Costs...................................57
                      Reporting and Safeguarding Requirements ...............................................63
                                  Reporting Requirements.................................................................63
                                  Safeguarding Requirements ...........................................................63
              Declination of Prosecution ..................................................................................64
     Little and Arnold v. Royal Dutch Shell ..............................................................................65
              Little and Arnold’s Qui Tam Complaint............................................................65


                                                                1
           Investigations in Response to Qui Tam Filing ...................................................67
                   Little and Arnold’s Actions .......................................................................67
                   MMS’s Description of Events Pertaining to Little’s Findings and
                   E-mail to Shell ...........................................................................................71
                   Meeting With Shell ....................................................................................75
                   Transportation Deductions Taken by Oil Companies................................76
                   Rationale for the Denett Guidance Memorandum .....................................78
                   Residency Team Audit of Shell .................................................................80
                   Relators’ Responses Concerning the Residency Team Audit....................81
                   Reporting and Safeguarding Requirements ...............................................82
                               Reporting Requirements.................................................................82
                               Safeguarding Requirements ...........................................................83
           Declination of Prosecution ..................................................................................85
    Relator Claims of Retaliation ............................................................................................86
           Bobby Maxwell.....................................................................................................86
           Arnold, Little, and Morris...................................................................................91
OTHER ISSUES ........................................................................................................................131




                                                              2
                               RESULTS IN BRIEF
We initiated this investigation at the request of Secretary Dirk Kempthorne, who asked us
to assess the legitimacy of claims made in a series of qui tam lawsuits filed by Minerals
Management Service (MMS) auditors against oil companies for alleged underpayments
of royalties and interest owed. The Secretary also asked us to examine whether or not the
auditors had followed proper procedures for reporting their allegations, whether they had
improperly used proprietary information in pursuing their claims, and, finally, whether or
not they had been retaliated against by MMS for filing these lawsuits. We also received
multiple requests from members of Congress to examine the same concerns.

Ultimately, we determined that the claims made in the auditors’ qui tam lawsuits were
either based on a lack of knowledge of other MMS efforts to collect royalties and interest
or the auditors disagreed with both MMS management decisions and MMS guidance that
the companies were following. During the course of investigating these issues, we found
a number of other significant concerns, worthy of separate investigation, including
program mismanagement and process failures.

We also found that the auditors did not properly report their suspicions of wrongdoing to
the appropriate authorities, including the Office of Inspector General (OIG), and we
determined that the auditors removed and used proprietary, sensitive, or confidential
business information without authorization. While we found no evidence that MMS
deliberately retaliated against the qui tam relators, we did observe a myriad of human
resource faux pas, which, taken collectively, created an environment where reprisal could
be perceived.

We presented our findings regarding the auditors’ potential misuse of government
records for their lawsuits to the Department of Justice (DOJ). DOJ declined criminal
prosecution. Based on our review of MMS’s document control process, we find the
prospect of any sustainable administrative action problematic.

We are referring this case to the Assistant Secretary for Lands and Minerals Management
for any follow-up action that he deems appropriate.




                                            3
                                  BACKGROUND

                           Minerals Management Service

MMS manages the nation’s natural mineral resources on the Outer Continental Shelf and
on some federal and Indian lands. MMS also collects, accounts for, and disburses more
than $8 billion per year in revenue from these offshore and onshore mineral leases. Two
major programs comprise MMS – Offshore Minerals Management and Minerals Revenue
Management (MRM). Offshore Minerals Management manages the mineral resources on
the Outer Continental Shelf, and MRM is responsible for managing all revenues
associated with offshore and onshore federal mineral leases. This effort is one of the
federal government’s greatest sources of non-tax revenues. MRM processes rents and
royalties from nearly 70,000 leases each year and employs about 600 federal and 300
contractor personnel. The Federal Oil and Gas Royalty Management Act of 1982, 30
U.S.C. § 1701, and the Federal Oil and Gas Royalty Simplification and Fairness Act of
1996, 30 U.S.C. § 1701, form the basis for MRM oversight and regulatory enforcement
activities.

MRM collects royalties from oil and gas companies through requirements established in
two types of leases. Royalty in Value (RIV) leases require that the lessee pay the federal
government, through MRM, a percentage of the monetary value of the oil or gas brought
to the market. Royalty in Kind (RIK) leases differ in that MRM takes possession of a
percentage of the product (oil or gas), at the designated delivery point, which is
frequently the platform where the oil or gas is brought to the surface. MRM then
arranges for transportation of the oil or gas, markets it, and sells it.

A significant change under the Royalty Simplification and Fairness Act of 1996 was that
oil and gas companies (leaseholders) became required to calculate interest with their late
payments or underpayments for royalties owed to MRM, unless they claimed that
calculation of the interest was a hardship. If companies claimed a hardship, MRM would
then calculate the interest for them. The Royalty Simplification and Fairness Act also
required that MRM pay interest to leaseholders who made overpayments.

                                        Qui Tam
Qui tam is an abbreviation for a Latin phrase meaning “he who brings a case on behalf of
our lord the King, as well as for himself.” The term qui tam is a provision of the Civil
False Claims Act, 31 U.S.C. §§ 3701 – 3733, that allows a private citizen to file a suit on
behalf of the United States alleging that the defendant(s) defrauded the government. The
False Claims Act provides that the person who files the qui tam lawsuit, called a relator,
may receive between 15 and 30 percent of any money recovered. The relator’s complaint
is filed under seal in a federal district court. Copies of the relator’s complaint and a
disclosure statement of evidence are provided to DOJ.

Following receipt of the complaint and disclosure statement, DOJ conducts an
investigation of the allegations with support from the appropriate law enforcement


                                             4
agency, such as the Department of the Interior’s (DOI) OIG. Upon completion of its
investigation, DOJ will either intervene and prosecute the lawsuit, decline to intervene
and allow the relator to proceed alone, or seek to dismiss the lawsuit.

The OIG supports DOJ’s investigation of qui tam complaints that involve DOI by
coordinating interviews, obtaining records, and performing other activities at the
direction of DOJ attorneys who are tasked with conducting the investigation. DOJ leads
the investigation and decides whether the government will participate in prosecution of
the lawsuit.

Between 1998 and 2004, the OIG jointly conducted royalty qui tam investigations with
DOJ resulting in the recovery of more than $568 million from 25 U.S. companies
operating oil, natural gas, coal, and other activities on federal and Indian lands.

                     The Auditors’ False Claims Act Lawsuits

On June 14, 2004, MRM Manager Bobby Maxwell filed a qui tam lawsuit under the
False Claims Act in the Federal District Court for the District of Colorado because he
believed Kerr-McGee Corporation (Kerr-McGee) had failed to properly fulfill its lease
obligations, thereby depriving the government of appropriate royalties.

MRM auditors Randy Little and Lanis Morris filed a qui tam lawsuit on November 30,
2005, in the Federal District Court for the Western District of Oklahoma. They alleged
that 25 oil companies did not comply with the requirements of the Royalty Simplification
and Fairness Act when they failed to calculate and pay interest, thereby depriving the
government of interest owed on late royalty payments and underpayments of royalty
obligations.

On February 3, 2006, Little filed another qui tam lawsuit in the Federal District Court for
the Western District of Oklahoma alleging that ENI Petroleum Company, Inc., and AGIP
Exploration Company took unallowable oil transportation deductions, thereby depriving
the government of appropriate royalties owed on lease production.

On February 15 and March 14, 2006, MRM auditors Little and Joel Arnold jointly filed
two qui tam lawsuits in the Federal District Court for the Western District of Oklahoma
alleging that Royal Dutch Shell P.L.C., Shell Exploration and Productions Company,
Shell Deepwater Development Systems, Inc., and Shell Offshore, Inc., (Shell) took
unallowable oil transportation deductions, thereby depriving the government of
appropriate royalties owed on lease production.

Upon notification that the above-mentioned lawsuits had been filed, DOJ, with assistance
from the DOI Office of the Solicitor (SOL) and the DOI-OIG, initiated investigations into
the merits of these lawsuits. The SOL concluded, based upon the results of the
investigations conducted in 2004 and 2006, and their legal analysis, that the auditors’
complaints lacked merit.



                                             5
DOJ declined to intervene in Maxwell’s lawsuit on January 7, 2005, and declined to
intervene in the lawsuits filed by Arnold, Little, and Morris on September 8, 2006.

                        Employee Reporting Requirements

The MRM Audit Manual directs that in accordance with Part 355 of the Departmental
Manual, Chapter 2.1(c), each employee has the duty to report known, suspected, or
alleged fraud, waste, or abuse affecting departmental programs or operations to the OIG
Assistant Inspector General for Investigations. Employees are directed to do so through
official channels or by filing a complaint directly to the OIG if the employee feels the
circumstances require a direct referral.

MMS’s Internal Quality Control System, Audit and Compliance Policies and Procedures,
advises employees that any actions that could be considered potentially fraudulent,
abusive, or illegal should be brought immediately to the attention of the audit manager
for appropriate follow-up in accordance with the MRM Audit Manual.

We found that the MRM Office of Enforcement also conducts periodic Illegal Acts
Awareness training for MMS personnel. In this training, MMS employees are advised
that MRM policy requires employees to report known, suspected, or alleged illegal acts
to the OIG without fear of reprisal. MRM policy requires that employees also notify their
supervisor and/or the MRM Office of Enforcement if they believe these acts may have
occurred.

               Use of Official and/or Proprietary Data/Information

Our review of the MMS Information Technology Rules of Behavior revealed that
employees are advised that access to confidential or sensitive information shall be
restricted to authorized individuals who need the information to conduct their jobs.
Additionally, employees are advised that they should not access data outside of
performing their official duties and should not give information to other potentially
unauthorized employees or outside individuals.

We found that the MMS memorandum titled, “Guidance and Procedures for Handling
Requests for Royalty Management Program Proprietary Data/Records,” dated February
27, 1995, contains the following information:

   •   A definition of proprietary data.
   •   Examples of reports, including the MMS Form 2014, that contain proprietary
       data.
   •   Situations when employees may release proprietary data/records.
   •   Notification that employees are responsible for protecting proprietary information
       from unauthorized disclosure.
   •   Discussion of mandatory annual training on how to handle requests for
       proprietary data and records.



                                             6
The MMS Audit Manual, Chapter 5.7, Safeguarding Work Papers, directs that
confidential, privileged, or proprietary information received and used by MMS
employees and government contractors must be protected from unauthorized disclosure.

The MMS Manual, Part 386, states that individual MMS employees are responsible for
the safe-guarding and security of proprietary data/information. The MMS Manual calls
for “stringent administrative action” against any MMS employee or representative who
discloses proprietary data/information for any purpose other than in the performance of
his/her responsibilities as an employee or representative of MMS.

A review of the DOI Departmental Manual, Part 370, Chapter 752, Discipline and
Adverse Actions, Table of Offenses and Penalties, disclosed the following:

   •   Improper or unauthorized release of sensitive and administratively controlled
       information in which the release of the restricted information is deliberate may
       result in a 30-day suspension to removal.
   •   Using public office for private gain may result in a 5-day suspension to removal.
   •   Participating in particular matters while having a conflicting financial interest
       may result in a 5-day suspension to removal.
   •   Unauthorized use of nonpublic information may result in a written reprimand to
       removal.




                                            7
                         DETAILS OF INVESTIGATION
We initiated this investigation at the request of Secretary Dirk Kempthorne, who asked us
to assess the legitimacy of claims made in a series of qui tam lawsuits filed by Minerals
Management Service (MMS) auditors against oil companies for alleged underpayments
of royalties and interest owed. The Secretary also asked us to examine whether or not the
auditors had followed proper procedures for reporting their allegations, whether they had
improperly used proprietary information in pursuing their claims, and, finally, whether or
not they had been retaliated against by MMS for filing these lawsuits. We also received
multiple requests from members of Congress to examine the same concerns.

Initially, we focused our investigation on (1) the legitimacy of the underlying claims
made in any of the qui tam lawsuits; (2) whether the MMS auditors brought their claims
to the attention of MMS, DOJ, or the OIG and what response they received; (3) the
relators’ use of official and/or proprietary data/information; and (4) the auditors’ claims
of retaliation. During the course of investigating these issues, we found a number of
other significant concerns, worthy of separate investigation, including program
mismanagement and process failures.

Recognizing the enormity of the investigative challenges associated with the auditors’
allegations and the need for expediency, we created an investigative team composed of
investigators, special agents, and support personnel from our Program Integrity Division,
Computer Crimes Unit, and all but one of our four regional offices. We interviewed over
65 individuals, many on multiple occasions, during the course of this investigation and
ultimately reviewed over 7,000 e-mails and hundreds of documents to determine the
facts.

We organized this report into five sections. Each of the first four sections includes a
specific discussion of the relators’ lawsuit, the results of our investigation pertaining to
that particular lawsuit, and our findings regarding whether the relators complied with
requirements for reporting suspicions of fraud and for safeguarding official and
proprietary documents. The two lawsuits against Shell are presented in one section (the
fourth section) due to the similarity of the issues and involvement of many of the same
witnesses. The fifth section of this report presents the relators’ allegations of reprisal as
well as the results of our investigation of those claims.




                                               8
              Bobby L. Maxwell v. Kerr-McGee Corporation et al

                             Maxwell’s Qui Tam Complaint

On June 14, 2004, Bobby Maxwell, Senior Auditor, MRM, Lakewood, CO, filed a
lawsuit under the False Claims Act against Kerr-McGee to recover monies owed to the
United States arising from the defendant’s obligation to pay federal oil royalties. Note:
Maxwell was a re-employed annuitant at the time of his filing and is now retired. A re-
employed annuitant is an individual who is retired from federal service and has been
rehired by the government.

Maxwell, in his Complaint and Jury Demand, claimed that Kerr-McGee sold oil produced
from federal lands (including offshore in the Gulf of Mexico) to Texon Corporation at a
reduced price in exchange for Texon marketing the oil. He stated that Kerr-McGee was
required to base its royalty payment to the government on the fair market value of the oil
(but instead based it on the reduced price). According to Maxwell’s complaint, the lessee
is required to place the oil in marketable condition at no cost to the government and that
placing the oil in marketable condition “has been held [by the courts] to include the
expense of marketing the oil.” Maxwell claimed that Kerr-McGee underreported the
royalty value of oil from January 1999 through approximately July 2003. Note: Maxwell
submitted these allegations based upon information he derived from an official MRM
audit.

Specifically, Maxwell brought his suit on behalf of the U.S. Government for the alleged
false claims made by Kerr-McGee through monthly submission of MMS Form 2014,
Report of Sales and Royalty Remittance, in which Kerr-McGee certified that its royalty
reporting and payments complied with applicable federal laws and regulations.

Maxwell asserted that Kerr-McGee was prohibited from (1) reducing the price and
having the purchaser (Texon) market the oil and (2) accepting less than full market price
as an accommodation for the purchaser’s marketing expense. He said Kerr-McGee
violated applicable federal royalty regulations and made false statements on its monthly
submission of Form 2014.

Maxwell also asserted that during an MRM audit beginning on September 25, 2001,
auditors found a 1996 memorandum authored by Kerr-McGee in which, according to
Maxwell, Kerr-McGee conducted an economic analysis of the benefit of maintaining an
existing contract with Texon to sell federal oil at below market price while allowing
Texon to incur the expense of marketing the federal oil. Maxwell stated that the 1996
Kerr-McGee memorandum recommended renewal of the Texon contract because Kerr-
McGee’s cost to market, [Exemption 4], exceeded the difference between the fair market
value and the price received from Texon, [Exemption 4].

Maxwell concluded that Kerr-McGee had substantially underpaid its federal oil royalties
by accepting less-than-market price for the oil in exchange for Texon incurring marketing
expenses. Maxwell claimed that he and other MRM auditors had conducted an economic


                                             9
analysis of Kerr-McGee’s deficiency for January 1, 2000, through December 31, 2000,
and concluded that Kerr-McGee owed the federal government approximately $7.6
million for the questioned period.

                   2004 Investigation in Response to Qui Tam Filing

Upon receipt of Maxwell’s filed qui tam complaint on or about June 14, 2004, DOJ
notified both the DOI-SOL and the DOI-OIG of the qui tam lawsuit and requested
assistance in determining the merits of the claim.

An SOL Attorney-Advisor was assigned to assist DOJ. An OIG Special Agent was
assigned to provide investigative assistance. Associate Solicitor James Harris also
participated in the review of Maxwell’s claims.

According to the Attorney-Advisor, DOJ, the SOL, and the OIG conducted an in-depth
investigation into the merits of Maxwell’s claims, which included multiple joint
interviews, document reviews, and legal analysis.

The Attorney-Advisor reported that a full analysis of Kerr-McGee’s oil/gas sales over the
time period identified in the lawsuit was conducted and that no evidence was found
indicating that Kerr-McGee regularly sold its products at a significantly lower rate than
other companies.

According to the Attorney-Advisor, the analysis determined that during the identified
time period, Kerr-McGee’s sale prices were both below and above average market prices.

The Attorney-Advisor stated that, in his opinion, the actions taken and the decisions
made by the MMS officials not to support Maxwell’s Issue Orders were both legal and an
appropriate use of discretion. Note: An “Issue Order” is a demand, often for additional
royalties, sent after MRM concludes money is owed.

According to both Harris and the Attorney-Advisor, upon completion of their
investigation, the SOL consulted with DOJ concerning the relators’ lawsuit.
Subsequently, DOJ filed its Notice of Election to Decline Intervention in the U.S. District
Court for the District of Colorado on January 7, 2005.

Subsequently, Maxwell proceeded with his lawsuit alone, and on January 23, 2007, in the
U.S. District Court for the District of Colorado, a jury found that Maxwell had proved by
a preponderance of the evidence that Kerr-McGee knowingly made or used a false record
or statement in order to conceal, avoid, or decrease an obligation to pay money to the
U.S. Government, in violation of the False Claims Act. The jury determined the unpaid
dollar amount to be $7,555,886.

However, on March 30, 2007, U.S. District Judge Phillip Figa, for the District of
Colorado, dismissed Maxwell's qui tam suit. Citing Tenth Circuit precedent, Judge Figa
ruled that 31 U.S.C. § 3730(e)(4) required the court to reject the claim because, in



                                            10
essence, Maxwell’s initial disclosure to the government of the allegations could not have
been “voluntarily provided” because his job duties required him to do so. Judge Figa
noted that government employees such as Maxwell were not, as a class, automatically
precluded from bringing claims based on facts they learned during the course of their
official duties. The court, however, dismissed the case for lack of subject matter
jurisdiction.

         2005 [Exemptions (b)(6) and (b)(7)(C)] Complaint About Maxwell

On July 1, 2005, an MMS Employee Relations Advisor sent a memorandum to the OIG
that included a complaint, [Exemptions (b)(6) & (b)(7)(C)]. The complainant alleged that
two MMS managers failed to pursue underpayment of royalties by Kerr-McGee and that
one of the managers may have suppressed other enforcement actions. The complaint
alleged that the two managers engaged in a conflict of interest; misused government time,
equipment, and information; violated the Federal Standards of Conduct for employees;
obstructed official government functions; and failed to pursue enforcement actions
against Kerr-McGee.

[Exemptions (b)(6) and (b)(7)(C)]

After receipt of the complaint, interviewing the complainant, and a discussion with a DOJ
Trial Attorney, we decided not to open an official investigation until additional
developments or information were forthcoming.

                     2006 OIG Investigation of Maxwell’s Claims

In September 2006, the OIG initiated a new investigation into the legitimacy of
Maxwell’s claims and his assertion that the decision made by MMS management not to
pursue collection of additional royalties was improper. In addition, we addressed
Maxwell’s other assertions, obtained from his response to Kerr-McGee’s request for
summary judgment, and whether or not Maxwell had complied with DOI/MMS policies
when filing his claim.

Our repeated efforts to interview Maxwell for this investigation were unsuccessful – he
would not agree to an interview with the OIG. However, his Attorney provided material
that had been filed on Maxwell’s behalf in opposition to a Kerr-McGee Motion for
Summary Judgment, believing it would be helpful to the OIG investigation.

Included in the material was an affidavit filed by Maxwell on April 1, 2005, which
asserted, in part, the following:

   •   The Deputy Associate Director, Offshore Compliance and Asset Management,
       MRM (formerly the Program Manager, Offshore Compliance and Asset
       Management, MRM), stated that the SOL had concerns about Maxwell’s
       proposed Issue Orders for Kerr-McGee – requesting that Kerr-McGee pay
       additional royalties – and that a subsequent telephone conference with the DOI-



                                            11
       SOL resulted in the SOL attorneys discouraging issuance of the Orders. Maxwell
       alleged that the attorneys did not identify any weaknesses in the proposed Orders
       or the underlying regulations used to support the Orders.

   •   A Program Manager, Office of Enforcement, MRM, initially agreed that a case
       could be made to support Maxwell’s proposed Orders but remained silent during
       discussion with the SOL attorneys. The Program Manager contacted Maxwell the
       day following the discussion with the SOL attorneys and told Maxwell that the
       now former MMS Director would be upset if he (Maxwell) issued the Orders to
       Kerr-McGee.

   •   MRM did not close its audit of Kerr-McGee because the issues identified by
       Maxwell appeared to be valid and because “outside sources” were looking into
       the issues.

   •   Deborah Gibbs Tschudy, Deputy Associate Director, MRM, directed the MMS
       Internal Quality Control Review team to delete findings from a review of the
       Kerr-McGee audit file concluding that an “issue for sales to Texon had not been
       pursued for no apparent reason.”

Legitimacy of Maxwell’s Claim

In his lawsuit, Maxwell claimed that during the MRM audit of Kerr-McGee in 2002,
MRM conducted an economic analysis of Kerr-McGee’s royalty payments for January 1,
2000, through December 31, 2000, and concluded that Kerr-McGee owed the federal
government approximately $7.6 million for the audit period.

Maxwell reported sending an Issue Letter to Kerr-McGee on November 15, 2002,
requesting that Kerr-McGee pay additional royalties he believed were owed based upon
the analysis noted above. Note: “Issue Letters” advise payors that MRM is questioning
an action of the payor and requests a response in which the payor concurs or disputes the
matters addressed in the letter.

Kerr-McGee responded, through its legal counsel, on January 21, 2003. In its response,
Kerr-McGee claimed that the Issue Letter was inconsistent with MMS regulations,
including language in 30 C.F.R. § 206.102(c)(2)(A) that states, “MMS will not use this
provision to simply substitute its judgment of the market value of the oil for the proceeds
received by the seller under an arm’s-length contract.” Note: MMS defines an arm’s-
length contract as a contract between two independent companies that are not affiliated
and have opposing economic interests regarding the contract.

Kerr-McGee also cited language in 30 C.F.R. § 206.102(c)(2)(B) that stated the
following:

       [T]he fact that a price received by a seller under an arm’s-length contract
       is less than…index prices, is insufficient to establish breach of the duty to


                                             12
       market unless MMS finds additional evidence that the seller acted
       unreasonably or in bad faith in the sale of oil from the lease.”

Kerr-McGee, after providing additional arguments of why Maxwell’s Issue Letter was
inconsistent with regulations, requested that MRM withdraw Maxwell’s Issue Letter.

Subsequently, Maxwell prepared two proposed Issue Orders to Report and Pay
Additional Royalties for Kerr-McGee. One Order evaluated the difference between the
fair market price and the actual sales price of the oil, with accommodation for a
reasonable transportation allowance, and concluded that Kerr-McGee owed
approximately $9.2 million. The other Order considered the reasonable cost of marketing
the oil and concluded that Kerr-McGee owed approximately $10 million.

Maxwell asserted that when he requested authority to transmit the Orders to Kerr-McGee,
he was expressly dissuaded by his superiors from pursuing any action against Kerr-
McGee. He further alleged that the SOL attorneys did not identify any weaknesses in the
proposed Orders or the underlying regulations used to support them.

We interviewed the Program Manager (now retired), Offshore Compliance and Asset
Management, MRM, who was Maxwell’s supervisor at the time Maxwell was pursuing
the collection of additional royalty payments from Kerr-McGee. When interviewed
concerning Maxwell’s claims, the Program Manager stated that Maxwell was not sure
what to do about the collection issue and brought the proposed Issue Orders to him for
guidance. In response to Maxwell’s request for guidance, the Program Manager said he
facilitated a teleconference with the SOL. According to the Program Manager, the
participants of this teleconference included Lucy Querques Denett, Associate Director,
MRM; Geoff Heath, Assistant Solicitor for Royalty and Offshore Minerals, Division of
Mineral Resources, SOL; the SOL Attorney-Advisor; and Maxwell. Note: When
interviewed, Denett denied participating in the teleconference. Heath and the Attorney-
Advisor did not recall if Denett participated. No records were found to document the
actual participants of this teleconference.

According to the Program Manager, the SOL noted that the regulations regarding arm’s-
length contracts were specific and that the issue set out in Maxwell’s Orders could not be
defended in court without additional evidence. He stated that the SOL essentially
concluded that there was not enough evidence to issue the Orders to Kerr-McGee.

During the interview, the Program Manager provided his opinion regarding the crude oil
prices that Texon paid to Kerr-McGee. He said he believed the regulations (referring to
the Code of Federal Regulations) precluded a review of arm’s-length contracts unless
there was some evidence of collusion or fraud, and according to the Program Manager,
Maxwell and the other auditors had presented no such evidence. The Program Manager
explained that the situation was similar to houses for sale in a certain neighborhood with
listed prices ranging from $120,000 to $130,000, and one of the houses selling for
$80,000. He stated that the sale of the house for $80,000 could not be questioned by the




                                            13
IRS unless there was additional evidence indicating it was improper. He added the
following information in reference to these regulations:

       [Y]ou can’t be in the business of sending out Orders we can’t enforce just
       to see…who’s going to salute the flag when you raise it…you have a
       regulation that says you need something besides that before you can issue
       that Order. If you issue it, then you’re really not following the spirit of
       what the law and the regs are asking you to do, and that’s what we’ve got
       to do. We didn’t get to make that rule; we didn’t get to make that law.
       We just get to try and follow them as best we can.

The Program Manager opined that issuing an Order that could not be legally defended in
court was “not what we do.” He said, “That’s a violation of public trust to do that, in my
mind.”

According to the Program Manager, he directed the auditors to obtain more information
from Kerr-McGee pertaining to its royalties. He said he also decided to recommend that
the Kerr-McGee leases be converted to RIK. Note: We found no evidence that Maxwell,
as the manager for the auditors, or the Program Manager, as Maxwell’s supervisor,
directed or encouraged auditors to seek additional information from Kerr-McGee.

Geoff Heath, Assistant Solicitor for Royalty and Offshore Minerals, Division of Mineral
Resources, SOL, said he participated in a teleconference with the former Deputy
Associate Solicitor, Division of Mineral Resources, SOL; the Program Manager; and
Maxwell regarding the potential issuance of two Issue Orders by MRM to Kerr-McGee.
Heath stated that MRM was seeking advice from the SOL regarding the legal sufficiency
of the proposed Orders. He stated that during the teleconference, he and the former
Deputy Associate Solicitor advised the Program Manager and Maxwell that the SOL
believed that, based upon the facts Maxwell presented, Maxwell’s concept behind the
draft Orders was not supported by the applicable regulations. In reliance upon this
guidance, he said MRM consequently decided not to issue the proposed Orders to Kerr-
McGee. Note: We were unable to establish whether this was the same teleconference
that the Program Manager reported that the SOL Attorney-Advisor attended.

A review of the applicable regulations in the U.S. Code of Federal Regulations, Title 30,
Mineral Resources, disclosed the following:

   •   30 C.F.R. § 206.102(c)(1) states that “In conducting review and audits, if MMS
       determines that any arm’s-length sales contract does not reflect the total
       consideration actually transferred either directly or indirectly from the buyer to
       the seller, MMS may require that you value the oil sold under that contract either
       under § 206.103 or at the total consideration received.”

   •   30 C.F.R. § 206.102(c)(2) states that “You must value the oil under § 206.103 if
       MMS determines that the value under paragraph (a) of the section does not reflect
       the reasonable value of the production due to either (i) misconduct by or between



                                            14
       the parties to the arm’s-length contract; or (ii) breach of your duty to market the
       oil for the mutual benefit of yourself and the lessor. (A) MMS will not use this
       provision to simply substitute its judgment of the market value of the oil for the
       proceeds received by the seller under an arm’s-length sales contract [emphasis
       added]. (B) The fact that the price received by the seller under an arm’s length
       contract is less than other measures of market price, such as index prices, is
       insufficient to establish breach of the duty to market unless MMS finds additional
       evidence that the seller acted unreasonably or in bad faith in the sale of oil from
       the lease” [emphasis added].

Our investigation revealed further discussion of MMS policy on this subject in the
Federal Register, Volume 65, Number 51, dated March 15, 2000 (page 14029), which
states that “MMS emphasizes that this does not imply that lessees are somehow
prohibited from marketing at the lease and must market production ‘downstream.’ Lesees
[sic] may market at the lease without breaching the duty to market.”

Our investigation disclosed that there was, in fact, disagreement within MRM about how
to apply the regulations to the aforementioned situation involving Kerr-McGee and
Texon. For instance, we found an e-mail authored by an Auditor, Indian Compliance and
Asset Management, MRM, on January 13, 2004, sent to Joel Arnold, Supervisory
Auditor, Compliance and Asset Management, MRM, and Lanis Morris, Auditor, MRM.
A conversation record (attached to the e-mail) documented a meeting on June 4, 2003,
between the Program Manager; Maxwell; a Supervisory Auditor, MRM; and the Auditor
from Indian Compliance and Asset Management regarding Maxwell’s belief that Kerr-
McGee was underpaying royalties. In that conversation, the group discussed the validity
of Maxwell’s concerns and whether Kerr-McGee’s sales prices were unreasonably low
for an arm’s-length contract.

According to the conversation record, the Program Manager said Kerr-McGee had no
obligation to “market off the lease.” He said the issue of underpaid royalties was a
“breach of duty to market” case with the burden of proof on the government to show that
Kerr-McGee’s prices were unreasonable. Other participants disagreed with the Program
Manager and claimed that the “preponderance of MMS and [Interior Board of Land
Appeals] decisions uphold that the duty to market is implied in the lease and is the
essence of the lease.” They also said that if Kerr-McGee’s competitors could get a
“Platts price netted back to the lease for transportation,” then the same prices were
available to Kerr-McGee and that Kerr-McGee was not diligent in its requirement to
market for the government. Note: Platts is a consulting organization that provides
information on energy and metals. Platts provides industry standard assessments of
energy prices that assist companies with short-term and long-term contracts.

According to the conversation record, the Program Manager also said MRM could not
draw the conclusion that Kerr-McGee’s prices on the arm’s-length contract were
unacceptable without data showing an intentional undervaluation. He added that Kerr-
McGee received about $60 million less than it could have by accepting the price
negotiated in the arm’s-length contract. In addition, the group suspected that there was



                                            15
more to the arm’s-length contract to entice Kerr-McGee to accept less-than market price
but they had no evidence to support their suspicions.

The Program Manager agreed with meeting attendees, according to the conversation
record, that MRM could issue an Order to Kerr-McGee for the marketing costs Kerr-
McGee saved by allowing Texon to market the oil, but Maxwell and the Supervisory
Auditor, MRM, did not believe that approach would be fruitful.

When interviewed, the Supervisory Auditor (now retired) said he agreed that Kerr-
McGee had underpaid because Kerr-McGee eliminated its crude oil marketing
department and was selling all of its crude oil to Texon. He recalled participating in a
conference call with Maxwell, the Auditor for Indian Compliance and Asset
Management, and the Program Manager. He said he believed the Program Manager
wanted impossible tasks completed relating to the verification of oil prices before issuing
an Order to Kerr-McGee. The Supervisory Auditor said he did not believe the Program
Manager’s reasons for neglecting to pursue the matter were adequate. According to the
Supervisory Auditor, Maxwell said a Program Manager, Office of Enforcement, MRM,
told him Secretary Norton did not want the Order issued and would be upset if it was.

An Employee in the Office of Enforcement, MRM, opined that the issues identified in
Maxwell’s lawsuit had potential merit. He said Kerr-McGee had a responsibility to
market oil at a value beneficial to the company and to the government. He added that his
understanding of the issue was that Kerr-McGee reported lower oil values to MRM than
it actually received. The Office of Enforcement Employee, who was not directly
involved in the issue, said he heard that the DOI-SOL had stopped Maxwell from sending
an Issue Letter to Kerr-McGee. This Employee also said he had heard that James Cason,
Associate Deputy Secretary of DOI, was involved in the decision to not send the Issue
Letters. The Office of Enforcement Employee identified the Program Manager, Office of
Enforcement, and Deborah Gibbs Tschudy, Deputy Associate Director, MRM, as the
sources for his information.

When interviewed, the Auditor for Indian Compliance and Asset Management stated that
Maxwell assigned him to assist on the Kerr-McGee audit by drafting two proposed
Orders to Kerr-McGee outlining the crude oil issues identified by Maxwell. He
explained that Maxwell thought he was a good writer and therefore had instructed him to
draft the crude oil Orders to Kerr-McGee.

Further, the Auditor said, “[A]ll I had was the [Exemption (b)(7)(C)] letter and nothing
else.” He identified [Exemption (b)(7)(C)] as the law firm that provided Kerr-McGee’s
response to Maxwell’s initial Issue Letter. He stated that the proposed Orders were his
best efforts to find a weakness in the [Exemption (b)(7)(C)] argument. The Auditor said
he found it difficult to allege misconduct due to the lack of evidence.

The Auditor explained that when he sent the January 13, 2004 e-mail to Arnold and
Morris, he wrote, “…I think this is sufficient to document the closing of the Kerr Oil
Issue.” The Auditor said his reference to the closing of the Kerr-McGee issue was not



                                            16
intended to imply that the Kerr-McGee oil issue was resolved. He explained that the
conversation record was intended to document the decision by management not to pursue
the issue any further. Furthermore, the Auditor said the Program Manager, Offshore
Compliance and Asset Management, never told him or other members of the team to go
back to Kerr-McGee to seek additional information.

When we interviewed the Program Manager, Office of Enforcement, MRM, he recalled
that Maxwell brought an oil issue to his attention pertaining to Kerr-McGee and
suggested it be included in the gas settlement negotiations that he was working on with
SOL attorneys and Kerr-McGee. The Program Manager, Office of Enforcement, said he
participated in a teleconference with Geoff Heath; a former Deputy Associate Solicitor;
the MMS Chief of Policy and Appeals; Maxwell; and the Program Manager, Offshore
Compliance and Asset Management. He said the group discussed Maxwell’s proposed
Orders to Pay Additional Royalties and decided not to include Maxwell’s oil issues in the
gas settlement negotiations.

He said that under the requirements of the arm’s-length regulations, Kerr-McGee’s
decision could have been just a good business decision. He explained that without
further information, there was not enough evidence to support Maxwell’s claim. The
Program Manager, Office of Enforcement, said there was no evidence of kick-backs or
collusion, which would have been a different issue.

The Program Manager, Office of Enforcement, opined that Maxwell needed to do “more
work” before they could present Kerr-McGee with an Order. He said he believed Kerr-
McGee had somehow reduced its proceeds but did not agree with the amount Maxwell
presented (i.e., the difference in the price that Kerr-McGee received at sale from the third
party, Texon, and the price the third party received at resale, less transportation costs).

When asked about the former Supervisory Auditor’s allegation that he told Maxwell that
Secretary of the Interior Gale Norton did not want Maxwell to send an Order to Pay to
Kerr-McGee, the Program Manager, Office of Enforcement, denied the allegation. He
said he was not aware of any involvement by Norton in the discussions and decisions
surrounding the issues Maxwell raised about Kerr-McGee.

The Chief, Policy and Appeals, MMS, told the OIG that he served as an attorney for the
SOL from [Exemptions (b)(6) and (b)(7)(C)]. He said he had no recollection of
participating in a meeting or discussion about Maxwell’s proposed Issue Orders to Kerr-
McGee. He recalled participating in nationwide crude oil settlements when he was the
lead counsel for such actions but reiterated that he had no recollection of the issues raised
by Maxwell or related discussions.

The Chief explained that it would have been normal for multiple SOL attorneys to
discuss a crude oil issue with MMS managers because they maintained a close
relationship with their clients. He commented that many of the regulations pertaining to
royalty issues were “fuzzy” and explained that reading the regulations often resulted in
different interpretations, causing many of the disputes between MMS and the oil industry.



                                             17
We interviewed Lucy Querques Denett, Associate Director, MRM, who recalled being
apprised by the Program Manager, Offshore Compliance and Asset Management, about
the issue raised by Maxwell. She said the Program Manager intended to consult the SOL
about it. She recalled the following:

       … I think they got together and they discussed [Maxwell’s proposed Issue
       Orders to Kerr-McGee] and the Solicitor’s Office was really clear that
       there is no obligation to market downstream. There is nothing in the law
       or the regs to say you have to do that. And we can’t go to benchmark …
       in a non-arm’s-length situation, unless we can show that it is a non-arm’s-
       length situation. And they didn’t have that. And so, [the Program
       Manager, Offshore Compliance and Asset Management,] may not have …
       he didn’t disagree with the Solicitors because he certainly didn’t come to
       me and say, ‘I disagree with what the Solicitor’s Office is saying.’ He
       basically had to concur because there was nothing in the record or
       anything that Bobby Maxwell showed him.

       [The Program Manager] didn’t like the fact that the price was lower than
       some of the other[s] [sic], but somebody makes a stupid business decision;
       it’s a stupid business decision, not just for us but for them. And that’s
       why we have the opportunity when we take it in-kind that … if we think
       we can do better …. So the decision, they backed off of sending an Order.

Denett stated that the Program Manager, Offshore Compliance and Asset Management,
believed MRM would fare better by taking the Kerr-McGee oil in kind and selling it.
She noted that the MMS RIK Program was subsequently asked to convert the Kerr-
McGee leases to in kind.

We interviewed the Coordinator, Internal Quality Control Review, MRM, regarding his
knowledge of Maxwell’s proposed Issue Orders. He said Maxwell visited him for about
5 minutes as Maxwell was leaving the building on his last day of work with MMS
(February 25, 2005). According to the Coordinator, Maxwell told him that the Program
Manager, Offshore Compliance and Asset Management, and others he did not name were
listening during a telephone conversation when Maxwell was told to drop his case against
Kerr-McGee. Maxwell claimed he had a conversation record regarding the discussion.
According to the Coordinator, Maxwell also said the direction came from someone in
Washington, D.C., and mentioned that a man named “Cason” was involved. He further
said Maxwell claimed “Cason” was a former Kerr-McGee executive. Note: James
Cason was appointed as Associate Deputy Secretary of the Interior in August 2001. Our
investigation disclosed no evidence that Cason has ever been employed by Kerr-McGee.

When we interviewed the Program Manager, Offshore Compliance and Asset
Management, regarding the Coordinator’s disclosure, he acknowledged having had past
conversations with James Cason but said they did not relate to the Kerr-McGee matter.




                                           18
In addition, he stated that he did not participate in any conversations with both Cason and
Maxwell together.

We questioned Geoff Heath, the SOL Attorney-Advisor, and the Program Manager,
Office of Enforcement, regarding Cason’s alleged involvement in directing Maxwell to
drop his efforts against Kerr-McGee. None had knowledge of Cason being involved in
discussions or decisions pertaining to Maxwell’s proposed Issue Orders to Kerr-McGee.

In addition, the Program Director, Compliance and Asset Management, MRM, and
Deborah Gibbs Tschudy, Deputy Associate Director, MRM, said they had no knowledge
of Cason’s involvement in decisions pertaining to the Kerr-McGee issues raised by
Maxwell.

When interviewed, Cason said he had heard of the Maxwell qui tam lawsuit but did not
know much about it. He said he believed Maxwell was an MMS employee who was
conducting audit work and, in doing so, concluded that additional royalties were owed by
a company. Cason said he thought MMS management disagreed with Maxwell’s
conclusion, which eventually resulted in Maxwell filing a qui tam lawsuit as an
individual.

When asked if he had any conversations with Maxwell, Cason said, “Not that I recall.”
Cason explained that he worked at DOI from 1982 to 1989 and, most recently, from
August 2001 to the present. Cason stated that he talked to many people about “lots of
things” and said it was possible that he talked to Maxwell at some point but added, “[I]t
doesn’t strike any chord with me.”

Cason denied the allegation that he had worked for Kerr-McGee. When asked, he also
denied ever working for the Anadarko Petroleum Corporation, which purchased Kerr-
McGee. Cason also denied that he had served on the Board of Directors of Kerr-McGee
or Anadarko. He said he formerly worked for the Carborundum Corporation, a
manufacturer of silica-based products. He said the Kennecott Copper Corporation
purchased Carborundum, and Standard Oil of Ohio later purchased Kennecott. He said
British Petroleum eventually purchased Standard Oil. Cason explained that although oil
companies owned Carborundum, it was involved in a “side market” that was unrelated to
the oil and gas industry.

Maxwell’s Other Assertions

In response to Maxwell’s allegation that the Program Manager, Office of Enforcement,
had told him that MMS Director R.M. “Johnnie” Burton (now retired) would be upset if
he issued the Orders to Kerr-McGee, the Program Manager, Office of Enforcement,
confirmed making the statement but explained that Burton had previously directed all
Orders to be “clear, concise, stand on their own, and be legally defensible” before being
issued. He said he had this guidance in mind when he told Maxwell he would be in
trouble if he issued the Orders – because the Program Manager did not believe Maxwell’s
Orders to Kerr-McGee met those conditions.



                                            19
As previously mentioned, Maxwell alleged in court documents that MMS had not closed
the Kerr-McGee audit because the issues he identified appeared valid and “outside
sources” were looking into them. Maxwell’s Attorney provided the OIG with a copy of
an MMS audit report, Audit of Offshore Oil and Gas Royalties Paid by Kerr-McGee Oil
and Gas Corporation, January 1, 2000, through December 31, 2000, Case Control No. 01-
80016, December 2004.

The report stated under the Summary of Audit Findings that “[t]he seventh issue, a crude
oil issue based on Kerr McGee’s acceptance of less than the market price of its crude oil
in exchange for the purchaser assuming part of Kerr-McGee’s administrative and
marketing responsibilities will remain open.” The report, under Views of Responsible
Officials, stated that “Kerr-McGee contested the seventh issue and it is currently under
review by MMS.”

We interviewed a Supervisory Auditor, Offshore Compliance and Asset Management,
MRM, Oklahoma City, OK. He said he requested that the Kerr-McGee oil valuation
remain open because he believed it was his professional responsibility not to close that
part of the audit since an Issue Letter had been sent and the issues, to his knowledge, had
not been resolved. The Supervisory Auditor added that he felt his decision to leave the
issue open was the responsible decision to make for MMS; otherwise, by closing it, he
would have been saying “everything was okay.” He did not recall any reference to
consultation with the SOL being included in the Kerr-McGee audit file.

The Supervisory Auditor said he was unsure why management elected not to include the
Kerr-McGee oil valuation issue as part of the following year’s audit work plan because
he believed there was some merit to Maxwell’s concerns that Kerr-McGee was not
paying the appropriate royalties on its oil. He explained that Kerr-McGee was an
experienced, knowledgeable payor and was paying less than others, which, in his opinion,
raised questions.

We also interviewed an MMS Auditor about why the audit remained open. He said by
leaving the Kerr-McGee oil issue in an open status in the final audit report, MRM
avoided indicating that the issue was resolved. He opined that if MRM had indicated all
matters were resolved and closed, Kerr-McGee could have destroyed records.

During our investigation, we discovered an unsigned, undated document in the MMS
Kerr-McGee audit file in Oklahoma City, OK. The document is titled, “Review of the
Kerr-McGee Oil & Gas Corporation and Texon L.P. Oil Sales Contract.” The document
states the following:

       Based on the above, it appears Kerr-McGee underpaid royalties on crude
       oil produced from Federal offshore leases and sold to Texon. The primary
       reason for the apparent underpayment was Kerr-McGee accepting a
       reduced price for its oil in exchange for Texon performing Kerr-McGee’s
       administrative and marketing functions and thereby breached its duty to



                                            20
       market its oil to the mutual benefit of both itself and the Federal
       government.

       This issue was subsequently dropped and the case closed on the basis that
       (1) absent other data regarding Kerr’s intentional undervaluation of oil for
       royalty purposes, the MMS cannot draw a conclusion that Kerr’s oil prices
       are not acceptable as arm’s-length prices because after all, Kerr
       themselves did not receive $60 million by accepting the prices received
       from Texon and (2) we do not have the ‘forensic’ audit training to
       adequately investigate why Kerr would take less than a market price for its
       crude.

Lanis Morris, Auditor, MRM, Oklahoma City, OK, stated that during an MMS Internal
Quality Control Review at Oklahoma City, OK, he told the Coordinator, Internal Quality
Control Review, MRM, that the Program Manager, Offshore Compliance and Asset
Management, had stopped the Kerr-McGee audit. According to Morris, the Coordinator
responded that the Internal Quality Control Review was investigating allegations that the
Program Manager, Offshore Compliance and Asset Management, was stopping audits.
Morris also stated that the Coordinator told him Deborah Gibbs Tschudy, Deputy
Associate Director, MRM, told the Coordinator to remove all references to the Program
Manager from the final audit report.

When interviewed, the Coordinator recalled that in 2004, he conducted a review of audit
files at the MRM office in Oklahoma City, OK. He said the draft Internal Quality
Control Review report contained the following language under Other Items regarding the
Internal Quality Control Review of the Kerr-McGee audit file:

       The sole audit issue developed in this case was closed based on guidance
       from a senior level MRM official. However, that guidance did not contain
       documentation to support the management decision. While the guidance
       may have been based upon conversations with the MRM’s Office of
       Enforcement, legal counsel or case law known to the MRM Manager, no
       such support was included with the conversation record.

       In the future, request that Senior MRM Management issue and sign policy
       documents to support such determinations prior to closing an audit case.

The Coordinator opined that this section was not included in the final Internal Quality
Control Review report because it addressed information that was not standard to these
reviews. He explained that Internal Quality Control Reviews concentrated on technical
aspects of an audit and did not involve a review of the audit’s subject matter. He
indicated that the decision not to include the observation was likely made by a Program
Analysis Officer, Internal Quality Control Review, MRM. The Coordinator denied that
he told Morris that the Internal Quality Control Review was investigating the Program
Manager, Offshore Compliance and Asset Management, or that Tschudy ordered the
review to remove references to the Program Manager in their report.



                                             21
A second Coordinator, Internal Quality Control Review, MRM, said the draft observation
was not included in the final report because it addressed a management decision, which
was an issue outside the scope of the Internal Quality Control Review.

During his interview, the Program Analysis Officer, MRM, said he reviewed the draft
report with the second Coordinator and decided not to include the observation from the
draft report. He said the omitted language related to the substance of the audit, a matter
not within the scope of the Internal Quality Control Review. He also said the Indian
Compliance and Asset Management Auditor’s conversation record provided a sufficient
basis for omitting the language in the report because it included discussion points
between the Program Manager, Offshore Compliance and Asset Management, and the
auditors. He added that the Internal Quality Control Review’s mission did not include
reviewing management decisions.

When interviewed, Tschudy denied that she ever asked for a review of the Program
Manager, Offshore Compliance and Asset Management, or a review of the Kerr-McGee
audit by the Internal Quality Control Review. Tschudy also denied that she ever removed
language from the Internal Quality Control Review report or told anyone to do so.

Tschudy provided a chronology, created by the Program Analysis Officer for the Internal
Quality Control Review of the Oklahoma City, OK, Offshore Compliance and Asset
Management office, conducted from July 12, 2004, through July 15, 2004. The
chronology showed that the draft report was sent to Maxwell for review and that since
Maxwell concurred with the report, there was no requirement to consult with Tschudy
prior to publishing the final report.

Reporting and Safeguarding Requirements

Our investigation found that Maxwell’s MMS training records for calendar years 2003
and 2004 show that Maxwell attended the MRM Office of Enforcement Illegal Acts
Awareness training on September 14, 2004. Additionally, the records disclosed that
Maxwell completed the following courses: DOI Annual Ethics Training, Federal
Information Systems Security Awareness, and Government Auditing Standards – 2003
Revision.

A review of the MMS Information Technology Rules of Behavior database for 2004
through 2006, used to record employee acknowledgement of the rules, including
discussion of safeguarding and use of official and proprietary information, disclosed no
record identifiable with Maxwell from 2004 to 2006.

A class list for the MMS Safeguarding Proprietary Data course obtained from the MRM
Office of Enforcement disclosed that Maxwell attended the training on August 31, 2004.

In an affidavit filed on April 1, 2005, in the Federal District Court for the District of
Colorado (Court), Maxwell chronicled the events and actions that eventually led him to



                                            22
file the qui tam lawsuit. Maxwell did not include any indication that he reported his
suspicions about Kerr-McGee to the OIG or any other investigative agency prior to filing
his lawsuit. He did not indicate whether he removed official documents or data from
MRM offices or systems.

When interviewed, an Employee from the Office of Enforcement, MRM, said he did not
recall Maxwell ever contacting the Office of Enforcement to complain about misconduct
or improper actions by MMS managers or employees. He said there was no record in the
Office of Enforcement files of Maxwell filing a complaint. He also did not recall
Maxwell complaining to the Office of Enforcement about the issues identified in his
lawsuit. He said the first time he learned about Maxwell’s lawsuit was when he was
contacted by the OIG.

In a supplemental Court affidavit, dated January 9, 2006, Maxwell related the following:

       The preparation and filing of this suit did not occur substantially with the
       time and space limits of my work when I was employed by the MMS. I
       met with my attorneys on my own time and to the extent any work was
       required of me, such work was performed when I was off work.

Our investigation revealed that Maxwell sent a disclosure letter to the U.S. Attorney’s
Office, Denver, CO, on June 2, 2004, and, through his attorneys, stated the following:

       Out of an abundance of caution, to avoid any appearance of impropriety,
       Mr. Maxwell has not removed the pertinent MMS files, and does not
       attach same hereto. The Government may locate the applicable file, CTS
       [Exemption 2], at the MMS office located at 4013 N.W. Expressway,
       Suite 210, Oklahoma City, OK 73116; [Exemption 2]. It is believed this
       file contains key documents, letters and analysis.

Kerr-McGee, in its Motion for Brief in Support of Summary Judgment for Lack of
Subject Matter Jurisdiction on December 2, 2005, asserted the following:

   •   Paragraph 38 – “Maxwell removed approximately 90 pages of documents from
       the MMS Audit file (‘MMS Documents’) used to pursue this action.”
   •   Paragraph 39 – “Maxwell removed the MMS Documents without informing or
       seeking or obtaining permission from the MMS.”
   •   Page 9 – “Maxwell’s [False Claims Act] claim is premised upon this information,
       which Maxwell removed from the MMS’ Audit files – without permission or
       authorization – while he was still employed at MMS ....”
   •   Page 10 – Maxwell “… used his position to gain access to Kerr-McGee
       information, removed it from the MMS without notice or approval, and then used
       the information to file his [False Claims Act] claim.”




                                            23
In a Brief in Opposition to the Defendants’ Motion for Summary Judgment for Lack of
Subject Matter Jurisdiction on January 10, 2006, Maxwell stated that “[t]he Relator
admits the accuracy of ¶¶ 38 -39” in reference to the Kerr-McGee motion.

A Senior Auditor for Compliance and Asset Management, MRM, who worked directly
for Maxwell prior to termination of his employment, believed Maxwell was out to make
as much money as he possibly could. He opined that Maxwell saw how much money
was made by the relators in other qui tam lawsuits and thought he could do the same
thing.

We showed a Freedom of Information Act (FOIA) Staff Member, MMS, four exhibits
from Maxwell’s affidavit filed in the U.S. District Court for the District of Colorado on
April 24, 2006. We asked him to ascertain whether the exhibits contained proprietary or
other data not releasable under the FOIA.

The FOIA Staff Member identified Exhibits 1-C, 1-E, and 1-D as containing proprietary
business information. He said the information in Exhibits 1-C, 1-E, and 1-D would,
nonetheless, be releasable in response to a FOIA request.

He stated that some of the information contained in Exhibit 1-B was business proprietary
and business confidential information that would be redacted before release of the
document in response to a FOIA request. He added that other information in Exhibit 1-B
would be redacted because it included discussion about internal government decisions
that was protected under an exemption to the FOIA.

An MMS FOIA/Privacy Act Officer reported that he found no record that Maxwell, his
attorneys, or their law firm had made any FOIA requests to MMS.

MRM Safeguarding Responsibilities and Actions

As reported earlier, MRM provides information and training to its employees regarding
the protection and safeguarding of proprietary and sensitive data or records.

An MMS Records Officer stated that prior to his arrival at MMS in [Exemption (b)(6)
and (b)(7)(C)], the records officer position was vacant for 2 years. He said the former
MMS Physical Security Officer was performing the duties of MMS’s proprietary
information officer until December 2006. In a January 2007 teleconference, the Records
Officer was designated as the new MMS proprietary information officer.

The Records Officer stated that in a June 2005 conference, MMS discussed the need to
update Part 386 of the MMS Manual regarding MMS’s Safeguarding of Records and
Information. He stated that he did not believe any other MMS employee other than
himself had been designated as a proprietary information officer. He said MMS has other
records officers but did not know whether they handled proprietary information issues.




                                            24
The Records Officer stated that he did not know of any formal training provided by MMS
to its employees regarding the safeguarding and protection of proprietary information.
He said he believed the 1995 memorandum, “Guidance and Procedures for Handling
Requests for Royalty Management Program Proprietary Data/Records [emphasis added]”
only applied to MRM and was not bureau-wide. The memorandum established
mandatory annual training regarding the need to protect such information when it was
requested through the FOIA; it did not mandate training for MMS employees with
respect to the day-to-day safeguarding and protection of proprietary information.

According to the Records Officer, “[E]veryone is fully aware what is going on,” yet he
stated that he was not aware of any “tools put in place” to control the release of
proprietary information by employees. He said he had not participated in any meetings in
which the safeguarding and protection of proprietary information was the subject and he
was unaware of any such meetings scheduled for the future. He said the records office
was dealing with many other issues and he was simply “scrambling to keep his head
above water.”

During our interview of another Records Officer, MMS, he stated that according to
regulations, MMS was supposed to appoint proprietary officers for each section but had
never done so. When asked about the Document Control Program at MMS, he described
MMS’s record of information control as “poor” and added that “MMS doesn’t give a shit
about document control.”

We found that the MMS Manual, Part 386.1.7A(4), requires that applicable officials are
responsible for the following:

       Designating and reporting the designation of a Proprietary Officer to the
       Security Officer and the Records Manager. It is recommended that the
       appropriate Records Officer be designated as the Proprietary Officer. If
       there is no Records Officer on site or proprietary data/information is
       maintained by individual offices, it is recommended that the office
       supervisor be designated as the Proprietary Officer.

In response to questions regarding the safeguarding of proprietary information, Deborah
Gibbs Tschudy, Deputy Associate Director, MRM, said MMS was a small agency and
had assigned two proprietary officers. She said proprietary officers were not assigned to
each section, but employees knew to go to the proprietary officers if they had questions.

Tschudy stated that the MRM Internal Quality Control System advised employees that
audit documentation should be adequately safeguarded. She also noted that the MMS
Audit Manual (Chapter 5.7, Safeguarding Work Papers) required that confidential,
privileged, or proprietary information received and used by MMS employees and
government contractors had to be protected from unauthorized disclosure.

Tschudy added that the Internal Quality Control System section of the MRM Audit
Manual included an acknowledgement form that auditors were supposed to sign when



                                            25
they received their Audit Manual. Tschudy noted that MMS employees were not
required to sign a Proprietary Information Acknowledgement Form.

Our efforts to locate Maxwell’s Internal Quality Control System acknowledgement form
were unsuccessful because the MRM Audit Manual formerly assigned to Maxwell could not
be located. Note: Maxwell’s employment at MRM was terminated on February 25, 2005.

                              Declination of Prosecution

On September 15, 2006, the U.S. Attorney’s Office, Denver, CO, verbally declined
criminal prosecution of Maxwell for alleged removal and use of official government
documents in order to pursue his False Claims Act lawsuits against Kerr-McGee,
suggesting that a civil or administrative remedy might be more appropriate.




                                          26
            Little and Morris v. ENI Petroleum Company, Inc., et al

                             Little and Morris’s Complaint

On November 30, 2005, MMS auditors Randy Little and Lanis Morris filed a False
Claims Act lawsuit against ENI Petroleum Company, Inc., and 24 other oil and gas
companies for allegedly filing false monthly MMS Form 2014s, Report of Sales and
Royalty Remittance, submitted to MMS. Little and Morris asserted in their complaint
that the companies made false claims when they certified that their reporting of interest
payments on royalties (and actual payments made) to the federal government complied
with federal laws and regulations.

In their complaint, Little and Morris also asserted that the companies only calculated and
reported royalty payments on oil and gas production for the given monthly reporting
period on the Form 2014s, and, in violation of 31 U.S.C. § 3729(a)(7), did not calculate
the interest on previous underpayments and late payments.

In the “Statement of Reasons for the United States Department of Justice to Take On the
Qui Tam Litigation Case” for their lawsuit, Little and Morris asserted that when they
discovered that oil and gas companies were failing to pay interest, they informed their
MMS supervisors, who failed to take action. According to Little and Morris, instead of
sending out Issue Orders to Pay Late Payment Charge, MRM team leaders decided not to
pursue collection of interest.

Little and Morris further alleged that they had conversations with the companies about
the interest payments, and the companies responded by stating that they were waiting for
the government to calculate the interest and bill them for payment. Little and Morris
stated that this process was contrary to federal laws and regulations, which placed the
responsibility of calculating interest on the companies.

To illustrate the severity of the issues raised in the lawsuit, Little and Morris collected
data for the month of May 2003 and calculated that the defendant companies owed MMS
a combined total of $1,589,613.

In their lawsuit, Little and Morris included an e-mail from a Manager, Financial
Management, MRM, dated July 22, 2005, that was sent in response to an inquiry by Little
about interest collection. In his response to Little, the Manager stated that while it was
true that interest was “rarely reported” on Form 2014 and that MRM Financial
Management routinely billed for late interest payments, MRM’s current interest billing
system “doesn’t work very well” and interest billing was deemed “less of a priority” than
other MRM Financial Management responsibilities/functions. In his e-mail, the Manager
continued by stating that the collection issues had resulted in a “huge backlog,” adding
that many of the interest bills that had been created had still not been reviewed or issued.

Little and Morris also included in their lawsuit an October 13, 2005 e-mail from the
Regulatory Accounting office, Kerr-McGee Oil and Gas Corporation. In the e-mail, the


                                            27
Kerr-McGee Employee stated that since he knew MRM was “years behind” in
calculating interest, he did not want to pay interest on a portion of the monthly Form
2014 and keep track of it until the full amount of interest was assessed. He added, “Plus,
this way I don’t have to keep track of all the interest rate changes between the due date
and the payment date. Yes, I’m taking the easy way out.”

                   2005 Investigation in Response to Qui Tam Filing

Upon receipt of Little and Morris’s filed qui tam complaint in December 2005, DOJ
notified both the DOI-SOL and the DOI-OIG of the lawsuit and requested assistance in
determining the merits of the claim.

According to an SOL Attorney-Advisor, DOJ, the SOL, and the OIG conducted an in-
depth investigation into the merits of the claims in the lawsuit. The investigation
included multiple joint interviews, document reviews, and legal analysis.

The Attorney-Advisor stated that the investigation had determined the relators’ claim
stemmed from a disagreement with management decisions. He added that, in his opinion,
the actions and decisions made by MMS officials related to the lawsuit claims were legal.
He noted that he believed an appropriate use of discretion had been exercised.

Associate Solicitor James Harris also participated in the review of Little and Morris’s
claims. According to both Harris and the Attorney-Advisor, the SOL consulted with DOJ
concerning the relators’ lawsuits upon completion of the investigation. Ultimately, DOJ
declined to intervene in those lawsuits.

On September 8, 2006, DOJ filed a Notice of Election to Decline Intervention in the
lawsuit. DOJ stated, in part, that it appeared that some or all of the material facts and
documents that served to support the allegations made in the complaint were obtained by
the relators while serving as employees of the U.S. Federal Government. DOJ noted that
because federal employees had a fiduciary duty to use all information gained in the
course of their employment solely for the benefit of the United States, the government
reserved the right to object, at the appropriate time, to any award made to the relator.

                    2006 OIG Investigation of the Relators’ Claims

We began our investigation by reviewing the Royalty Simplification and Fairness Act,
which contains the following language amending the Federal Oil and Gas Royalty
Management Act of 1982 (30 U.S.C. 1701 et seq.), under Section 111A, Adjustments and
Refunds:

   •   “(2)(A) For any adjustment, the lessee or its designee shall calculate and report
       the interest due attributable to such adjustment at the same time the lessee or its
       designee adjusts the principle amount of the subject obligation, except as provided
       by subparagraph (B) [emphasis added].”




                                            28
   •   “(B) In the case of a lessee or its designee who determines that subparagraph (A)
       would impose a hardship, the Secretary or such delegated State shall calculate the
       interest due and notify the lessee or its designee within a reasonable time of the
       amount of interest due, unless such lessee or its designee elects to calculate and
       report interest in accordance with subparagraph (A) [emphasis added].”

During our investigation, we also found that MMS periodically provides royalty payment
training classes to the oil and gas industry. Slide 26, titled, “Reporting Your Own
Interest,” from the presentation used for the training advises companies that they do not
have to report their own interest. The slide contains the following language: “Do I have
to? It’s too hard. The answer is NO!”

We also found that on March 31, 1997, Lucy Querques Denett sent a Dear Payor Letter to
all relevant oil and gas companies containing guidance stating that MRM would be
sending “interest statements,” rather than “interest bills,” which would show interest for
each month. Note: Our investigation revealed that MRM regularly uses Dear Payor
Letters to convey regulatory interpretation, provide guidance, and inform oil and gas
companies about new information or operational changes.

In the letter, Denett added that the interest statement would contain totals for interest
owed by MRM, interest owed by the company, and the net difference. Denett also
addressed the question, “What if I do not report interest on my Form MMS-2014?”
answering, “MMS will conclude that you are claiming an interest reporting hardship” and
“We will then calculate the interest and notify you of any interest owed or owing on the
Interest Statement.”

During his interview, Geoff Heath, Assistant Solicitor for Royalty and Offshore Minerals,
Division of Mineral Resources, SOL, said the Royalty Simplification and Fairness Act
did not require the promulgation of regulations and that Dear Payor Letters could be used
to inform lessees how MMS intended to administratively handle a certain situation, such
as calculating and reporting interest.

On October 1, 1997, Denett sent another Dear Payor Letter to the relevant oil and gas
companies stating that they were not required to report interest to MRM. The letter
stated, “If you do not report interest on your form MMS-2014, MMS will assume you
have determined interest reporting to be a hardship for your company,” and “MMS will
compute interest and notify you of any interest owed to you or to MMS on an interest
statement.”

MRM provided the following data for Fiscal Year (FY) 2002 through FY 2006 depicting
the number of interest bills issued on federal and Indian oil and gas leases, the amount
billed, the amount collected, and credits:




                                           29
       •   Interest Bills Invoiced

               o Federal Leases – 5,324 interest bills for $12,755,992
               o Indian Leases – 2,940 interest bills for $8,603,861
               o Total –          8,264 interest bills for $21,359,853

       •   Interest Bills Paid

               o Federal Leases – $8,449,864
               o Indian Leases – $5,148,152
               o Total –          $13,598,016

       •   Overpayments Credited Back to Payors

               o Federal Leases – $8,597,747
               o Indian Leases – $1,926,951
               o Total –          $10,524,698

Note: Credit for overpayments on federal leases includes interest. Interest is not paid to
companies for overpayments on Indian leases.

During his interview, Little recalled that MRM had issued the two Dear Payor Letters,
noted above, in 1997. When we told Little that both Dear Payor Letters advised
companies that if they did not calculate interest, MRM would consider it a hardship and
bill them for the interest, Little responded that he “deemed it differently” and added that
“[The Dear Payor Letters] didn’t say you didn’t have to pay.” He said, “It didn’t say
anywhere in that letter that [the letter] would negate that statute.”

Little acknowledged that the Royalty Simplification and Fairness Act did not define
“hardship” and that MRM had the authority to interpret what was not defined. However,
he said he disagreed with MRM’s decision to tell payors that MRM would simply assume
that a company was claiming a hardship if the company did not calculate its interest.
Little explained his disagreement by stating the following:

       I believe [Payors] are bound to follow the law. They’re bound to follow
       the statute ….[Lucy Querques Denett] does not have the authority and the
       power to circumvent what Congress has put out. She does have the
       authority …her agency does have authority to clarify … I believe to
       clarify statutes if there’s an area which they feel needs to be clarified by
       the way of putting together regulations and putting those out.

Further, in reference to the failure of many companies to calculate and pay interest, Little
stated the following:

       That tells me you got a major oil and gas company claiming a hardship.
       And I’m saying they can’t do that. I think that’s … false. And that’s why


                                             30
       we filed [the lawsuit]; that’s why we’ve gone after these companies,
       because the statute is clear; they know it’s there; they know what [Lucy
       Querques Denett] said. ‘Follow the statute. If you don’t, we will assume
       that you’re claiming hardship.’ And so for those companies to do that,
       they are claiming a hardship, and I’m saying that is false.

Little stated that when he asked the companies why they did not pay the interest, they
responded, “You go ahead and bill us.” Little said he asked the companies, “Are you
claiming a hardship? Do you, a major company like you, have a hardship in paying and
calculating an interest?” Little claimed that the company representatives would laugh
and say, “No. We just figure that, you know, we can ride you guys” and “we know your
system is broken; we know it’s not working, and maybe you’ll never get around to billing
us.”

Little opined that the intent of the companies was the following:

       One, they’ll have free use of [the government’s] money for 4, 5, 6 years, if
       we ever do get around to billing … [and] we’re not billing the interest on
       that interest. That’s one. And two, that perhaps they may get away and
       never being [sic] interest and never be charged because our system is so
       screwed up.

During his interview, Morris said he was aware of the two Dear Payor Letters but
claimed that MRM did not have the authority or discretion to issue them because, in his
view, “[Lucy Querques Denett]’s making law there.” He said, “[The Royalty
Simplification and Fairness Act] says that [the oil and gas companies] will pay the
interest. If they don’t then we assume they have a hardship. I think those letters are
totally wrong.”

Morris stated that payors should ignore guidance by MMS and “follow the law” by
calculating interest. He added, “The law is plain. They’re sophisticated companies, so I
don’t see any – there’s no excuse for that. If you’re a one-man operation, maybe you
can’t read the law, but the Exxons and so-and-so companies have vast legal departments.
I’m sure they’re extremely aware of that law.”

When asked to explain how the companies committed fraud if MRM told them they did
not have to calculate interest, Morris responded, “I don’t think we’ve ever contended
fraud. It’s a false claim because the amount of money that they’re certifying is not
correct. That’s the false claim.” Morris explained that payors were making a false claim
when they certified their Form 2014s without including calculations for interest because
“once [a payor] submit[s] a payment on a 2014 or information on a 2014, [the payor is]
certifying to the U.S. Government that there is a hardship.” Morris asserted that the
payors had not demonstrated that calculating interest would be a hardship, so their
certification, in his opinion, was a false claim.




                                            31
Morris also said, “There is no reason to be billing out that interest. It’s not our job. Every
man-hour spent on billing out, unless those companies have a bona fide hardship, is
waste, fraud, and abuse.”

Little and Morris noted in their “Statement of Reasons for the United States Department
of Justice to Take On the Qui Tam Litigation Case” that “[h]ardship exemptions require a
written request for such exemption which has not been made by the companies at issue.”

We asked Morris about the assertion in his lawsuit that hardship exemptions required a
written request. Morris’s Attorney, who was present during the interview, intervened and
said the assertion that there was a written requirement might just be the relators’ belief.
Morris’s Attorney stated that he had not researched how MRM was supposed to know
when companies were claiming a hardship.

When we asked Little about the assertion that hardship exemptions required a written
request, he stated that the requirement was not in the statute and that he did not know
where the assertion came from. He opined that companies should write a letter to MRM
explaining why they were claiming a hardship regardless of the Dear Payor Letters.
Little opined that the companies should comply with the law and that MRM could not
override the law.

Note: Our review of the Royalty Simplification and Fairness Act determined that the Act
does not define a process for claiming an interest reporting hardship and does not
address whether a company must submit its claim for an interest reporting hardship in
writing.

During his interview, Geoff Heath, Assistant Solicitor for Royalty and Offshore Minerals,
Division of Mineral Resources, SOL, stated that, in his opinion, MMS had the authority
as the regulating agency to define “hardship” in the Dear Payor Letters and to determine
that it was more efficient for MMS to calculate and bill interest as opposed to having the
lessees do it.

When told the relators believed industry should ignore MMS guidance and calculate their
interest, Walter Cruickshank, Deputy Director, MMS, responded, “Perhaps, but if I’m in
industry’s shoes, and if the regulatory agency says, ‘This is how I want you to operate on
this,’ that’s what I’m going to do.”

During her interview, Denett said MMS was charged with interpreting the law and
making policy guidance and the companies relied on MMS to explain how the law would
be interpreted. She said she issued the two Dear Payor Letters in 1997 that provided
guidance to industry on the Royalty Simplification and Fairness Act, which required
MMS to pay interest on overpayments to companies and required companies to calculate
interest on their adjustments.

Denett said MMS and the companies could not immediately comply with the Act’s
requirements without the expense of reprogramming their computer systems.



                                              32
Additionally, Denett opined that MMS would end up doing more work if payors
calculated their interest because MMS would have to verify the payors’ calculations, and,
if they were incorrect, MMS would have to bill the payors for the corrections. She
concluded that it was easier for MMS to “just bill them.” She said MMS planned to be
current on interest billing and collection by the end of FY 2007.

When asked if the direction provided in the 1997 Dear Payor Letters was contrary to the
Royalty Simplification and Fairness Act, Denett responded, “Yes and no.” She indicated
that the impact of having to calculate interest could be a hardship for the oil and gas
industry. She explained that a small company might be able to use a calculator to
determine its interest obligation, but a large company would have to do a computer
system modification to make the same determination. Denett said she believed it could
be considered a hardship for a company to spend a few million dollars to change their
computer system. She added that MMS would receive the interest money regardless of
how it was collected, so there would be no loss to the government.

In response to a question about whether she believed the public would understand that a
major oil company could claim a hardship calculating interest, Denett said, “How do you
define hardship, just because they have a lot of money?” She admitted that when
Congress enacted the Royalty Simplification and Fairness Act, MMS should not have
considered the impact on industry, but she said she believed that MMS needed to be
“reasonable” in its implementation of the law. However, she stated that “if Joe Public
looks at it, they probably think we’re crazy.” Denett added that MMS took the “easy
way.” She said that rather than have every payor struggle to figure out how to calculate
interest, MRM management took the approach that “if you don’t do it, we’re going to
assume that that’s the hardship.”

When asked if the reasons for issuing the Dear Payor Letters were still valid almost 10
years later, Denett concluded, “[Y]eah, we probably should be rescinding it.”

The MRM Chief of Financial Management related that although the Royalty
Simplification and Fairness Act required oil companies to calculate and report interest to
MMS, he believed MMS had the authority to authorize oil companies not to calculate and
report interest. He said that in the MRM training for the oil and gas industry, MRM
advised companies that if they did not have interest calculation built into their system,
MRM would bill them.

In a separate interview, the Chief of Financial Management said that if the companies
calculated their interest in accordance with the Act, it would create extra work for MRM
Financial Management because of variances that would require MRM to have to send
bills regardless of who made the calculation.

The Chief of Financial Management said he participated in the 1997 business decision
that resulted in Denett sending the Dear Payor Letters to oil and gas companies, and he
said he still considered the decision to make “good business sense.” He explained that
MMS’s interest calculations were very complicated because there were many variables.



                                            33
He said he believed the companies would not be able to correctly calculate interest,
which would result in an additional burden on MRM Financial Management.

When asked if the Dear Payor Letters should be reconsidered based upon the possible
public perception that MMS appeared to be giving companies too much latitude in not
calculating and reporting their interest, the Chief of Financial Management responded
that it would place a large burden on the oil and gas industry and opined that many
companies would not do it. He said, “They would throw a bunch of junk at us.”

An Accountant, Financial Services, MRM, said that when MRM attempted to explain to
payors how to calculate their own interest, including providing a calculation formula, the
companies “went ballistic.” He stated that they were not receptive to the idea of
calculating their own interest because it would require changes to their computer systems.

MRM Support System – Interest Billing/Collection Issues

Throughout our investigation, we talked to various MRM managers and support
personnel, including Little and Morris, regarding the billing and collection of interest
through the MRM Support System – the computer system used for conducting MRM
operations. MRM employees outlined numerous concerns regarding the system since its
inception, including problems when the system was first deployed; a backlog resulting
from the Cobell v. Norton litigation, which required a temporary system shutdown;
delays in system improvements due to system upgrading; and constant changes in
priorities. Note: The MRM Support System was shut down from December 6, 2001,
through March 20, 2002, due to the Cobell v. Norton litigation.

According to an MRM Manager for the Project Management Office, the MRM Support
System was developed through a contract awarded to Accenture, LLP, with many
subcomponents. He stated that the financial subcomponent was based on PeopleSoft
software modified to the needs of MRM. He explained that it was designed to account
for, track, and disperse royalties paid by oil and gas companies as well as to bill and
collect interest.

Note: MRM awarded the original contract for the development of the MRM Support
System to Accenture, formerly Andersen Consulting, on September 23, 1999. The
PeopleSoft based component was deployed in November 2001, the interest
billing/collection module was deployed in January 2003, and Compliance Information
Management was deployed in July 2004.

During his interview, Little related that MRM began to encounter problems with the
interest billing and collection module of the MRM Support System when it was first
deployed. He said this resulted in MRM not billing or paying interest as required under
the Royalty Simplification and Fairness Act. Little expressed a belief that MRM had not
billed payors for interest in many years.




                                            34
Little said that when he received an e-mail from a Manager, Financial Management,
MRM, on July 22, 2005, in which the Manager said MRM was behind in interest billing
and that MRM was focusing on other priorities, he interpreted the e-mail to mean that
MRM Financial Management did not place much priority on billing and collecting
interest.

When interviewed, Morris said that in 2000 or 2001, the MRM Support System was shut
down because of the Cobell v. Norton litigation and explained that no interest was billed
or collected during the time in which the system was shut down. Morris added, “[W]e
were told approximately in 2002 by [the Financial Manager] – not to try to collect
interest; they had no receivables to put those funds to. And he would notify us when
collections would be started again. As far as I know, [interest collections] never were
[collected] from 2002 forward.” Note: The Cobell v. Norton (now former Secretary of
the Interior Gale Norton) litigation was based upon complaints that DOI was not
fulfilling its fiduciary responsibilities involving the Indian Trust. The judge in that
litigation ordered that DOI and its bureaus, including MMS, shut down automated
systems that might involve DOI’s actions pertaining to the Indian Trust. After assurances
that records would be preserved, the judge allowed some of MMS’s systems to return to
full operation. The ongoing lawsuit was originally filed on June 10, 1996. The MRM
Support System was shut down from December 6, 2001, through March 20, 2002.

When we questioned Morris about the July 22, 2005 e-mail from the Manager, Financial
Management, MRM, regarding a billing backlog, he claimed that the e-mail said MRM
“had other pressing projects, and they were not making any collections.” He added, “So
at that point in time, [Little and I] decided that … we needed to do something.”

During his interview, the MRM Chief of Financial Management said the timing of the
decision to convert from the former automated financial system to the MRM Support
System was primarily based on a desire not to have the expense of paying two contractors
(one maintaining the former system and one developing the MRM Support System) at
once. He explained that the implementation of the new system occurred in November
2001, but the billing module was not implemented until later. According to the Chief of
Financial Management, at the time the decision was made to convert to the new system,
there was no “show stopper” to prevent the conversion.

The Chief of Financial Management stated that the system shutdown caused by the
Cobell v. Norton litigation created a backlog in royalty and interest processing. At some
point after the shutdown was lifted, he said the interest module was deployed. During the
shutdown and prior to deployment of the interest module, he explained that MRM
Financial Management chose not to bill interest manually due to a risk of double billing
companies. He said any attempt to manually generate bills or collect interest would have
created duplicate billing once the interest module was deployed.

When asked, the Chief of Financial Management stated that MRM did not focus on
actually eliminating the interest backlog created by the Cobell litigation until September
2006 because resources were being used to reduce debt collection backlogs. He said the



                                            35
Corrective Action Plan was going well, and he provided a copy of PowerPoint slides
showing that MMS invoiced $16,732,309 for interest by issuing 3,286 bills during the
first quarter of FY 2007. He contrasted this total to the interest invoiced for FY 2006 –
$7,632,376 for 3,818 bills. The Chief of Financial Management noted that MRM billed
more interest in the first quarter of FY 2007 than in all of FY 2006.

Note: A larger number of bills does not necessarily equate to a larger billing amount
because the dollar amounts for bills vary widely.

The Chief of Financial Management said work on improvements to the interest billing
and collection module was stopped in anticipation of an upgrade to the PeopleSoft
software used by the MRM Support System. He added that completion of the upgrade
would “get [MRM] out of the freeze so [MRM] can do additional improvements to the
system.” He said interest billing issues would be included in the upgrade prioritization
schedule. Note: We determined that the “freeze” on changes to the MRM Support
System were in effect from March 2006 through February 2007. A few changes
pertaining to data warehouse and RIK work were allowed during the “freeze.”

A Manager, Financial Management, MRM, recalled that approximately 1 year after the
Cobell v. Norton litigation shut down the MRM Support System, the interest billing
module began working. He said the priority for MRM following the shutdown was to
reconcile and distribute royalty payments rather than to pursue interest billing. Therefore,
according to the Manager, MRM Financial Management became backlogged in its efforts
to send interest bills. He noted that interest bills were being generated by the MRM
Support System and then manually verified before being sent.

The Manager compared the MRM Support System to the previous system, stating that
some components of the new system were better. Other components, he noted, such as
the interest billing and collection module in particular, were not as functional. One
example, he said, could be seen in the fact that interest bills needed to be manually
verified before they were sent to payors until system problems were corrected by the
contractor. He also said the MRM Support System did not handle large bills very well.
He added, “If there’s [a bill] you can’t do, you set that aside and work on one you can
do.”

During interviews with an Accountant, Financial Management, MRM, the Program
Director (now retired), Compliance and Asset Management, and an MRM Manager, all
stated that the Cobell v. Norton litigation shutdown contributed to the backlog in billing
interest. The Program Director, Compliance and Asset Management, said the court-
ordered shutdown of the MRM Support System created significant backlogs in matching
royalty payments and in the processing of production reports, which was a priority
following the implementation of the MRM Support System.

Denett stated that the interest and general ledger modules of the MRM Support System
were creating problems for MMS. However, she claimed that the system was functioning
and “generally work[ed].” Denett also said she was frustrated with the MRM Support



                                             36
System because it did not generate reports very well. She indicated that the system was
designed to track data by case so it did not easily translate information to cumulative data
calls. She added that because the PeopleSoft-based financial subcomponent of the MRM
Support System received funds from a debt collection that was not tied to a report, the
system could not disperse the funds because it required that they be tied to a report.
Denett explained that this resulted in delays while MRM attempted to match money to
reports.

Denett said she recognized that the payors were continuing to have use of their money, to
the detriment of the government, due to the MRM interest billing backlog, but she said
the MRM Support System could not handle the interest payments if payors calculated and
sent them without a bill being generated by MRM. When Denett was asked whether the
public would perceive that MRM gave industry a “free ride,” she responded, “I never
looked at it like that.”

An Accountant, Financial Services, MRM, said that after the MRM Support System
interest module was deployed in January 2003, MRM found that the system had problems
in that it dated bills incorrectly, billed interest when companies paid early, and did not
identify overpayments made by companies. He indicated that MRM was working on
correcting the issues but was presently under a freeze until an upgrade to the underlying
PeopleSoft software could be completed.

The Program Director, Compliance and Asset Management, said the development of the
interest billing module was intentionally delayed due to its complexity, while Deborah
Gibbs Tschudy stated that the interest billing module was intentionally delayed because
development and deployment of other parts of the system such as royalty collection and
dispersal were higher priorities.

When asked what was being done to eliminate the interest billing backlog, MMS Director
R.M. “Johnnie” Burton (now retired), said, “We’re doing the best we can. We don’t have
very many resources to throw at the problem, outside of what needs to be done daily.”

We also interviewed five MRM accountants to obtain input from users of the MRM
Support System financial subcomponent.

One Accountant said it took him twice as long to complete interest billing using the
MRM Support System, as opposed to the previous financial system, stating that due dates
and interest calculations had to be manually verified for accuracy. He acknowledged that
there were problems with the previous system; however, he claimed that the MRM
Support System was much worse and referred to the financial subcomponent of the MRM
Support System, developed by Accenture, as “the rape of the American taxpayer.”

Another Accountant said he had not experienced problems with the MRM Support
System financial subcomponent but said he processed bills for Indian leases, which were
generally not complicated. He said he had not used the interest calculation panel, which
had been the source of many complaints from his peers who worked on federal leases.



                                             37
He said that under the interest backlog Corrective Action Plan, he had a quota of issuing
30 interest bills per week and that the overall goal was to be caught up on interest billing
by the end of FY 2007.

Another Accountant said processing interest bills and collections was much more
cumbersome using the MRM Support System than it was using the prior system. He
provided an example of an interest billing for British Petroleum Oil Company that he was
working on at the time of his interview. He estimated that he had worked 8 hours on the
bill, while under the previous system he would have completed the work in about 30
minutes.

This Accountant said the Interest Calculation Panel of the MRM Support System created
delays in issuing bills because it was not capable of handling all of the information
needed to make revisions for interest bills. He also said he was currently holding seven
interest bills for British Petroleum because the MRM Support System, in its current state,
could not process them. He said 3 bills had been pending for 2 years, 1 for 1 year, and 3
for 4 months. The dollar amount for the delayed interest bills, according to him, was
$321,057. He said he planned to send the bills to British Petroleum after the contractor
made changes to the system so that it could handle the bills.

Another Accountant said the MRM Support System did not work “real well.” He said it
was a slow, difficult, manual process to clear out “hold-status” documents in the MRM
Support System because the system did not recognize them. He explained that
accountants had to “reactivate a lease” in order to process a hold-status payment and that
they also had to use manual “work arounds” to do their jobs.

The last Accountant said he was assigned as the MRM accountant to the ExxonMobil
Corporation from March 2003 through March 2005 and to the Forest Oil Corporation
from April 2005 through December 2006. He said he never encountered an interest-
related problem with the MRM Support System. He said he issued interest bills to
ExxonMobil and Forrest Oil and had not received any complaints about the interest
calculations. He said there was a problem with the MRM Support System calculating
payments made before the due date, and these were corrected by “deleting the lines” and
making manual corrections in the system.

Note: ExxonMobil has regularly included interest in its royalty payment but was
included in the lawsuit because Morris and Little felt ExxonMobil was underpaying the
interest.

After learning of the MRM Support System’s problems and considering the fact that over
$148,000,000 has been spent to implement the system, we decided to open a separate
investigation to examine the procurement process, modifications to the original contract,
and MMS’s management/oversight of the contractor’s performance.




                                             38
Potential Time Value Losses

When interviewed, Little expressed a concern about time value loss of money owed to
the government and said the following:

       And the other point is, I want to throw out to you, is the fact that you’re
       losing tens of millions, if not hundreds of millions, of dollars of time value
       of that money not paid into our coffers. Now [Lucy Querques Denett’s]
       trying to claim, ‘Well, it’s our fault. It’s not your fault, company. We’ll
       eat that interest.’ The taxpayers, again, ought to be outraged because the
       companies owed it at this date; they’re using this as a tool to have free use
       of that money for three, four, five, ten years – and maybe forever – and
       never pay interest on that. They know what’s happening. Believe me,
       industry knows what’s happening out there. They know they got a free
       ride. And they’re using a little loophole, if you call it a loophole.
       Personally, I think that they’re going to have to prove a hardship [in
       court]. I don’t think they’re going to be able to prove that, to be able to
       say, ‘Your Honor, we have a hardship, so therefore we couldn’t do it.’

Note: Time value loss means the loss of the interest the government would have accrued
on the money if MRM had submitted the interest bills in a timely manner and the
companies paid the bills by the due date.

A Senior Auditor, Compliance and Asset Management, MRM, said that due to the
interest billing backlog, the government incurred a loss of the time value of interest
dollars. He explained that if MRM was supposed to bill a certain amount of interest
today, and then sent an actual bill a year from now, MRM would still bill the same
amount that was due today.

The MRM Chief of Financial Management opined that MRM was about 2 years behind
in interest billing and said there would be no loss to the government once interest billing
was caught up. The Chief of Financial Management and a Manager, Financial
Management, MRM, both said MRM was not at risk of surpassing the 7-year statute of
limitations on collecting unpaid interest.

The Chief of Financial Management admitted that due to long billing delays, there was a
loss to the taxpayers in the time value of interest dollars. However, he noted that the
regulations stated that interest for late payments was calculated from the due date of the
royalty payment to the receipt date of the payment.

The Chief of Financial Management said MRM Financial Management had, in fact,
calculated an estimate for the time value loss to the government. He explained that MRM
used a random sample generator to select 10 percent of interest bills issued from July
2001 through September 2006. He explained that MRM decided to determine a “ball
park” estimate for the time value loss because to be more precise, they would have had to
look at every bill that was issued during the sample time period. The Chief of Financial



                                             39
Management stated that MRM had higher priorities such as resolving the backlog;
therefore, he believed that taking the time to do more than the estimate was not worth the
effort.

He provided a written explanation of the calculation process, which calculated a total
time value loss of $489,220.

MRM Collection of Interest on Interest

During his interview, Little also alleged that companies were not being billed interest on
unpaid interest. He opined that if MRM billed a company for interest on a late royalty
payment 4 or 5 years late, the company should also pay interest on the late interest
charge. He indicated that the interest should accrue like a credit card.

Our review of 30 C.F.R. § 218.54, Late Payments, disclosed that interest charges should
be assessed for unpaid/underpaid royalties from the date the amount is due, and interest
will be charged on the amount not received (and for the number of days the payment is
late).

However, through interviews with various MRM officials, our investigation determined
that MRM considers the receipt date of the late payment/underpayment (MMS Form
2014) as the payment date, whether interest has been included or not. Interest on late
royalty payments is accrued from when the royalty should have been paid until the actual
royalty payment date (receipt of the 2014). MRM then bills the company for the interest
that is owed from the late payment. Interest does not continue to accrue for the period in
which the government delays billing for the interest; however, 35 days after the company
receives a bill from the government, the government begins charging interest on interest.
Once MRM receives payment for interest on late royalty payments, MRM will send
another bill for interest on the late interest payment.

When interviewed, a Manager for Financial Management stated that MRM charged
interest on late royalty payments by comparing the date the royalty payment was received
to the due date. He explained that once MRM sent a bill to the company, the company
had 35 days to pay the interest, after which it was subject to additional interest charges.
He said MRM could not calculate the interest on the unpaid interest until the initial
interest was paid. He added that once the initial interest payment was received, an
additional interest bill was generated.

According to the MRM Chief of Financial Management, when MRM received a late
royalty payment or royalty underpayment from a lessee (through submission of the Form
2014) MRM stopped interest from accruing. He said that if the payor underpaid on its
Form 2014, the original due date was used to calculate the interest owed. He added that
late interest payments were calculated from the due date to the date MRM received the
royalty payment, and interest did not accrue thereafter.




                                            40
We told the MRM Chief of Financial Management that Little alleged that interest should
be compounded, or accrued, monthly like a credit card. He responded that Little’s
assertion was incorrect and explained that in accordance with regulations, interest was
only charged from the date the royalty was due until it was paid.

During their interviews, an Accountant, Financial Management, MRM, and the MRM
Chief of Financial Management said the relators’ allegations that MRM was not billing
interest and not billing interest on late interest were unfounded. The Accountant said
MRM was current on interest billing through August 2005 and had initiated a Corrective
Action Plan that MRM Financial Management believed would bring MRM current on all
interest billing and collection by the end of FY 2007.

MRM Instructions to Auditors Regarding Interest Collection

In their lawsuit, Little and Morris included examples of letters to payors that they had
prepared in May 2002 in which payors were informed of the Royalty Simplification and
Fairness Act requirement to calculate and report interest owed. The letters also informed
the payors that a calculation of the interest owed was being provided to them as a
convenience by MRM auditors. Additionally, Little and Morris included a copy of an e-
mail message sent by Arnold on June 5, 2002, informing recipients that, under Maxwell’s
direction, they were not to issue any Orders to pay interest. The e-mail stated that MRM
Financial Management would be responsible for billing interest on any additional
royalties identified by audit or compliance efforts.

According to Little, Bobby Maxwell had encouraged the auditors under his supervision to
include interest collection in their Issue Orders (in May 2002); however, he said MRM
Financial Management stopped the auditors before they sent the modified Orders with the
interest collection language. Little said he believed Financial Management did not want
the auditors to include interest collection because doing so would cause a problem for
Financial Management if the companies made interest payments with no receivable
(bill/invoice) in the system.

Morris stated that in about 2003, auditors in the Oklahoma City, OK, office prepared
Issue Letters “demanding interest” from payors at the direction of Bobby Maxwell.
According to Morris, approximately a week later, they were told to “stop doing what
you’re doing.” Morris stated that his supervisor at the time told him the direction not to
proceed with sending the letters also came from Maxwell.

Joel Arnold, Supervisory Auditor, MRM, said Bobby Maxwell initiated a policy (in May
2002) for the Oklahoma City, OK, Compliance and Asset Management office to put
language in their Issue Letters notifying companies of the requirement to calculate and
pay interest. He added that the auditors would sometimes calculate the interest that the
company owed and provide that figure to them in the Issue Letter as a convenience.
When asked whether his efforts and direction to his employees to attempt to collect
interest was contrary to MRM policy, Arnold responded that he believed the policy was




                                             41
outdated. He added that he was just doing what his supervisor (Bobby Maxwell) told him
to do.

We determined that the MMS Audit Manual, Release 2, dated January 16, 1998, Chapter
23.2, states, “Auditors should never generate separate interest bills for post-[Royalty
Simplification and Fairness Act] audit periods because the bills will duplicate interest
amounts.” The MMS Audit Manual, Release 3, dated January 1, 2005, Chapter 22.2,
states, “Auditors should not generate separate interest bills because the invoices will
duplicate interest invoiced on system-generated …invoices.”

Little, Morris, and Arnold acknowledged that they were aware that the MMS Audit
Manual directed that auditors should not issue demands for interest when they were
seeking payments from payors and that auditors should notify Financial Management,
which would then calculate and bill interest.

An MRM Western Team Manager said that because the MRM Support System interest
billing and collection module was not working well, MMS Compliance and Asset
Management set up an interim process in which auditors would use a program similar to
Financial Management’s program to calculate the interest. He said the auditors would
then post interest calculations manually as “sort of a book entry to document what will
ultimately happen when the system catches up with its backlog and bills the interest.”

This Manager said there was no intention of forgiving interest owed to the government.
He described the interim process as a “place holder” instituted because of the interest
backlog in Financial Management. He noted that this process was communicated to
auditors in an October 13, 2004 memorandum titled, “Case Management and Tracking
through the Compliance Information Management Application.”

The Manager said the auditors were informed through the aforementioned memorandum
not to calculate and bill interest. He said the auditors were advised that billing interest
directly created a burden on Financial Management because it required additional steps to
account for the billing and to prevent duplicate billing.

He stated the following in a July 22, 2005 e-mail to Little:

       I found the following in the Audit and Compliance Policies and
       Procedures Manual, from page 4 of the October 13, 2004 memo on case
       management and tracking: ‘Until we’re current in issuing automated
       interest bills and have a means of distinguishing interest in [Compliance
       Information Management], manually calculate interest due, document it in
       the workpapers (please see Attachment 1 for a sample workpaper to
       document the interest calculation), and add it as a finding and collection
       into the [Compliance Information Management] fieldwork subcase. Note
       in the comments that the interest calculation is not an actual bill.’




                                             42
A Minerals Revenue Specialist, Office of Enforcement, MRM, recalled that he was
assigned as the acting supervisor for the Oklahoma City, OK, Offshore Compliance and
Asset Management office after Bobby Maxwell retired in June 2003. He said he served
in that capacity for approximately [Exemptions (b)(6) and (b)(7)(C)]. He recalled
advising auditors in that office not to calculate interest or request manual bills from
Financial Management. He explained that he provided this guidance to the auditors
because the payors’ Form 2014s would eventually be processed through the MRM
Support System, which would automatically generate interest bills. He said that if the
auditors calculated the interest or requested manual bills, the payors could be billed
twice.

The MRM Chief of Financial Management said the MMS Audit Manual specifically
stated that auditors should not attempt to collect or calculate interest. He said that if
auditors attempted to collect interest manually, it would create a duplicate billing because
the MRM Support System would do it automatically as well.

A Senior Auditor, Compliance and Asset Management, MRM, opined that Bobby
Maxwell influenced the Offshore Compliance and Asset Management office in
Oklahoma City, OK, into pursuing interest calculations. He said that office was the only
group in MRM pushing to calculate interest manually. He recalled Maxwell once stating
that findings “paid like slot machines” when referring to MRM efforts to get companies
to pay additional royalties.

A Supervisory Auditor (and Morris’s former Supervisor), Offshore Compliance and
Asset Management, MRM, Oklahoma City, OK, said auditors were instructed to enter
royalty collections and interest calculations in the Compliance Information Management
System, which would create a “place holder” until the actual interest was calculated by
Financial Management.

Allegation that MRM Returned Valid Payments

During his interview, Little said that in about 2005, the following situation occurred:

           I [got] a call from Finance, Financial. And [the MRM Chief of Financial
           Management]1 said, ‘We got some money [coming] in here without an
           offsetting receivable. What’s this about?’ And I said, ‘Well, that’s got to
           do with these people owed us, they shorted us on some royalty-in-kind,
           and there’s some of them that’s paying us in oil and we’re taking care of
           that, but some of them are paying us in cash.’ And they said, ‘Well, give
           it back to them.’ I said, ‘What do you mean, give it back to them?’ I said,
           ‘You’re talking about three, four million dollars here.’ He said, ‘Well,
           give it back to them, because we don’t have a receivable.’ I said, ‘I’m not
           going to – if you give this money back to those companies, we may never
           see it again.’ I said, ‘This money’s been collected on behalf of the
           taxpayer. Why would I give that money back to them?’ He said,
1
    Little later stated that the caller was the MRM Chief of Financial Management.


                                                      43
       ‘Because we don’t have receivable.’ I said, ‘That doesn’t make sense to
       me that you’ve got a company who’s willing to pay you.’

Note: When we contacted Little’s Attorney, subsequent to our interview of Little, he said
Little had been referring to a situation involving a company named Anadarko. When
asked, he also advised that Little had told him that he was referring to the MRM Chief of
Financial Management as the person from Financial Management who talked to Little,
as described above.

Little said an Enforcement Specialist, MRM, began working on the issue above because
“Finance [was] so outraged that we collected money with an offset receivable….” He
said the Enforcement Specialist was working on a settlement agreement and told him that
Financial Management was letting the money sit unprocessed because it did not have an
offset receivable. Note: An offset receivable is the application of a payment (credit) to a
payor's file to account for all or part of the royalty/interest owed by the payor (debit). If
MRM does not receive the documentation (i.e. Form 2014) associated with the payment,
MRM cannot apply the payment to an account as an offset receivable. The goal is to
match a credit to a debit to properly reflect that payment was made.

When asked if he was describing royalty payments or interest payments, Little replied,
“It’s interest on the late paid royalties… We look at it as royalties owed, because they
didn’t pay the royalties on the due date.”

When interviewed, Morris claimed that he heard of instances where MRM returned
money to companies because MRM could not match the payment to an account
receivable, but he had no specific knowledge that it had actually happened. Morris
added, “Why would you send [the money] back? I don’t agree with that philosophy, if in
fact it was done.” Morris provided no specific examples of MRM returning the money.

Our review of e-mail messages between Little and the Enforcement Specialist, obtained
from Little’s government computer and via fax from Little’s Attorney, disclosed no
indication that MRM had returned money or attempted to return money to Anadarko or
the other two oil companies (British Petroleum and Union Oil) found to be involved in
the settlement that the Enforcement Specialist was creating. The e-mails chronicled
MRM’s efforts to obtain reimbursement for credits taken by the companies after MMS
erroneously directed the companies to take the credits. An e-mail written by Joel Arnold,
Supervisory Auditor, MRM, on January 19, 2005, to the Chief (now retired), Office of
Enforcement, MRM, stated the following:

       During our recent review of Offshore [RIK Strategic Petroleum Reserve]
       oil we determined Anadarko Petroleum, Union Oil and [British Petroleum]
       Exploration took erroneous credits on MMS Form 2014. The companies
       explained that the credits were taken in response to an ‘Order to Comply’
       it received via an email from a non-Management employee in the MMS
       RIK Group.




                                             44
       …Because of the somewhat confusing language and perhaps the
       inappropriate use, delivery and structure of the Order to Comply and
       numerous companies’ misinterpretation of the Order, we recommend
       settling the issue via formal Settlement Agreements by having the
       companies reverse their credit entries without being liable for paying
       interest.

Additionally, an e-mail written by Little on June 7, 2005, and sent to the Enforcement
Specialist summarized the issue as follows:

       I discovered the Anadarko, [British Petroleum], and Union Oil problem
       during a reconciliation of delivered volumes for the SPR oil Phase IIa
       contract period of August 1999 through December 1999. I uncovered
       credit Form-2014 entries for each company for December 1999 for oil
       volumes the companies did not over-deliver. Upon contacting one of the
       companies, I was emailed a copy of [the Lead RIK Revenue Specialist’s]
       ‘Order to Comply’ without attachments. I sent you a copy of this ‘Order.’
       I then had several discussions with representatives of each company
       concerning the accuracy of the ‘Order to Comply.’ After weeks of
       research, each company representative acknowledged their company did
       not over-deliver volumes for this time period and should not have taken
       the credit. They agreed to refund the credits taken, but thought they
       should not be responsible for interest because the MMS had ordered them
       to take the credit in error [emphasis added].

The Enforcement Specialist said there was no accuracy to the allegation that MRM
returned a payment. He retrieved the Anadarko case, file number [Exemption (b)(2)],
dated April 17, 2005. He said the MRM Office of Enforcement had opened a file based
upon an erroneous RIK recoupment of oil volumes for the Strategic Petroleum Reserve.

The Enforcement Specialist also said Compliance and Asset Management auditors had
attempted to use an Office of Enforcement transaction code specifically designated for
alternative dispute resolution (settlement) purposes and that the transaction code kept
interest from accumulating in the MRM Support System. He said the Office of
Enforcement took over the pending Compliance and Asset Management issue on April
17, 2005, when it found out that Compliance and Asset Management had attempted to
use the transaction code, which was confidential. He said no money was returned to
Anadarko in resolving this issue.

The MRM Chief of Financial Management said he did not know of any situation where
MRM Financial Management returned money because of a processing issue. He said
Financial Management would take money from anywhere, anyone, and anything, even if
there was no receivable. He explained that the money would sit on the books until
Financial Management obtained a receivable, allowing the funds to be properly
distributed. He said there had not been a problem with processing any money brought in
as a result of the auditors’ findings. However, he said auditors often did not provide the



                                            45
proper paperwork (Form 2014) to allow Financial Management to appropriately process
the money.

The Chief of Financial Management said a common problem between Financial
Management and auditors occurred when money was collected by auditors without the
necessary documentation. According to the Chief, auditors often did not ensure Form
2014 was completed and provided to Financial Management. He said some auditors
believed that once a payment was collected from a company, any additional work was the
responsibility of Financial Management. He admitted that when he was an auditor, he
subscribed to this same philosophy.

The Chief of Financial Management explained that if Financial Management did not have
a receivable identified with a payment, the money remained as unapplied cash. He said
Financial Management needed a receivable matched to the payment to ensure that it
could be distributed correctly. He stated that companies liked to send money ahead of the
receivable because it stopped interest accrual, but Financial Management could not
distribute the money to the ultimate recipients until the money could be attributed to the
appropriate account.

The Chief of Financial Management said it was an auditor’s job to ensure that Financial
Management received Form 2014. The receipt of Form 2014 allowed Financial
Management to apply the money and eventually charge late interest payments where
necessary. He said he did not recall having a telephone conversation with Little
regarding a payment or returning money to a payor; however, he stated, “I could easily
see having a conversation with Randy [Little], or any auditor, that if I know it’s an audit
collection, I’m gonna tell them you gotta get me a receivable, and I am gonna threaten
them a little saying if you don’t get me a receivable we’re gonna return the money.”

According to the Chief of Financial Management, Financial Management never returned
money on audit findings, and he said, “[W]e push[ed] hard to get the receivable because
we should not have open money on our books.” However, he described certain situations
where MRM returned money to companies in response to refund requests or rental
overpayments.

Reporting and Safeguarding Requirements

Our investigation found that Little and Morris attended the MRM Office of Enforcement
Illegal Acts Awareness training on September 15, 2004, in Oklahoma City, OK. A class
sign-in sheet included their signatures.

Our review of the MMS Information Technology Rules of Behavior database used to
record employee acknowledgement of the rules, which includes discussion of
safeguarding and use of official and proprietary information, disclosed the following:

   •   Little completed the acknowledgement for FY 2005 and FY 2006.
   •   Morris completed the acknowledgement for FY 2005.



                                             46
A review of MMS training and education records for calendar years 2005 and 2006
disclosed that Little and Morris completed the MRM FOIA and Privacy Act training
during calendar year 2005.

As noted earlier in this report, the MMS Internal Quality Control System, Audit and
Compliance Policies and Procedures, states under the heading of “Fraud, Illegal Acts and
Abuse” that “Any company actions that potentially could be considered fraudulent,
abusive, or illegal should be brought immediately to the attention of the audit manager
for appropriate follow-up and in accordance with the MRM Audit Manual.” This
document includes an acknowledgement of receipt that MRM employees are required to
sign. Review of the receipts retrieved from Little and Morris’s manuals disclosed the
following:

   •   Little’s form was blank.
   •   Morris signed the form on January 25, 2005.

Reporting Requirements

When interviewed, Little stated that he did not report his findings regarding unpaid
interest to the MRM Office of Enforcement or the DOI-OIG because he did not trust
them. Little said he felt compelled to report his concerns to someone independent of
DOI. He said he considered notifying the FBI but elected to file a False Claims Act
lawsuit after receiving guidance from private counsel.

When asked why he did not report his concerns specifically to DOI-OIG, Little
responded, “I didn’t at first. I did simultaneously at the time I filed the action of qui tam
– they were under seal. The day they were under seal, they were given to the Department
of Justice, the U.S. Attorney, and [the OIG] was also involved.”

In regard to whether he was alleging that oil companies had engaged in fraudulent actions
against the government, Little said, “I filed what we call a false claim, and I know that’s
still considered some level of fraud, but as far as criminal liability, I believe it’s, you
know, I’m not an attorney, they can speak to that, but I think we have a lesser degree of
proof for a false claim that [sic] we do actual criminal fraud, but that’s correct.”

Little recalled an e-mail from Lanis Morris sent on July 18, 2005, in which the DOI
Ethics Office suggested that Morris consult the SOL if he planned to file a False Claims
Act lawsuit. Little recalled that his response to Morris was, “I guess we should notify the
Solicitor.” Little stated that he did not consult the SOL before filing the lawsuit.

Little, when apprised of the section of the MMS Audit Manual that referenced the
Departmental Manual’s instruction to DOI employees on their duty to report fraud, waste,
or abuse to the OIG, responded that he was not conducting audits but rather compliance
reviews. He stated that the Compliance Review Manual did not include language
referring to the Departmental Manual. Little asserted that he did not violate any MMS or



                                             47
DOI policies because he made notification to the OIG by filing his qui tam lawsuits.
Little stated that the policies indicated he needed to report fraud to the OIG, but
DOI/MMS policy did not indicate he needed to do so prior to filing a False Claims Act
lawsuit.

Note: Our review of the MRM Compliance Review Manual, Release 1, determined that it
contained no guidance or direction to employees pertaining to their responsibility to
report suspected fraud, waste, or abuse to the OIG.

Little maintained that he saw no potential of a conflict between MMS or DOI policies
and filing his qui tam lawsuit. He opined that through filing his False Claims Act
lawsuits, he was still pursuing companies on behalf of the government just as he would as
a government auditor. Little said it was his job to pursue the companies and the only
difference was that he stood to gain financially under the lawsuit. When asked if he felt
he exhausted all available avenues within DOI, including the OIG, Little commented that
false claims were “a little bit lighter” than an intentional fraud.

When interviewed, Morris said he did not report his concerns to MMS managers about
companies not calculating and paying interest because he believed Little and Arnold had
raised other issues without success. Morris said he did not believe anything would
change if he approached MMS management with his concerns.

Morris said he did not file a complaint with the Office of Enforcement or the OIG
because he was not sure what action would be taken. He claimed that he was not
confident that the OIG would respond to a complaint [Exemptions (b)(6) and (b)(7)(C)].
Morris said he decided to file the qui tam lawsuit because “[the lawsuit] would be the tool
that management would have to address.”

[Exemptions (b)(6) and (b)(7)(C)]

When asked why he did not comply with the requirements of the Departmental Manual
and the Generally Accepted Government Auditing Standards (GAGAS) (also referred to
as the Yellow Book standards) to report suspected fraud to an authority such as the OIG,
Morris responded, “Fraud? Well for one thing, it was not an audit, so it didn’t fall under
Yellow Book.” Morris added that the OIG was notified when he filed the False Claims
Act lawsuit.

[Exemptions (b)(6) and (b)(7)(C)] Morris also acknowledged that he contacted (via e-
mail on July 11, 2005) an MMS employee relations counselor to inquire whether a GS-12
auditor could file a qui tam lawsuit. Morris admitted that he was thinking about filing a
qui tam lawsuit when he sent the e-mail to an MMS Ethics Specialist, stating, “That’s
exactly when I was thinking about doing a False Claims on interest.”

[Exemptions (b)(6) and (b)(7)(C)]




                                            48
Morris added, “[The False Claims Act] overrides those ethics or those Standards of
Conduct.” Morris claimed that because he filed the lawsuit on behalf of the government,
the standards of conduct and ethics rules applicable to federal employees did not apply to
him in this situation. He added, “[S]o I’m excluded from those; Bobby [Maxwell] is,
too.”

Further, Morris stated the following:

       And actually I don’t think government employees should collect under the
       False Claims Act. I think they should have the right to file these things,
       and I don’t think they should be retaliated against like I’m being retaliated
       against. But I do think they have the right to file that and I think they
       should be able to do that to get management to do the right thing.

Morris added, “I didn’t do this for the money. Not at all.”

In response to Morris’s inquiry, noted above, the Ethics Specialist, in his e-mail, said that
if Morris or another federal employee filed a qui tam lawsuit, it might be considered a
supplementation of salary. The Ethics Specialist suggested that Morris consult the SOL
before filing a qui tam lawsuit.

When asked whether he followed the advice in the MMS Ethics Specialist’s e-mail,
Morris responded, “Yeah, when the False Claims was filed, the Solicitor’s Office was
there. Yep, everybody was contacted at the same time.” He added, “…[the OIG was]
notified at the same time with the False Claims Act when it was presented to the
Department of Justice.”

We advised Morris that the MMS Manual, Part 370, Chapter 735, Employee
Responsibilities and Conduct, defined conflict under the Conflict of Financial Interest
section as a situation where (1) “an employee’s public duty is or will be affected by his or
her financial interest” or (2) “an employee’s financial interest is or will be affected by
decisions he or she makes or operations in which he or she is involved in an official
capacity.”

Morris said, “I don’t see where there’s any financial interest.” He added, “Under a qui
tam I am supposed to be working for the government.” Morris claimed there was no
conflict of interest because he was trying to collect money for the U.S. Government.
Morris opined that it would create a beneficial environment for audits if the companies
knew that every auditor who entered their offices could potentially file a qui tam lawsuit
against them.

Morris said he believed the subject of conflict of interest was covered in ethics training
he received and stated, “I understand conflict of interest.”




                                             49
Safeguarding Requirements

We contacted an MMS FOIA/Privacy Act Officer to determine if MMS had received any
FOIA requests from Little, Morris, or their attorneys. The FOIA/Privacy Act Officer
responded by e-mail that there had been no FOIA requests from attorneys representing
Little. The MMS FOIA/Privacy Act Officer said in an interview that Little made one
FOIA request in October 2004 for information on awards given to employees at the
Oklahoma City, OK, Offshore Compliance and Asset Management office.

The FOIA/Privacy Act Officer, in another e-mail, said there was a FOIA request from an
Attorney representing Morris. He said the Attorney had submitted two FOIA requests.
He said the first asked for (1) all MMS meeting minutes from June 2, 2002, and June 13,
2002, and (2) all orders to pay from June 2, 2002, to the present (request dated October
30, 2006). He said the second FOIA request, also dated October 30, 2006, was for
information on 24 companies, including the following: several kinds of Form 2014 data,
letters from Lucy Querques Denett on the Royalty Simplification and Fairness Act, and
references associated with an MMS press release made on September 28, 2006. The
FOIA/Privacy Act Officer said Morris’s Attorney’s FOIA requests were never fulfilled
because the Attorney did not agree to pay the appropriate FOIA fees.

During his interview, the MMS FOIA/Privacy Act Officer said Morris made three FOIA
requests – on September 29, 2005; January 5, 2006; and January 8, 2007 – for
information on all awards given to employees in the Compliance and Asset Management
office, Oklahoma City, OK, for GS-15s and below. He said that on March 30, 2006,
Morris also made a FOIA request for contracts by and between MMS and its retired
and/or retiring personnel. According to the FOIA/Privacy Act Officer, Morris wanted the
names and grades of personnel as well as the amount, description, and duration of the
contracts. The FOIA/Privacy Act Officer related that MMS did not provide any
information to Morris related to this request as it would have required MMS to create a
document. He explained that FOIA did not require MMS to do so.

An MMS FOIA Staff Member and an MMS Records Officer said the MMS Manual, Part
386, was the regulation used for determining whether a document was protected or
proprietary. We showed both of them exhibits used by Little and Morris in their lawsuits.
They identified the documents presented to them as either proprietary or protected as
internal MMS business records, or a combination of both categories.

Additionally, we asked the FOIA Staff Member if any of the exhibits used in the
“Statement of Reasons for the United States Department of Justice to Take On the Qui
Tam Litigation” contained information that would be redacted or not released in response
to a FOIA request. He identified Exhibit A6 as containing information that would be
considered a confidential business record not releasable to a requestor under the FOIA.
He identified Exhibit E as containing information that would be redacted under
Exemption 5 of the FOIA because it contained information involving inter/intra-agency
communications. He added that specific oil values shown in Exhibit A3 would be
redacted because the oil value data was a proprietary business record. He noted that



                                           50
Exhibit F contained information on page two that would be withheld pending a
determination of whether the data was cumulative or representative of individual month
data.

A Supervisory Auditor, Offshore Compliance and Asset Management, added that he did
not assign Morris to conduct any interest billing/collection-related projects. He opined
that Little and Morris probably conducted the research for their lawsuit using the MRM
BRIO2 system and looked for underpayments or late payments.

When interviewed, Little admitted that he took official documents and information from
his office to use in support of his qui tam lawsuit. Little denied that he obtained any of
the information used in his lawsuit through a FOIA request, and, in response to a question
about where he got the documents and information, he said he obtained all of it from his
office. He denied using government computers or material to conduct research to further
his lawsuit but acknowledged that he checked the MMS databases to verify that the
companies he was suing had not paid what he believed they owed to the government.

Little said he was familiar with the proprietary information section of the MMS Manual
(Part 386, Safeguarding of Records and Information). He said he received annual
training related to proprietary information. He said he was also familiar with the MMS
policy on conflict of financial interest and stated that he completed annual financial
disclosure statements.

Little maintained that by providing official or proprietary information to his attorneys, he
had not violated MMS policy. Moreover, he asserted that the information never left the
government, as his attorneys were working on his behalf in efforts to collect money due
to the U.S. Government. Little stated that the MMS policy on conflict of financial
interest (Part 370, Employee Responsibilities and Conduct) was not applicable to his
situation because he did not yet have a financial interest.

When asked if he had used government time or materials to research and prepare for his
lawsuit, Morris responded, “Yes, I did.” Morris explained, “We had to quantify the
amount of interest that could possibly be up there that was not being collected. And I
think we started putting that together like in August 2005.” He added, “Well, [Randy
Little and I] wanted to quantify and see if it was an amount that would be worthwhile
going after.”

Morris said their efforts were not associated with an assignment given to them by
supervisors. He said he conducted this research in about August 2005 and retained
counsel for his lawsuit in September 2005. Morris, in response to a question about
whether he used government time and material to further his lawsuit after retaining
counsel, said, “I’m sure we went back and checked to see if any of those companies had
paid, because I definitely don’t want to sue somebody that paid their interest.”



2
    Software package within the MRM Support System.


                                                 51
Morris also admitted that he took or copied official and proprietary documents that were
available to him in his official capacity as an auditor to use in his False Claims Act
lawsuit. He said he took the material to “quantify the amount of interest,” adding, “… I
brought them down here to his attorney for safekeeping. It was my schedules, which I
took from those disks and I left my attorney with the disks.” Morris explained that he
was referring to his “interest calculation schedules” that were used in his lawsuit. He
denied releasing the documents or information to anyone else.

Morris also said he conducted Internet searches on his government computer for his
lawsuit. When asked about his Internet searches, Morris said he may have researched the
term qui tam because he “wanted to know how [Maxwell] did it and if it was legal …
because it conflicts with, like you said, everything in ethics.”

Morris said he was aware of requirements for safeguarding proprietary information and
had completed courses on the subject; however, he was not specifically familiar with the
MMS Manual Part 386, Safeguarding of Records and Information. He stated that the
MMS Manual was probably available online.

Morris stated that his understanding of safeguarding proprietary information was that
such information could not be released to the general public. Morris said he was sure
some of the information he provided to his attorneys was proprietary but did not believe
he violated MMS policy. He explained that he was still working on behalf of the
government and had only released the information to his attorneys. He commented,
“[The documents and data] never left the government as far as I’m concerned.”

Note: Our investigation found no evidence that the documents used by Little and Morris
in their lawsuit were provided to anyone other than the attorneys who were retained for
the lawsuit.

                                    Declination of Prosecution

On September 20, 2006, the U.S. Attorney’s Office, Public Corruption Unit, Oklahoma
City, OK, verbally declined criminal prosecution of Little and Morris for alleged removal
and use of official government documents. The Assistant U.S. Attorney said he was
declining prosecution because administrative remedies were available to DOI to address
the situation.

                                        Dismissal of Lawsuit

On August 22, 2007, the District Court in Oklahoma issued an order3 dismissing this
case, finding, “… even if defendants knowingly made a false certification of hardship, the
Secretary would, pursuant to statute, calculate the interest that is due and notify
defendants of the amount that is due.” The Court also found the following:


3
 The Court's Order on Motion to Dismiss of August 22, 2007, in U.S., ex rel., Little and Morris v. Eni
Petroleum Co., Inc., et al., Case No. CIV-05-1397-M (W.D. Ok).


                                                    52
[A]ny allegedly false certification of a hardship and failure to calculate
and report interest due did not conceal defendants’ obligation to pay the
interest because, as alleged by relators, the MMS-2014’s filed by
defendants reflected the underpayments for which the interest was due,
thereby providing notice to the government that interest was due on these
underpayments and triggering the Secretary’s statutory duty to calculate
said interest.




                                    53
  Little v. ENI Petroleum Company, Inc., and AGIP Exploration Company

                          Randy Little’s Qui Tam Complaint

On February 3, 2006, MMS Auditor Randy Little filed a qui tam lawsuit against ENI
Petroleum Company, Inc., and AGIP Exploration Company (ENI/AGIP) for filing false
claims regarding transportation deductions taken between October 2002 and August
2004. Little claimed that ENI/AGIP inappropriately claimed transportation deductions
totaling $944,648.

In the lawsuit, Little alleged that ENI/AGIP unlawfully claimed deductions for
transportation of oil beyond the delivery point. ENI/AGIP claimed the transportation
deductions by using MMS Form 2014, which required a signatory to affirm that all
statements in the report were accurate and complete. Little argued that the submission of
the form by ENI/AGIP constituted a false claim to the government.

Little further alleged that MRM informed ENI/AGIP, via an August 13, 2002 letter, that
“effective October 1, 2002, a Royalty in Kind (‘RIK’) program began in which MMS
would take crude oil royalties ‘in kind’ in lieu of ‘in value.’” Note: Taking oil in kind
meant MRM would be receiving the actual oil at the Federal Metering Point, rather than
money for the value of the oil. The Federal Metering Point is usually located at the
production platform where the oil or gas is brought to the surface. It is also the point at
which the government measures production volume to determine the royalty owed to the
government. Prior to October 2002, the ENI/AGIP lease was RIV (royalty in value).
ENI/AGIP extracted the oil, marketed/sold the oil, and paid a royalty to MRM based
upon a percentage of the sale price, minus allowable deductions.

According to the lawsuit, the aforementioned August 13, 2002 letter informed ENI/AGIP
that beginning on October 1, 2002, MRM would start taking custody/ownership of its oil
under an RIK contract at the Federal Metering Point, thus making the Federal Metering
Point the delivery point. The letter stated, “The delivery points for Royalty Oil produced
from the properties is [sic] at the [Federal Metering Point] or first interconnect into a
main pipeline, as identified in the enclosures.”

Little further asserted in his lawsuit that the letter placed ENI/AGIP “on express notice
that they could not continue to take a transportation deduction unless they were instructed
by MMS to transport MMS oil downstream of the [Federal Metering Point] (which, to
this date, has not been requested) [emphasis included].” Based upon the letter, Little
concluded that ENI/AGIP “are, and have been, aware that since October 1, 2002, small
refiners have assumed costs of transportation from the [Federal Metering Point] and that
MMS has been paying the small refiners for transportation costs via a deduction from
MMS royalties.” Regarding the leases at issue in Little’s lawsuit, MMS, according to
Little’s Statement of Material Evidence filed with the court, sold its RIK oil to a small
refiner (purchaser) under a bidding system, and the contract stated that the purchaser
would take custody of the oil at the Federal Metering Point.




                                            54
Little’s lawsuit also stated that ENI/AGIP were responsible for knowing the laws that
pertained to their leases with MMS. The complaint then cited Title 30 C.F.R. § 208.8(b),
which states the following:

       The lessee shall deliver royalty oil from section 8 offshore leases issued
       after September 1969 at a delivery point to be designated by MMS. The
       lessee shall deliver royalty oil from section 8 offshore leases issued before
       October 1969 or from section 6 leases at a delivery point to be designated
       by the lessee. If the delivery point is on or immediately adjacent to the
       lease, the royalty oil will be delivered without cost to the Federal
       Government as an undivided portion of production in marketable
       condition at pipeline connections or other facilities provided by the lessee,
       unless other arrangements are approved by MMS [emphasis included]. If
       the delivery point is not on or immediately adjacent to the lease, MMS
       will reimburse the lessee for the reasonable cost of transportation to such
       point in an amount not to exceed the transportation allowance determined
       pursuant to 30 C.F.R. Part 206.

The conclusion section of Little’s lawsuit summarized the above allegations and included
additional allegations against MMS management officials. The conclusion stated the
following, in part:

       [T]he United States Government has been subjected to $944,648.03 in
       unlawful deductions taken by Defendants over a period of twenty-three
       (23) months during which time Defendants were not actually transporting
       MMS oil [emphasis included]. At the same time the Government RIK oil
       being sold to small refiners was apparently burdened with duplicate
       transportation costs which effectively resulted in MMS’s oil being charged
       twice for transportation. The unlawful acts of Defendants have been, at
       best, ignored and at worst, promoted by management supervisors in the
       RIK Group in Denver. Relator has tried to rectify Defendants unlawful
       actions, but has been prevented from doing so. … The practice of the
       management supervisors at the RIK Group in Denver, in affirmatively
       stopping the pursuit of collection of the falsely reported deductions, is
       contrary to the job function of an independent auditor, which Relator is.
       The actions set forth above also violate applicable federal laws and
       regulations ….

                     Investigations in Response to Qui Tam Filing

On February 10, 2006, DOJ received notification of Little’s qui tam lawsuit and in turn
requested investigative assistance from the DOI-OIG. In addition, the DOI-SOL was
notified and requested to provide recommendations as to what actions the government
should take and to ensure the retention and government control of all relevant records.
Two DOJ attorneys coordinated the investigative efforts with an OIG Special Agent and
an SOL Attorney-Advisor.



                                            55
When interviewed, the Attorney-Advisor stated that he and DOJ conducted an in-depth
investigation into the claims and found they all lacked merit. He stated that, in his
opinion, the actions of MMS officials were both legal and an appropriate use of
discretion, and the defendant company, in turn, simply acted pursuant to direction
provided by MMS officials.

The Attorney-Advisor stated that the investigation further determined that the relator’s
lawsuit stemmed from the fact that he was disgruntled about having his recommendations
for enforcement actions overruled by supervisors.

On September 8, 2006, DOJ notified the court of its decision not to intervene in the
matter. In addition, DOJ stated, in part, that it appeared some or all of the material facts
and documents supporting the allegations made in the complaint were gained by the
relator while serving as a government employee. Because federal employees have a
fiduciary duty to use all information gained in the course of their employment solely for
the benefit of the United States, DOJ reserved the right to object, at the appropriate time,
to any award made to the relator.

Also, in September 2006, the OIG initiated a new investigation into the legitimacy of
Little’s claims to include, in part, whether the earlier DOJ investigation adequately
addressed Little’s assertion that the decision by MMS management to not pursue
collection of the reported fraudulent deductions was proper. In addition, our
investigation addressed concerns regarding whether Little complied with DOI/MMS
policy when filing his claim, specifically with reporting violations and use of
government/proprietary documents.

Transportation Costs Questioned

When interviewed, Little stated that he had been tasked to independently conduct reviews
of RIK leases. In about 2004, Little said he discovered that ENI/AGIP were deducting
costs for transportation beyond the delivery point, which in this case was also the Federal
Metering Point. Little said he believed this was a violation of federal regulations because
the purchaser of the oil (Gary-Williams Energy Corporation), was taking custody of the
oil at the Federal Metering Point. Little said he believed that both ENI/AGIP and Gary-
Williams were claiming transportation deductions beyond the Federal Metering Point,
resulting in MRM being double-billed for transportation costs.

Little claimed that ENI/AGIP were told when their leases were converted to RIK (from
RIV) that they could not take transportation deductions on the RIK lease. He said
ENI/AGIP could have requested an exception, but they did not.

Little said he informed his supervisor, Joel Arnold, of his findings, who subsequently
began to look into the matter to determine the validity of the transportation costs. Little
said Arnold took responsibility for the issue and that he (Little) discontinued his




                                             56
participation in the matter. Little said he was kept apprised of the matter through
discussions with Arnold.

According to Little, once Arnold learned of the questionable transportation deductions
from him, he (Arnold) contacted an ENI/AGIP Representative to ask why ENI/AGIP
were claiming transportation deductions under the RIK contract for costs incurred beyond
the Federal Metering Point. The ENI/AGIP Representative responded with the following
information via e-mail:

       We researched the transportation deducts per your attached schedule and
       determined the allowance is related to a monthly charge from the Manta
       Ray pipeline which delivers the oil from the [Federal Metering Point] to
       Poseidon Oil Pipeline at Ship Shoal Block 332. This is a monthly charge
       from Manta Ray and expires this year. When MMS began taking its oil in
       kind, Manta Ray did not prorate this transportation fee between MMS and
       ENI: we continued to pay 100% of the fee; therefore, we continued to take
       the appropriate allowance. It is my understanding the oil must be
       transported through this pipe in order to reach market. If we did not pay
       this fee the MMS would not be able to move its oil to Poseidon. I believe
       Manta Ray also charges additional transportation fees which would be
       billed to the MMS directly or your purchaser during your RIK term. Let
       me know if you have any other questions.

Little said Arnold then contacted a Minerals Revenue Specialist, RIK Program, MRM, to
determine if the RIK contract between MRM and the purchaser provided for an exception
to the rule that only the purchaser would be able to deduct transportation costs after it
took custody of the oil at the delivery point. Little said that after being informed of the
terms of the contract between MRM and the purchaser, and reviewing ENI/AGIP’s
explanation as to why they were deducting transportation costs beyond the delivery point,
Arnold concluded that ENI/AGIP should not be allowed to take the transportation
deduction.

Little said Arnold took the issue, developed as part of a compliance review, to his
supervisor, a Supervisory Program Analyst, Compliance and Asset Management, MRM
(formerly the Team Manager for Offshore Compliance and Asset Management,
Lakewood, CO), and to the MMS RIK group to determine how to address the matter and
to obtain additional input on whether the transportation deductions were or were not
allowable.

MMS Management Response to Questioned Costs

According to Little’s lawsuit, the Minerals Revenue Specialist, RIK Program, MRM,
requested that Arnold and his team discontinue their pursuit to collect additional royalties
owed. In addition, Little claimed in his lawsuit that he was “directed to discontinue
delving into the fraud and wrongful claims that [I] had discovered and to cease [my]
investigation.”



                                             57
When interviewed about his role in this issue, the Minerals Revenue Specialist stated that
Arnold had contacted him to inquire about the RIK contract between MRM and the
purchaser (Gary-Williams). He said it was his understanding that Arnold contacted the
RIK group because Little had identified a situation where ENI/AGIP had taken a
transportation deduction allowance under an RIK contract. He said this deduction raised
a red flag because producers were not typically allowed transportation deductions under
an RIK contract beyond the delivery point.

According to the Minerals Revenue Specialist, Arnold had already contacted ENI/AGIP
requesting that they explain their transportation deduction, and ENI/AGIP responded to
Arnold by stating that the deduction was related to a monthly flat “interconnect” fee they
were committed to paying to use a section of pipeline beyond the delivery point, which
ENI/AGIP had used under the previous RIV lease. He said that considering this
explanation, Arnold did not believe ENI/AGIP were entitled to the deduction.
Accordingly, Arnold contacted the RIK group in order to request the specific terms of the
RIK contract.

In response, the Minerals Revenue Specialist said he assigned an MRM RIK Oil
Marketing Specialist to inquire with ENI/AGIP regarding the issue raised by Little and
Arnold. According to the Minerals Revenue Specialist, ENI/AGIP provided the RIK
Marketing Specialist with the same explanation they supplied Arnold. The Minerals
Revenue Specialist said he then received an e-mail from the RIK Marketing Specialist in
which the Marketing Specialist stated, “[ENI/AGIP] would have taken this fee if we were
taking the production in value, so as far as I can tell they should be allowed to take it in
kind. It’s up to [Compliance and Asset Management] to determine if they are taking the
correct amount.” The Minerals Revenue Specialist then forwarded this explanation to
Arnold.

In his lawsuit, Little included an e-mail string initiated by Arnold on November 1, 2004,
to the Minerals Revenue Specialist. The e-mail stated that the Oklahoma City, OK,
Offshore Compliance and Asset Management team supervised by Arnold did not believe
the deductions taken by ENI/AGIP were allowable since the purchaser (Gary-Williams)
should have paid the interconnect fee (for use of the pipeline). The same day, the
Marketing Specialist responded to Arnold explaining that Gary-Williams did not consider
this annual fee into its bid for the oil. The fee was being paid by the producer,
ENI/AGIP, under an annual flat-fee contract and was not based upon volume. The
Marketing Specialist concluded his response to Arnold by stating, “I feel [ENI/AGIP]
should be allowed this cost since they would have been allowed to take it if it were in
value. Perhaps we need a telecom.”

During our investigation, we discovered that the Minerals Revenue Specialist sent an e-
mail to Arnold on December 15, 2004, as a follow-up to the above-noted e-mail string,
stating, “[J]ust following up on some loose ends. Do we need a telecon on this? Thx.”
The next day, Arnold responded to the Minerals Revenue Specialist in an e-mail stating,
“[The Supervisory Program Analyst, Compliance and Asset Management, MRM,] and I
discussed this and decided not to pursue this as an issue.”



                                             58
When interviewed, the Minerals Revenue Specialist denied Little’s allegation that the
Minerals Revenue Specialist requested Arnold or his group to stop investigating or
pursuing the matter. The Minerals Revenue Specialist said he had received an e-mail
from Arnold stating that he and his supervisor (the Minerals Revenue Specialist) had
decided not to pursue the matter; therefore, the Minerals Revenue Specialist concluded
that the issue was closed as far as the RIK Program was concerned.

The Minerals Revenue Specialist further stated that he would have no authority to request
the auditors to discontinue their actions. He stated that the RIK group had no authority to
decide whether a transportation deduction was allowable or not. According to the
Minerals Revenue Specialist, such decisions were strictly within the purview of
Compliance and Asset Management. He said the RIK Program simply provided
Compliance and Asset Management with information about the terms of RIK contracts in
order to facilitate Compliance and Asset Management in making an informed decision
regarding such deductions. He said the RIK Oil Marketing Specialist’s recommendation
that the deduction was allowable was simply a recommendation.

Regarding the ENI/AGIP deductions, the Minerals Revenue Specialist pointed out that
the deductions ENI/AGIP were taking were not being taken by Gary-Williams. He said
the section of pipeline for which ENI/AGIP were taking the deduction essentially had
two fees – one fee was the annual flat fee paid by ENI/AGIP, and the other fee was a user
fee based upon the volume of oil being transported through the pipeline, which was being
paid by Gary-Williams. He stated that the deductions for both fees were valid.

The Minerals Revenue Specialist stated that after learning about this issue from Joel
Arnold, but not as a direct result of it, MRM moved the delivery point downstream from
the Federal Metering Point, beyond the section of pipeline with the interconnect fee. He
said MRM did not move the delivery point in order to give ENI/AGIP the financial
benefit of claiming the transportation costs but rather moved the delivery point after
receiving a request from the pipeline owner in order to alleviate accounting challenges
for the companies involved, including ENI/AGIP, Gary-Williams, and the pipeline
owner.

According to the Minerals Revenue Specialist, the MRM leases provided MRM with the
discretion to move the delivery point beyond the Federal Metering Point in situations
where it made business sense. He stated that after the delivery point was moved
downstream, ENI/AGIP began paying both fees associated with use of the concerned
section of pipeline and taking the appropriate deductions. Note: The relocation of the
delivery point did not create any new deductions, but rather shifted the volume-related
transportation costs for that section of pipeline from the purchaser, Gary-Williams, to the
producer, ENI/AGIP.

In his interview, the MRM RIK Oil Marketing Specialist echoed the Minerals Revenue
Specialist’s description of events surrounding the RIK Program’s involvement in the
ENI/AGIP issue. The RIK Oil Marketing Specialist stated that ENI/AGIP submitted



                                            59
pipeline statements and charged the RIK Program a flat fee for pipeline expenses. He
said the RIK Program could not pass along the flat fee expense to RIK purchasers (such
as Gary-Williams), so they recommended allowing the deductions for transportation.
The RIK Oil Marketing Specialist explained that ENI/AGIP charged the flat fee instead
of a per barrel fee as a result of their contract to pay a connection fee for use of the Manta
Ray pipeline. He said ENI/AGIP were advised to take the deductions, subject to audit,
under the assumption that the deductions, which were allowed under RIV, were also
allowed under RIK. He explained that the RIK Program did not have the authority to
approve transportation deductions. He noted that Compliance and Asset Management
later approved the deductions.

The RIK Oil Marketing Specialist stated that the RIK group made the decision to move
the delivery point downstream from the Federal Metering Point, which it was authorized
to do. He explained that this action actually lessened the overall transportation
deductions MRM allowed, and thus benefited the government.

The Deputy Director, RIK Program, MRM, said the delivery point (for the ENI/AGIP
leases) was moved to benefit the government and reduce costs. We also asked him a
number of questions via e-mail in an effort to determine whether ENI/AGIP and Gary-
Williams both claimed transportation deductions beyond the Federal Metering Point. In
an e-mail to the OIG, the Deputy Director reported that Gary-Williams had never
requested reimbursement from MRM for the pipeline interconnect fee. We asked him
whether the change in delivery point increased transportation costs to the government.
The Deputy Director, in the written response, stated, “No,” and added that the
transportation costs were approximately the same for either delivery point.

When interviewed, a Supervisory Program Analyst, Compliance and Asset Management,
MRM, stated that in a typical Compliance and Asset Management scenario, once an
auditor and his/her direct supervisor evaluated an issue and determined that an Issue
Letter or Order to Pay needed to be issued, the Compliance and Asset Management
manager had to be consulted for a final decision on the matter. Upon being consulted, the
Supervisory Program Analyst said he would perform an official review of the file and
make a final decision on what action needed to be taken.

The Supervisory Program Analyst said he was the Compliance and Asset Management
manager who made the final decision that the deduction taken by ENI/AGIP was
allowable. He said he made this decision only after performing an official review of the
file. Contrary to Little’s allegations, the Supervisory Program Analyst stated that the
MRM Minerals Revenue Specialist did not direct Little and Arnold to stop their
investigation. The Supervisory Program Analyst stated that the Minerals Revenue
Specialist had no authority to direct Compliance and Asset Management to do anything,
much less cease a review of a producer’s deductions. According to the Supervisory
Program Analyst, once he made the decision to not approve the Issue Letter, the matter
was closed. In fact, the Supervisory Program Analyst stated that Arnold did not express
any dissatisfaction to him about the decision to allow the deduction.




                                              60
Regarding Little’s claim that 30 C.F.R. § 208 prohibited the deduction, the Supervisory
Program Analyst stated that 30 C.F.R. § 208 concerned RIK specific to the Small Refiner
Program, whereas the “current projects, the things [the RIK Program is] doing now are
not covered under regulations, so that’s why it’s kind of a gray area as to what is
applicable [and] what is not.”

The Supervisory Program Analyst opined that the RIK Oil Marketing Specialist went
beyond his duties in recommending that the deduction taken by ENI/AGIP be allowable.
He said the RIK group was supposed to simply provide factual information about the RIK
contract to Compliance and Asset Management, not make recommendations. The
Supervisory Program Analyst said he believed this recommendation upset Little and
Arnold. According to the Supervisory Program Analyst, however, the recommendation
had no weight in his opinion. He stated that if the RIK group told a producer it believed a
certain deduction would be allowable, it would make no difference because Compliance
and Asset Management made the final decision on such issues.

We asked the Supervisory Program Analyst if MMS headquarters or industry influenced
his decision to allow the deduction. He stated that he received input from various
sources; however, he said the ultimate decision was his own and he did not receive any
undue influence in making it.

Regarding Compliance and Asset Management’s relationship with oil and gas companies,
the Supervisory Program Analyst said, “I don’t think we’re too cozy with industry at all.”
According to the Supervisory Program Analyst, Compliance and Asset Management
auditors had great flexibility in pursuing potential findings against industry without fear
of being “stepped on” by upper management. He acknowledged that audit investigations
might be stopped in certain situations by upper management, such as in the event of a
pending litigation.

Regarding the lawsuit’s allegations of fraud, the Supervisory Program Analyst stated that
under MMS policy (30 C.F.R. Part 206), producers were not required to ask permission
to take deductions prior to filing their Form 2014 unless the deductions were greater than
50 percent of the production value. He said producers simply took the deduction and it
was MRM’s job to evaluate whether the deduction was valid. He said a deduction could
never be a “false claim” since the companies were not required to verify whether the
deduction was valid or not prior to submitting their Form 2014s.

We showed Little the December 16, 2004 e-mail that Arnold sent to the Minerals
Revenue Specialist that stated, “[The Supervisory Program Analyst, Compliance and
Asset Management, MRM,] and I discussed this and decided not to pursue this as an
issue.” After reviewing the e-mail, Little stated that he had never seen the e-mail. Little
did state, however, that he learned in 2005, prior to filing his lawsuit, that the Supervisory
Program Analyst was the person responsible for stopping his investigation.

Little said he never spoke directly to the Supervisory Program Analyst, the Minerals
Revenue Specialist, the RIK Oil Marketing Specialist, or the ENI/AGIP Representative



                                             61
about the matter. He said Arnold was the person who “fought the battle” after Little had
informed him of his initial findings. Little stated that he and Arnold disagreed with the
Supervisory Program Analyst’s decision to allow the deduction because they believed it
was contrary to federal law and regulations. Furthermore, Little said he believed that the
RIK group probably pressured the Supervisory Program Analyst into allowing the
deduction. Little said, “Politically, you’d find out the RIK group is probably one of the
strongest arms within MMS.”

When interviewed, Arnold concurred with Little’s description of events surrounding the
ENI/AGIP transportation deduction issue. Arnold stated that he did not agree with the
Supervisory Program Analyst’s decision to allow the deduction. When asked about the e-
mail he sent to the Minerals Revenue Specialist on December 16, 2004, indicating that he
and the Supervisory Program Analyst, together, made the decision to “not pursue this as
an issue,” Arnold stated that the Supervisory Program Analyst, alone, was the person who
made the decision. In his interview, Arnold said, “[The Supervisory Program Analyst]
decided [not to pursue the issue]. I mean, maybe I didn’t write it real good, but I’m just
telling what [the Supervisory Program Analyst] decided and to put this in the file and
document it.” Arnold added, “[I] would have [given] them at least an Issue Letter and let
them come back with some kind of arguments.”

Arnold acknowledged that it was within the Supervisory Program Analyst’s discretion to
allow the transportation costs. He said he never considered filing a False Claims Act
lawsuit regarding this issue; in fact, he said he never knew Little was considering such an
action until he learned about the lawsuit after it was filed.

When asked about this issue, Lonnie Kimball, Program Manager, Offshore Compliance
and Asset Management, MRM, said the Supervisory Program Analyst (GS-14) had the
authority to review and resolve transportation deduction issues. He said GS-14
supervisors were delegated the authority to send Issue Letters and Orders to Pay and to
sign final audit reports.

Little said he disagreed with the Supervisory Program Analyst’s decision not to pursue
his transportation deduction issue pertaining to ENI/AGIP and subsequently filed a False
Claims Act lawsuit because he believed the transportation deductions were not allowable
and ENI/AGIP were making a false claim. Little continued to claim that there was a
requirement for ENI/AGIP to request an exception in order to claim transportation
deductions on an RIK lease. He noted that they did not make such a request. Little was
unable to provide a reference to substantiate his assertion that a request was required.

Notwithstanding the fact that Little disagreed with the Supervisory Program Analyst’s
decision in this particular matter, Little said, “[The Supervisory Program Analyst was]
the one redeeming quality of management I’ve seen within the organization.” Moreover,
Little continued, “[The Supervisory Program Analyst] likes to pursue these issues” and
“we have a lot of respect for him.”




                                            62
Later in his interview, Little said, “[The Supervisory Program Analyst] is probably the
one person that I feel, even without his experience, he understands oil and gas. He came
from industry, and he knows what these companies are doing wrong. So he lets us do our
thing.”

Little said regardless of the fact that the regulatory agency responsible for enforcing the
regulations (MMS) ultimately allowed the deduction, he believed ENI/AGIP should have
interpreted the law as he did. He said ENI/AGIP should have known such a claim was
illegal and therefore represented a false claim.

Reporting and Safeguarding Requirements

Reporting Requirements

After reviewing the OIG investigative case management system, we found no record
indicating Little reported allegations of fraud or mismanagement to the OIG regarding
ENI/AGIP, the RIK Program, or inappropriate transportation deductions.

Note: Little expressed the same views about his obligation to report his concerns – that
his actions did not constitute a violation of Department or MMS policy, and that there
was no conflict of interest – in regard to this case as he did in the other cases
(See pp. 47-48).

Safeguarding Requirements

We showed an MMS FOIA Staff Member and an MMS Records Officer documents used
by Little in his “Statement of Reasons for the United States Department of Justice to
Take On the Qui Tam Litigation.” They both identified the documents presented to them
as either proprietary or protected as internal MMS business records, or a combination of
both categories.

Additionally, we asked the FOIA Staff Member if any of the exhibits used in the
“Statement of Reasons for the United States Department of Justice to Take On the Qui
Tam Litigation” contained information that would be redacted or not released in response
to a FOIA request. He identified the document stamped RL100 as containing
confidential business information that would be withheld under Exemption 4 of the
FOIA. He also said portions of the document stamped RL0011 that disclosed specific
dollar amounts would be redacted because the information was confidential commercial
information.

We contacted an MMS FOIA/Privacy Act Officer to determine if MMS had received any
FOIA requests from Little or his attorneys. He responded that there had been no FOIA
requests from attorneys representing Arnold or Little. He said Little made one FOIA
request in October 2004 for information on awards given to Offshore Compliance and
Asset Management employees.




                                            63
When interviewed, Little admitted that he took official documents and information from
his office to use in support of his qui tam lawsuit. Little stated that he obtained all of the
information used in his lawsuit from his office. He denied using government computers
or material to conduct research to further his lawsuit; however, he acknowledged that he
checked the MMS databases to verify that the companies he was suing had not paid what
he believed they owed to the government. Little further reported that he did not issue
FOIA requests for any documents or materials regarding this lawsuit.

Our investigation found no evidence that the documents used by Little in the lawsuit were
provided to anyone other than the attorneys who were retained for the lawsuit.

Note: Little expressed the same views about his use of proprietary information – that his
actions did not constitute a violation of Department or MMS policy, and that there was
no conflict of interest – in regard to this case as he did in the other cases
(See page 51).

                                Declination of Prosecution

On September 20, 2006, the U.S. Attorney’s Office, Public Corruption Unit, Oklahoma
City, OK, verbally declined criminal prosecution of Little for alleged removal and use of
official government documents in order to pursue this False Claims Act lawsuit. The
Assistant U.S. Attorney advised that he was declining prosecution because there were
administrative remedies available to DOI to address the situation.




                                              64
                       Little and Arnold v. Royal Dutch Shell

                        Little and Arnold’s Qui Tam Complaint

On February 15, 2006, MMS auditors Randy Little and Joel Arnold filed a qui tam
lawsuit against Royal Dutch Shell for filing false claims regarding oil transportation
deductions between October 2001 and December 2005 in relation to six separate RIK
leases, amounting to $3,854,858. Little and Arnold asserted that the location of the six
leases at issue in the lawsuit lie “within, or is adjacent to, the [Federal Metering
Point]/custody transfer point.”

On March 14, 2006, Little and Arnold filed a second lawsuit against Shell for filing false
claims regarding oil transportation deductions on an additional six RIK leases during the
same time period for the amount of $15,198,968. Little and Arnold asserted that the
leases at issue in this lawsuit involved wells that were not immediately adjacent to the
platform.

According to the allegations in the lawsuits, Shell’s combined fraudulent claims totaled
$19,053,826.

While acknowledging that oil companies were permitted to claim deductions for certain
transportation costs in their complaints, Little and Arnold alleged that Shell claimed
transportation deductions for costs associated with the subsea movement of oil
(transporting oil beneath the sea floor) and tension leg platforms (floating drilling rigs,
anchored with cables attached to the sea bed). They asserted that such deductions were
prohibited by federal regulations. According to the lawsuits, Shell made false claims to
the government by claiming invalid transportation deductions on Form 2014s.

In their lawsuits, Little and Arnold also alleged that Invitations to Offer (the
government’s solicitation for bids on leases) issued by MMS established that “successful
offerors will take custody of the royalty oil at offshore delivery points, and will be
responsible for all movement of royalty oil downstream of these points.”

Additionally, according to the lawsuits, the Invitations to Offer for the 12 leases also
established that the offshore delivery points or custody transfer points were the same as
the oil platform where the oil was first brought to the surface, known as the Federal
Metering Point.

Both lawsuits stated that the lease terms required that the defendants transport the
product, at no cost to the Government, to the Federal Metering Point/custody transfer
point. The first lawsuit added, “as long as that point was not further than the adjacent
leases.” The lawsuits also stated that the leases required that royalty oil be placed in
marketable condition at no cost to the government.

Additionally, Little and Arnold asserted in their lawsuits that the terms of the Invitations
to Offer, including exhibits, and/or the law or regulations stated that gathering activities


                                             65
were considered a part of bringing lease production into marketable condition and did not
constitute transportation, but were an “antecedent activity” to transportation. Note: Title
30 C.F.R. § 206.101 defines gathering as the movement of the lease production (oil) to a
central accumulation or treatment point.

As additional supporting evidence, the first lawsuit (CIV-06-0156-HE) quoted section
6(c) of one of the leases at issue, as follows:

       When paid in amount, such royalties shall be delivered at pipeline
       connections or in tanks provided by the lessee. Such deliveries shall be
       made at reasonable times and intervals and, at the Lessor’s option,
       shall be effected either (i) on or immediately adjacent to the leased
       area, without cost to the lessor, or (ii) at a more convenient point closer
       to shore or on shore, in which event the lessee shall be entitled to
       reimbursement for the reasonable cost of transporting the royalty
       substance to such delivery point [emphasis included].

As further support of Little and Arnold’s claims, both lawsuits state that all persons
dealing with the U.S. Government are presumed to have knowledge of relevant
regulations, citing Walter Oil and Gas Corp., 111 IBLA (Interior Board of Land Appeals)
260 (October 25, 1989).

The lawsuits cited Title 30 of the C.F.R. § 206.106, which states that oil companies must
place oil in marketable condition at no cost to the government, and Title 30 C.F.R. §
206.101, which defines gathering as the movement of the lease production (oil) to a
central accumulation or treatment point. Further, the lawsuits noted that under an Interior
Board of Land Appeals decision, IBLA 97-0016, gathering activities were considered
part of bringing the lease production into marketable condition and that transportation, in
the sense that “transportation” costs could be deducted from royalties, occurred after the
product had been made into marketable condition. The Interior Board of Land Appeals
decision also stated that gathering did not constitute transportation but was a precursor to
transportation.

In the first lawsuit (CIV-06-0156-HE), Little and Arnold referred to Lease 054-007944-0
as “Shell No. 1,” and the second through sixth leases as “Shell No. 2.” In the second
lawsuit (CIV-06-0260-W), Little and Arnold identified a “standard lease form” as
supporting evidence. The relators included a footnote in each lawsuit referring to “Shell
No. 1” and the “standard lease form,” respectively, that stated the following:

       Relators have found it difficult to obtain copies of the actual leases that are
       the subject of this litigation. However, Relators were able to obtain a copy
       of this particular lease. Based upon Relators’ best knowledge, all leases
       that are the subject of this litigation contain the same substantive
       provisions.




                                             66
                  Investigations in Response to Qui Tam Filing

On February 15, 2006, DOJ received notification of Little and Arnold’s initial qui tam
lawsuit in this matter and received notification on April 10, 2006, of the second lawsuit.
DOJ requested investigative assistance from the DOI-OIG. In addition, the DOI-SOL
was notified and requested to provide recommendations of what actions the government
should take and to ensure the retention of all relevant records in the government’s
control.

Two DOJ attorneys coordinated the investigative efforts with support from an OIG
Special Agent and an SOL Attorney-Advisor.

When interviewed, the Attorney-Advisor stated that he and DOJ conducted an in-depth
investigation into the claims in the lawsuits and found that they lacked merit. The
Attorney-Advisor stated that, in his opinion, the actions of MMS officials were both legal
and an appropriate use of discretion, and the defendant companies simply acted pursuant
to the direction given to them by MMS officials.

The Attorney-Advisor stated that the investigation determined that the relators’ claims
stemmed from the fact that the relators were disgruntled about having their
recommendations for enforcement actions against companies they audited being
overruled by their supervisors.

On September 8, 2006, DOJ notified the court of its decision not to intervene in the
matter. In addition, DOJ stated, in part, that it appeared that some or all of the material
facts and documents that served to support the allegations made in the complaint were
gained by the relators while serving as employees of the United States. DOJ added that
because federal employees have a fiduciary duty to use all information gained in the
course of their employment solely for the benefit of the United States, DOJ reserved the
right to object, at the appropriate time, to any award made to the relator.

Also, in September 2006, the OIG initiated a new investigation into the legitimacy of
Little and Arnold’s claims to include, in part, whether the earlier DOJ investigation
adequately addressed their assertion that MMS management decided to not pursue
collection of the reported fraudulent deductions. In addition, our investigation addressed
concerns regarding whether Little and Arnold complied with DOI/MMS policy when
filing their claim, specifically regarding reporting known or suspected fraud and use of
government/proprietary documents.

Little and Arnold’s Actions

During their interviews, Little and Arnold summarized their lawsuits broadly by stating
that the 12 leases included in their lawsuits were RIK leases, in which the Federal
Metering Point and the delivery point were the same, and Shell had taken invalid
transportation allowance deductions. They asserted that a company was never entitled to




                                             67
take transportation deductions when the Federal Metering Point and the delivery point
were the same on an RIK lease.

Little and Arnold provided further explanation of the two lawsuits, which we also found
in court documents. In general, Little and Arnold said they did not believe Shell could
deduct costs for transportation of the oil when the oil was not considered to be in
marketable condition until it reached the Federal Metering Point. They asserted that
gathering activities associated with bringing the product to the surface were not
considered to be “transportation” of the product, but were a predecessor to transportation.

With respect to the second set of leases (CIV-06-0260-W), Little and Arnold further
alleged that Shell was relying on incorrect theories to support transportation deductions
that it knew to be incorrect.

According to Little and Arnold, one of the theories that Shell erroneously relied upon was
a May 20, 1999 memorandum, “Guidance for Determining Transportation Allowances
for Production from Leases in Water Depths Greater than 200 Meters” (Denett Guidance
Memorandum), drafted by Lucy Querques Denett, Associate Director, MRM. They
further alleged that Shell’s “alternate theory for taking transportation deductions”
appeared to be based upon the fact that the Federal Metering Point/delivery points for the
six leases were tension leg platforms. As stated earlier, Little explained that a tension leg
platform is a floating drilling rig, anchored with cables attached to the sea bed. Note:
Tension leg platforms are often used for deepwater (more than 300 meter) applications.

Little stated that Shell would be authorized to take marginal deductions associated with
its tension leg platforms. However, he claimed that if the deductions taken by Shell for
oil going through the platform were added up, the amount would almost equal the cost of
the platform. When asked about the basis for his claim, Little said he would not actually
know (specific dollar amounts) unless he gathered all of the invoices for the cost of the
platform. He said MMS should conduct an audit because Shell took the deductions
without agreement from MMS.

Little said that under RIK leases (the Shell leases were RIK leases), the government took
possession of the oil at the platform and then awarded contracts to transport the
government’s oil to a market center or small refiner. He said Shell won the contract to
transport the government’s oil after delivery at the platform. Little stated, “[T]hey were
paid a transportation fee that was agreed upon on that contract. The oil to the MMS at
that platform is free of charge.” According to Little, Shell should have included the
deduction it believed it could take in its bid for the transportation contract.

Little said he discussed his concerns about the large transportation deductions taken by
Shell with Joel Arnold, who encouraged him to contact Shell. According to the lawsuits,
Little and Arnold discussed the “false claims” with a Supervisory Program Analyst,
Compliance and Asset Management, and an MMS Petroleum Engineer, who agreed that
the claims appeared to be false, thereby warranting an investigation.




                                             68
After discussing the deductions and potential false claims with the Petroleum Engineer
and the Supervisory Program Analyst, Little said he and Arnold informed Lonnie
Kimball, Arnold’s supervisor, of their findings. Little and Arnold, in their lawsuit, stated
that during the discussion with Arnold’s supervisor, they indicated their intent to draft an
Issue Letter to Shell requesting that it rectify the false claims. Little said they also
indicated that if the Issue Letter was unsuccessful, they intended to draft and pursue an
Issue Order directing Shell to reimburse MRM for the monies that were wrongfully and
falsely claimed on the Form 2014s submitted from October 2001 through December
2005.

Little said he sent an e-mail to Shell on October 14, 2005, questioning the transportation
deductions. In December 2005, Shell subsequently e-mailed its response to MMS and
stated the following, in part:

       We agree that subsea transportation [costs] on Lease No. 054-007944-0,
       for oil for the period April 2004 through June 2005 was deducted in error
       and we agree to pay back $827,326.57 of the requested $3,219,254.74 due
       to this error. The difference of 2,391,928.17 deducted is associated with
       Tension Leg Platform (TLP) rate which is an allowed deduction.

Shell added the following:

       [W]e agree that subsea transportation [costs] on Lease No.054-007944-0,
       for gas for the period of April 2004 through June 2005 was deducted in
       error and we agree to pay back $191,837.93 of the total deducted amount
       of $484,779.54. The difference of $292,941.61 deducted is associated
       with the Tension Leg Platform (TLP) rate which is an allowed deduction.

       In summary, Shell agrees to pay back $1,019,164.50 in total for subsea
       transportation costs for both oil and gas rates associated with Lease No.
       054-007944-0.

In response to Shell’s e-mail, Little sent an e-mail to a Shell Employee requesting that he
send him a “copy of the MMS letter to Shell allowing Tension Leg Platform costs to be
deducted as transportation.” This request was forwarded by the Shell Employee to
another Shell Employee who responded to Little by stating, “Shell is deducting TLP costs
based on the Auger decision allowing TLP costs. Do you concur with Shell paying back
the subsea portion of $1,019,164.50?”

In his e-mail response to Shell, Little said the Auger decision (Shell Offshore Inc., GFS
(OCS) 207 (1998), 142 IBLA 71) was based on the unusual facts regarding the Auger
platform that only involved gas transportation.

Little answered the second Shell Employee in a December 13, 2005 e-mail that stated the
following, in part:




                                             69
       We agree Shell should pay back the subsea portion of $1,019,164.50.
       Please let us know when this has been accomplished.

       We do not agree to the deductions on the platform for TLP costs for the
       following reasons:

       1) The Auger decision was based on the unusual facts regarding the
          Auger platform only.
       2) The Auger decision spoke to gas transportation only.
       3) Shell did not transport oil/gas during the RIK contract period for the
          MMS (Shell may have transported the royalty barrels for MMS
          contractor at [Federal Energy Regulatory Commission] tariff rates
          during the RIK contract period).
       4) MMS regulations for RIK production do not allow transportation
          allowances if the products are not moved beyond the [Federal
          Metering Point].
       5) Lucy Querques Denett’s ‘Guidance Letter for Production in Water
          Depths Greater Than 200 Meters’ states ‘To qualify for a
          transportation allowance, the movement must be to a facility that is
          not located on a lease adjacent to the lease on which the production
          originates.’

The e-mail continued with Little explaining that the Petroleum Engineer, Shell
Compliance Team, Offshore Compliance Asset and Management, MRM, concurred with
the five reasons above and that the Petroleum Engineer expected Shell to ask for an MMS
valuation determination for each tension leg platform with unusual transportation
situations. Little advised the Shell Employee that no decision had yet been made for oil
tension leg platform deductions.

During his interview, Arnold said the Petroleum Engineer and the Supervisory Program
Analyst agreed that the Shell transportation deductions were invalid.

Both Little and Arnold alleged in their lawsuits that at some point, probably in December
2005/January 2006, Shell coerced their supervisors to retract their support for the
relators’ investigation.

Arnold said Kimball met with him shortly prior to a January 11, 2006 meeting between
Kimball and Shell officials. According to Arnold, Kimball said he (Arnold) did not need
to go to the Shell meeting because they were not going to discuss the transactions that
Arnold’s team was reviewing. In the lawsuits, Arnold asserted that Kimball did,
however, direct him to continue his review of Shell and to proceed with drafting an Issue
Letter.

In their lawsuits, Little and Arnold asserted that on January 26, 2006, Kimball verbally
directed them to discontinue their investigation into the issues they discovered pertaining
to Shell. During their interviews, Little and Arnold stated that Kimball informed them



                                            70
that he would not sign their Issue Letter to Shell. According to Little and Arnold,
Kimball also directed them to terminate their review of Shell.

Little told us that later the same day, he received an e-mail from Kimball that indicated
Kimball was rescinding Little’s earlier e-mails to Shell. Kimball’s e-mail was sent to a
Supervisory Auditor, Shell Residency Team, Compliance and Asset Management, MRM;
Arnold; Little; the Petroleum Engineer; and a Shell employee and stated the following:

       As Manager for Offshore [Compliance and Asset Management]:

       1. MRM will not take any action on the e-mail message below from
          Randy Little dated 12/13/2005 because MRM, [Offshore Minerals
          Management], and Shell are currently discussing issues related to the
          MARS/URSA TLP audit currently under way by the MRM
          Residency team. MRM and [Offshore Minerals Management] are
          using the Auger decision as a basis for the MARS/URSA TLP
          equipment. Some of the TLP cost in Randy’s properties may be
          allowed as a transportation [sic].
       2. The work being done by Joel Arnold’s team is a desk review and not
          an audit. They are looking at RIK transactions and transportation
          costs (TC 11) taken by payors. More information is needed before a
          definite conclusion (allowable transportation) can be made and a
          demand made to Shell.
       3. MRM can not [sic] require a payor to seek a value determination.

Little and Arnold concluded in their lawsuits that based upon Kimball’s e-mail, “it
appears that there was a concerted effort between management supervisors and
Defendants to cause any further investigation into Defendant’s deduction of
transportation costs to be thwarted.” Additionally, according to the lawsuits, Little and
Arnold “were verbally directed by Mr. Kimball to discontinue delving into the fraud and
wrongful claims that they had discovered and to cease their investigation.”

Little, when interviewed, said he interpreted Kimball’s e-mail to mean MMS was not
going to pursue or address the issues he raised in his December 2005 e-mail to Shell.

During his interview, Arnold said that after receiving Kimball’s e-mail informing Shell
that it could disregard Little’s e-mail, he believed that Kimball had simply dismissed
Little’s findings and was not going to pursue the matter.

MMS’s Description of Events Pertaining to Little’s Findings and E-mail to Shell

During his interview, Kimball stated that he had been employed by MMS since
[Exemption (b)(6)] and became the manager for Offshore Compliance in [Exemption
(b)(6)]. He confirmed that he was Arnold’s direct supervisor and thus his signature
would have been required for any Issue Letters or Orders originating from the Oklahoma
City office.



                                            71
Kimball stated that he had held multiple meetings with auditors informing them of the
difference between a data request and an Order to Pay. He noted that in some instances,
a data request resulted in a refund for transportation expenses. He added that companies
such as Shell would use the data request to conduct their own internal review and might
determine that additional funds were owed.

According to Kimball, he assigned Arnold and his team (sometime in 2005) to review
billings and transportation deductions taken by Shell, some of which involved deepwater
leases. As a result, he said Little and Arnold conducted compliance reviews, not audits,
and identified significant questionable billings for transportation by Shell.

Kimball stated that Little was conducting a broad-based compliance review. He said that
based upon that review, Little alleged that Shell should not have been taking
transportation deductions for subsea gathering before the Federal Delivery Point (usually
the Federal Metering Point). He said Little wanted him to sign an Issue Letter to Shell
requesting reimbursement through an evaluation determination. He said he refused to
sign the letter because Little was performing a compliance review and a Supervisory
Auditor of the MMS Shell residency team was conducting an audit that would address
Arnold and Little’s concerns. Note: The Supervisory Auditor leads the MRM audit
residency team at Shell.

Kimball said the Oklahoma City office had traditionally been aggressive in making
claims against industry without all of the facts and added that he believed Bobby
Maxwell was responsible for this culture. He said there were some good employees in
the Oklahoma Office; however, he said, “[They] don’t walk on water.” According to
Kimball, Maxwell built his staff up as being exceptional. He said, “I just don’t see it.”

The Supervisory Program Analyst, Compliance and Asset Management, stated that when
Little contacted him about Shell’s alleged erroneous deductions, he originally thought it
was a “good issue.” However, he said he later discovered that the MRM Shell residency
team was reviewing Shell’s transportation deductions. The Supervisory Program Analyst
said he believed Lonnie Kimball directed Little and Arnold to stop their inquiry since the
MRM Shell residency team was already addressing Little’s concerns. Note: Before
Little and Arnold began questioning Shell’s deductions, the Supervisory Program Analyst
was transferred from his role as Little and Arnold’s supervisor on the Compliance and
Asset Management team.

During his interview, an MRM Petroleum Engineer stated that he worked on projects
involving the determination of transportation allowances on deepwater oil and gas
production related to platforms, subsea manifolds, and pipelines and has worked on RIK
imbalance projects, which involved analyzing reported oil and gas volumes.

According to the Petroleum Engineer, in late 2005, Little telephoned him and asked for
his opinion on deepwater allowances related to Shell. He said Little took his opinion as




                                             72
“the gospel” and subsequently sent an e-mail to Shell disagreeing with Shell’s
transportation deductions.

The Petroleum Engineer stated that at the time of his conversation with Little, MMS was
negotiating with Shell regarding the Auger decision. He noted that Shell was being very
cooperative. He also said MMS had not established policy on deepwater allowances at
the time and the internal memorandum of guidance for deepwater allowances (Denett
Guidance Memorandum), issued on May 20, 1999, by Lucy Querques Denett, was open
to interpretation.

The Petroleum Engineer, after learning about Little’s e-mail to Shell, said he called Little
and told him their conversation was intended to remain “in-house” and that Little was
premature in contacting Shell. During this conversation, the Petroleum Engineer said he
pointed out to Little that he (the Engineer) was involved with negotiations with Shell
regarding transportation and tension leg platform deductions, and MMS had not
established a policy on the subject. According to the Petroleum Engineer, he also told
Little that Little should have sought supervisory approval and/or guidance on the matter
before sending an e-mail directly to Shell.

The Petroleum Engineer opined that the qui tam lawsuits filed by Little and Arnold
against Shell were premature and lacked substance due to the fact that MMS had no
established policy on the allowances at issue.

When interviewed, the Supervisory Auditor, Shell Residency Team, stated that he was a
supervisory auditor for the MMS residency auditing team that was physically located
within Shell’s office building in Houston, TX. According to the Supervisory Auditor, the
residency team was created and housed within Shell’s building to ensure the royalties
paid by Shell to MMS were correct according to MMS rules and regulations. He said the
residency team was a part of Compliance and Asset Management.

The Supervisory Auditor stated that the residency team conducted official audits, using
the GAGAS, of Shell’s largest operations producing RIV royalties, along with
performing compliance reviews of other Shell properties. Note: A compliance review is
less extensive than a full audit and is based upon comparing a company’s operation
against national index prices and industry averages. The Supervisory Auditor said that if
the residency team identified a “systemic issue” while performing an audit, it would
subsequently review all Shell properties in the Gulf of Mexico for the identified issue.

In addition to the Supervisory Auditor’s residency team, he said Compliance and Asset
Management was also composed of “property specialists” or compliance review teams.
He said the Oklahoma City MMS Compliance and Asset Management office that
included Arnold and Little was a compliance review team. He stated that the compliance
review teams conducted compliance reviews of RIK transportation deductions for all
companies operating in the Gulf, as opposed to dealing specifically with one particular
company. The Supervisory Auditor said the results of the compliance reviews were




                                            73
placed in “e-rooms,” whereas the full audits conducted by his team were stored in “hard-
files.”

During his interview, the Supervisory Auditor brought up the previously mentioned 2005
e-mail exchange between Shell and Little. According to the Supervisory Auditor, Little
had sent an e-mail to a Shell Employee in October 2005 questioning subsea and tension
leg platform transportation deductions Shell had taken on a lease in relation to its oil
production for the period of April 2004 through June 2005. According to the Supervisory
Auditor, Shell had responded to Little’s inquiry on December 2, 2005, by acknowledging
it had erroneously taken subsea transportation deductions related to oil and therefore
agreed to pay back the deductions taken in error.

The Supervisory Auditor further stated that Shell had also acknowledged erroneously
taking subsea transportation deductions related to its production of gas, which was not
identified by Little. He said Shell, however, stated that it believed the transportation
deductions it had taken in relation to the tension leg platform rate were allowable. In
sum, he said Shell agreed to reimburse MMS $1,019,165 for the erroneous subsea
transportation deductions for both oil and gas rates associated with the lease.

The Supervisory Auditor also said that on December 13, 2005, Little sent an e-mail to the
Shell Employee stating that he and Arnold did not agree with Shell’s “deductions on the
platform for TLP cost” and subsequently listed five reasons for their disagreement. In
addition, Little stated that the Petroleum Engineer agreed with him that the deductions
were not allowable, and Little suggested that Shell seek a determination from the
Petroleum Engineer and the Supervisory Program Analyst regarding the platform
deductions.

The Supervisory Auditor stated that the Shell Employee approached him after receiving
Little’s e-mail in order to inquire how Shell could comply with MMS.

According to the Supervisory Auditor, even though Little’s initial e-mail identified itself
as a “data request,” it was not a true data request, but rather a request to Shell asking for
an explanation as to why it took certain deductions. He said that in this matter, Little was
denying Shell’s deductions without first making a true data request and reviewing such
data. Accordingly, the Supervisory Auditor said he believed Little had neither the
authority nor the necessary information to deny Shell’s deductions.

The Supervisory Auditor stated that auditors could not deny deductions taken by a
company without supporting data. According to the Supervisory Auditor, if an auditor
identified an issue, he/she also needed to make a data request to the company, and if that
data supported the existence of a problem, the auditor would at that time send a
“preliminary request” to the company requiring a response by a certain date. He said
Little’s e-mail to Shell basically skipped the data request – and the subsequent review of
data – and jumped straight to a preliminary request denying Shell’s deductions.




                                             74
Additionally, the Supervisory Auditor explained that Little did not have the authority to
direct Shell to seek a determination; in fact, he said no person in MMS had the authority
to direct Shell to seek a determination. He said a determination was sought by a
company, on its own initiative, when it was uncertain how to address a certain matter.
The Supervisory Auditor noted that Little directed Shell to ask for a determination from
the Supervisory Program Analyst and the Petroleum Engineer, yet neither one would
have the authority to issue a determination.

The Supervisory Auditor explained that the Petroleum Engineer was a very
knowledgeable engineer who would certainly help MMS in deciding whether certain
deductions were allowable under a tension leg platform situation; however, he did not
have the authority to issue a determination. Moreover, the Supervisory Auditor stated
that he showed Little’s e-mail to Compliance and Asset Management Program Manager
Lonnie Kimball, and Kimball agreed with him that Little had no authority to direct Shell
to seek a determination.

Meeting With Shell

During his interview, Kimball stated that he may have directed Little and Arnold not to
attend the January 11, 2006 meeting with Shell because it concerned the Supervisory
Auditor’s residency team’s audit, not their compliance review. Regarding Little and
Arnold’s allegation that Kimball was directed by Shell to stop Little and Arnold in
pursuing collection of unpaid royalties, Kimball stated that he was never pressured by
Shell in the January 11, 2006 meeting to make any decision.

We asked Kimball why both the Supervisory Auditor’s residency team and the Oklahoma
City office (Little and Arnold) were performing simultaneous reviews of Shell, for the
same issue and for the same properties. He responded that conducting simultaneous
reviews was improper and he should have halted the reviews. He admitted that Shell was
irritated with redundant information requests. Kimball said he made it clear to Little and
Arnold that their review was a compliance review and not an audit. He said the auditors,
Little and Arnold, in their compliance review, should have reviewed MMS databases and
not requested detailed information from Shell.

The Petroleum Engineer stated that he attended the January 11, 2006 meeting with Shell
in order to discuss Shell’s interpretation of the Auger decision and how it related to
certain platforms. According to the Petroleum Engineer, Kimball raised the issue of
Little’s e-mail to Shell during the meeting. He stated that Kimball informed Shell that
the e-mail would be rescinded due to the fact that MMS policy had not been finalized.
He opined that Kimball was not influenced by Shell to rescind Little’s e-mail.

The Supervisory Auditor said that on January 11, 2006, he, Kimball, and the Petroleum
Engineer attended a meeting with Shell to discuss the MARS transportation system audit
being conducted by his team. According to the Supervisory Auditor, the meeting had
been scheduled several months earlier, and the underlying issue of whether Shell’s
deductions identified in Little’s e-mail were valid was not scheduled to be discussed. He



                                            75
said Kimball decided to add a discussion about Little’s e-mail to the meeting agenda after
he discussed the matter with him at a Christmas party in December 2005.

The Supervisory Auditor stated that after Kimball reviewed Little’s e-mail and the
underlying issue, Kimball determined that Shell’s tension leg platform deductions needed
to be addressed in the Supervisory Auditor’s comprehensive settlement audit of Shell,
and not dealt with separately via Little’s compliance review. He said that during the
January 11, 2006 meeting, Kimball discussed the e-mail with Shell and informed Shell
that he would “rescind” Little’s e-mail denying the deductions and directing Shell to seek
a determination. He said that as a result of Kimball’s decision, Kimball sent a January
26, 2006 e-mail rescinding Little’s e-mail.

The Supervisory Auditor stated that he fully agreed with Kimball’s decision to rescind
Little’s e-mail and with Kimball’s reasons for doing so as articulated in his January 26,
2006 e-mail. Regarding the first reason listed in Kimball’s e-mail, the Supervisory
Auditor said it made sense to include the tension leg platform deductions within the
purview of the audit his residency team was conducting because the audit was going to
lead to a comprehensive settlement between Shell and MMS. Additionally, the
Supervisory Auditor said Kimball’s second reason in the e-mail supported the
Supervisory Auditor’s notion that Little’s e-mail to Shell about denial of deductions was
not based on any supportable data. Finally, the Supervisory Auditor stated that Kimball’s
final reason was simply a fact – MMS could not require a company to seek a
determination.

The Supervisory Auditor said he did not believe Kimball was unduly influenced or
pressured by Shell in rescinding Little’s e-mail. He confirmed that he also did not
receive any pressure from Shell regarding the e-mail.

The Supervisory Auditor stated that there was a difference between an “approval” and a
determination. He said companies were required to request prior approval from MMS if
they planned on taking a deduction they knew would not comply with regulations.
However, he said the company could seek a determination – on its own volition – if it
was uncertain whether a deduction would be in compliance with regulations.

Transportation Deductions Taken by Oil Companies

Regarding Little’s claim that Shell committed fraud because it had taken deductions in
excess of 50 percent of the value of the product without obtaining prior permission from
MMS, Kimball agreed that if a company planned on taking deductions in excess of 50
percent of the value of the product, it needed to ask for an approval to do so. However,
Kimball questioned Little’s ability to determine that this occurred because Little did not
review any source documents. Moreover, Kimball stated that if a company did, in fact,
take deductions exceeding 50 percent of the product’s value, per regulations, the
company would merely be required to pay interest until it applied for approval; this was
not fraud.




                                            76
Note: 30 C.F.R. § 206.109(2)(c) states that transportation allowances “may not exceed
50 percent of the value of the oil,” and 30 C.F.R. § 206.109(2)(e) states, “If MMS
determines that you took an excessive transportation allowance, then you must pay any
additional royalties due, plus interest ….”

Kimball explained that oil companies paid royalties to MMS similar to how a taxpayer
paid taxes to the IRS. He said companies paid what they thought they owed MMS and it
was up to MMS to review their payment for accuracy and contact the company if MMS
disagreed with the amount.

Regarding some of Shell’s questioned deductions, Kimball stated that Shell claimed it
took the deductions based upon its interpretation of the Denett Guidance Memorandum.
Whereas Little and Arnold did not believe the memorandum was supported by regulation,
Kimball stated that the memorandum was issued as a result of a congressional hearing by
an MMS Associate Director and thus, as employees of MMS, Little and Arnold were
obligated to follow its guidance.

Regarding Little’s allegation that Shell fraudulently deducted 100 percent of its tension
leg platform and subsea costs, a Supervisory Auditor, Shell Residency Team, Compliance
and Asset Management, acknowledged that, under MMS regulations, companies had to
request an approval to take a transportation deduction if the deduction was greater than
50 percent of the RIK oil value. According to the Supervisory Auditor, however, his
team’s audit determined that Shell did not claim deductions representing 100 percent of
its tension leg platform costs and determined that the deductions claimed did not exceed
50 percent of the RIK oil. In addition to stating that his team’s audit refuted Little’s
allegation that Shell fraudulently deducted 100 percent of its tension leg platform and
subsea costs, the Supervisory Auditor pointed out that Little’s finding was inherently
flawed since such a determination could never be possible without conducting a full
audit.

According to the Supervisory Auditor, the Denett Guidance Memorandum provided
guidance on determining proper subsea and tension leg platform costs for offshore
deepwater leases. He said this memorandum stated that production from a deepwater
lease might qualify for a transportation allowance; however, the memorandum stated,
“[T]o qualify for a transportation allowance, the movement must be to a facility that is
not located on a lease adjacent to the lease on which the production originates.” The
Supervisory Auditor stated that the leases identified in Little’s October 2005 e-mail to
Shell questioning its subsea deductions concerned adjacent leases. He said that was the
reason Shell acknowledged its error and paid back the deductions for all of the leases in
question. Since that time, the Supervisory Auditor stated that an MMS Petroleum
Engineer had compiled a spreadsheet identifying all adjacent leases owned by Shell that
were not entitled to subsea transportation deductions.

According to the Supervisory Auditor, Shell relied upon the Auger decision made by the
Interior Board of Land Appeals in taking the tension leg platform deductions. He said the




                                            77
tension leg platform issue would be addressed in the residency team’s audit and resulting
comprehensive settlement with Shell.

Rationale for the Denett Guidance Memorandum

We interviewed MRM Associate Director Lucy Querques Denett regarding the reasoning
behind the issuance of the Denett Guidance Memorandum. She said a task group,
composed of representatives from MMS Policy and Management, MRM, and the DOI-
SOL was formed to attempt to study and resolve the issue of allowable transportation
deductions for subsea movement of production from deepwater leases. She indicated that
reviewing the information was a very complex undertaking because it was difficult to say
“it is/it isn’t” when determining what should be allowed. Denett said MMS even held a
workshop on the issue to obtain input from industry. She said the task group eventually
presented its recommendations to MMS executives, and the task group’s
recommendation resulted in the issuance of the Denett Guidance Memorandum.

During her interview, we asked Denett if it made sense to grant deductions for some of
the subsea movement of production. She responded, “I think so. I mean, that’s why we
had Offshore involved. And it was sort of like, here’s the platform; here’s another
platform; we were trying to say okay, if it’s right next to it, forget about it; if it’s further
away, then you can [take a transportation deduction] ….”

On October 15, 1998, MMS announced the following Notice of Meeting in the Federal
Register (63 FR 56217):

        Announcement of Minerals Management Service Workshop on the
        Development of Criteria To Be Used in Distinguishing Between Gathering
        and Transportation in Deep Water in the Outer Continental Shelf.

In summary, the Notice stated the following:

        The Minerals Management Service (MMS) will hold a day-long meeting
        with parties interested in the development of deep water leases that may
        involve subsea well completions. We are interested in developing specific
        criteria to be used in distinguishing between gathering and transportation
        to determine permissible deductions in calculating royalty value.

Under the Supplementary Information section of the Notice, MMS stated the following:

        MMS is investigating the impact of deep water production systems on the
        distinction between gathering and transportation.

        Current MMS regulations provide for an allowance for the actual and
        reasonable costs of transporting production when value for royalty
        purposes is determined away from the lease. No allowance is permitted




                                               78
       for gathering (movement to a central accumulation and/or treatment
       point).

       The new technologies involved in deep water development were not
       specifically contemplated in the current regulations, particularly when
       distinguishing between gathering and transportation.

       We are interested in specific comments regarding what criteria should be
       used on a case-by-case basis when making the gathering/transportation
       differentiation for deep water leases.

       Some possible criteria we would like comments on include: water depth,
       distance of movement, location of the approved measurement point,
       marketable condition of the production, and on-lease v. off-lease
       movement. Specific comments are welcome on any other criteria with a
       bearing on the issue.

In response to the Notice, MMS received comments from several companies, including
the following: Chevron USA Production Company; CNG Producing Company;
ExxonMobil, USA; Marathon Oil Company; Mobil Exploration and Producing U.S., Inc.;
Shell Oil Company; and Texaco Inc., in addition to receiving responses from the
American Petroleum Institute, the Domestic Petroleum Council, and the Independent
Petroleum Association of America.

When interviewed about the Denett Guidance Memorandum, Geoff Heath, Assistant
Solicitor for Royalty and Offshore Minerals, Division of Minerals Resources, SOL, stated
that he did review the memorandum and assisted MMS in its drafting. According to
Heath, the provision in the 1988 federal crude oil royalty valuation regulations defining
gathering did not address the operational logistics related to deepwater production.
Therefore, MMS issued the memorandum in an effort to take into consideration some of
those operational logistics (e.g. the long distances over which lessees sometimes needed
to move oil from an undersea manifold to a platform where it first surfaced, which could
often be over 25 miles).

According to Little, the Denett Guidance Memorandum “flies in the face of regulation.”
In their second lawsuit (CIV-06-0260-W), Little and Arnold stated that the Denett
Guidance Memorandum “is not part of the regulations and is not part of the definition of
‘gathering’ in 30 C.F.R. § 206.101.”

When interviewed, Walter Cruickshank, Deputy Director, MMS, stated that the Denett
Guidance Memorandum was not a regulation and did not carry the weight of law.
Cruickshank said the Denett Guidance Memorandum was written for specific
circumstances involving deepwater, subsea movement of production that were not
addressed when the regulations were written. As such, he said the Denett Guidance
Memorandum was issued interpreting the regulation to take into consideration the new
technology involved with deepwater production. Cruickshank stated that the Denett



                                           79
Guidance Memorandum “is consistent with the regulation, but it is not itself a
regulation.”

When asked if the industry should have been able to rely on the Denett Guidance
Memorandum in order to know how MMS would treat certain transportation deductions
related to deepwater production, Cruickshank stated that industry should have been able
to rely upon the memorandum’s guidance as long as the criteria articulated in the Denett
Guidance Memorandum were met. Additionally, he said industry was not required to ask
MMS prior to taking a deduction in reliance upon the memorandum. Cruickshank said,
“[T]hat is why we have compliance activity, to see if we agree with the way they have
done it.”

Cruickshank said MMS recognized that the regulations defining gathering and
transportation, as they related to deductions, were written at a time when “you rarely saw
production moving from one lease to another,” when industry was operating in mostly
shallow water where the platform/accumulation point was “right on top” of the well.
Today, however, he said more companies were drilling wells in deepwater where they
“put the well hardware on the sea floor” and then connected it back to a platform that
could be many miles away (the longest distance being in excess of 60 miles, and the
average being 20 to 25 miles).

Cruickshank said MMS was trying to determine, through the task force, how it should
handle the logistics of this new “paradigm.” Cruickshank stated that MMS did not want
to be in a position where its regulations would force companies to make an investment
and do something differently “just so [it] could fit a certain criteria in the rules.”
Cruickshank stated that the Denett Guidance Memorandum – which allowed companies
to take transportation deductions for subsea movement of the product between
nonadjacent leases in water depths greater than 200 meters – was “an outgrowth of the
task force process.”

Cruickshank stated that the Denett Guidance Memorandum did not controvert the
regulations. He confirmed Heath’s statement that the Denett Guidance Memorandum
was submitted to the SOL for review to ensure it complied with regulations.

Residency Team Audit of Shell

Kimball said he considered a Shell Residency Team Supervisory Auditor’s audit of Shell
to be a test case for subsea deductions that would set guidelines for all companies
operating in deepwater in the Gulf. He said Shell had been cooperative with MMS. He
said, for example, that Shell agreed to a tolling agreement to extend the 7-year statute of
limitations in order to provide MMS with time to study subsea transportation deductions.

According to the Supervisory Auditor, his residency team had been working on an
extensive audit of Shell’s MARS Platform in relation to how Shell took subsea and
tension leg platform transportation deductions. He said the goal of the audit was to reach
a comprehensive settlement with Shell in determining how MMS would treat subsea and



                                            80
tension leg platform transportation deductions for all Shell properties in the Gulf. In fact,
he stated that the audit would ultimately establish guidelines related to these types of
deductions for all companies operating in the Gulf, not just Shell.

The Supervisory Auditor said the final comprehensive settlement between MMS and
Shell would include both RIV and RIK properties. He stated that Shell and MMS already
agreed on which transportation deductions would be allowable and which would not.
However, he explained that due to the need to establish the methodology required to
calculate the accurate totals for all Shell properties in the Gulf, which the Supervisory
Auditor stated would be a massive undertaking, he speculated that the final settlement
would probably not be signed until mid-2007. Once signed, the Supervisory Auditor
stated that the settlement would serve as a guideline for all other companies operating in
the Gulf regarding transportation deductions.

In sum, the Supervisory Auditor stated that he did not believe Little and Arnold’s
lawsuits had any merit. He stated that Shell had always been very cooperative with his
residency team during his audits, and he believed Shell truly attempted to pay all of the
royalties due to MMS under the law. As an example of Shell’s willingness to do the right
thing, he pointed out how Shell, on its own initiative, identified its erroneous deductions
related to gas that Little did not identify (his findings only concerned oil transportation
deductions).

In a November 27, 2006 e-mail to the OIG, the Supervisory Auditor provided the status
of the 12 leases contemplated in the lawsuit. Regarding the lease mentioned in Little’s
initial e-mail to Shell (Lease No. 054-007944-0), the Supervisory Auditor stated that
Shell paid back $1.2 million of erroneously taken subsea transportation deductions.
Regarding the remaining five leases contemplated in CIV-06-0156-HE, he stated that
Shell informed him that it did not claim any subsea deductions, and all of the
transportation Shell did claim was a part of its “global settlement.” Regarding each of the
six Shell leases included in CIV-06-0260-W, the Supervisory Auditor stated that Shell
“[could] claim subsea transportation” and that “the transportation claimed by Shell is a
part of our global settlement.”

Further, he said the tension leg platform-related deductions and the subsea transportation
deductions related to nonadjacent leases would be included in his residency team’s audit
of Shell.

Relators’ Responses Concerning the Residency Team Audit

During a follow-up interview, we asked Arnold if he knew that the Supervisory Auditor’s
residency team was addressing Shell’s transportation deductions challenged in his
lawsuits. In response, Arnold stated that after receiving Kimball’s e-mail directing Shell
to disregard Little’s e-mail, he believed Kimball had simply dismissed Little’s findings
and was not going to pursue the matter. Arnold stated that Kimball never informed him
that the issues were transferred to the Supervisory Auditor’s residency team for handling.




                                             81
After being informed that the questioned deductions were not dropped by MMS but were
transferred to the Supervisory Auditor’s residency audit team for handling, we asked
Arnold if he would have still filed his lawsuits had he known this fact. Arnold stated that
he did not believe any additional work needed to be done – the deductions were not
allowable. He said there was no need for further discussion. Notwithstanding this belief,
Arnold stated that if he knew the Supervisory Auditor’s residency team was “following
up on” the issue, he would not have filed his lawsuits.

We also asked Little if he knew that the Supervisory Auditor’s residency team was
addressing Shell’s transportation deductions contemplated in his lawsuits. In response,
Little stated that no one had informed him that Kimball had directed the Supervisory
Auditor’s residency team to address the issues. When asked what meaning he derived
from Kimball’s January 26, 2006 e-mail rescinding Little’s previous e-mail to Shell,
Little stated the following:

       …I read [in Kimball’s e-mail to Shell], ‘MRM will not take any action on
       the e-mail message below,’ so it tells me that anything I have suggested in
       my e-mail, he’s telling Shell MRM will not pursue it. That’s what I read
       into it. And he kicks me off the case. ‘We’ll not take any action on the e-
       mail message.’

When asked if he believed the Supervisory Auditor’s residency team was competent to
handle the issue he raised, Little opined that the team would address the issues “in
accordance with what Lonnie Kimball tells them to do.” Little said he had doubts that
“everything that I put on the table regarding these issues will ever be brought forth by
MMS.”

Note: In an e-mail to the OIG, dated December 6, 2006, the Supervisory Auditor said he
became aware that Shell’s tension leg platform and subsea deductions would be included
in his review in December 2005. An MMS Petroleum Engineer, in an e-mail to the OIG,
dated December 7, 2007, said he began working on the tension leg platform and subsea
deductions in January 2006.

Reporting and Safeguarding Requirements

Reporting Requirements

Our investigation found that Little and Arnold attended the MRM Office of Enforcement
Illegal Acts Awareness training on September 15, 2004, at Oklahoma City, OK. A class
sign-in sheet included their signatures.

The MMS Internal Quality Control System, Audit and Compliance Policies and
Procedures, states under Fraud, Illegal Acts and Abuse, “Any company actions that
potentially could be considered fraudulent, abusive, or illegal should be brought
immediately to the attention of the audit manager for appropriate follow-up and in
accordance with the MRM Audit Manual.” This document includes an acknowledgement



                                            82
of receipt that MRM employees are supposed to sign. Review of the receipt retrieved
from Arnold’s manual disclosed that Arnold signed the form on October 27, 2006.
Little’s receipt was not signed.

A review of the OIG investigative case management system found no record of Arnold or
Little reporting allegations of fraud or mismanagement to the OIG regarding Shell or any
inappropriate transportation deductions.

Note: Little expressed the same views about his obligation to report his concerns – that
his actions did not constitute a violation of Department or MMS policy, and that there
was no conflict of interest – in regard to this case as he did in the other cases
(See pp. 47-48).

During his interview, Arnold said that although he did not consider contacting the OIG
prior to filing his qui tam lawsuit, he was uncertain about the objectivity of the OIG
because, in his opinion, the OIG took management’s side during an audit in about 1998
or 1999.

Arnold stated that he and Little had not done enough work to accuse Shell of fraud. He
stated that in his 30 years of audit experience, he would not classify what Shell did as
fraud. Arnold commented, “I don’t think it rose to that level in my mind. It was what we
normally come across in an audit.”

Arnold further opined that the Shell issue did not rise to the level of fraud, waste, or
abuse reportable to the OIG. He said, “[W]e wouldn’t waste OIG’s…time accusing
every company that pays royalties incorrectly of fraud.” He stated that the False Claims
Act was a mechanism for recovering money owed to the government. Arnold
commented that what they had found with Shell was not something they would take to
the OIG. Arnold stated that he did not want any money and that if the government
wanted to take the case, it could. He said, “[J]ust pay our attorneys; we don’t get
anything.” Arnold said that as long as the government was paid and his attorneys were
paid, he was happy.

Safeguarding Requirements

A review of the MMS database used to record employee acknowledgement of the
Information Technology Rules of Behavior disclosed that both Arnold and Little
completed the acknowledgement for FY 2005 and 2006.

Our review of training and education records for calendar years 2005 and 2006 disclosed
that Arnold and Little completed the MRM FOIA and Privacy Act training during 2005.

We showed an MMS FOIA Staff Member and an MMS Records Officer documents used
by Little and Arnold in their “Statements of Reasons for the United States Department of
Justice to Take on the Qui Tam Litigation.” Both identified the documents presented to




                                           83
them as either proprietary or protected as internal MMS business records, or a
combination of both categories.

Additionally, we asked the FOIA Staff Member if any of the exhibits used in the
“Statements of Reasons for the United States Department of Justice to Take on the Qui
Tam Litigation” contained information that would be redacted or not released in response
to a FOIA request. The FOIA Staff Member identified the documents stamped RL0465
through RL0486, JA572 through JA586, and JA0007 through JA0017 as documents
containing confidential business information not releasable to a FOIA requestor.
Additionally, the FOIA Staff Member identified the documents stamped RL713 and
RL0117 through RL0119 as containing information that would not be releasable under
Exemption 5 of the FOIA because they contained internal government deliberative
process information. He also said the documents stamped RL0117 through RL0119
contained business proprietary information that also would be redacted before release of
the documents to a FOIA requestor.

We asked an MMS FOIA/Privacy Act Officer if MMS had received any FOIA requests
from Arnold, Little, or their attorneys. He responded that there had been no FOIA
requests from attorneys representing Arnold and Little. He said Little made one FOIA
request in October 2004 for information on awards for Offshore Compliance and Asset
Management. He said he found no FOIA requests from Arnold.

Note: Little expressed the same views about his use of proprietary information – that his
actions did not constitute a violation of Department or MMS policy, and that there was
no conflict of interest – in regard to this case as he did in the other cases
(See page 51).

During his interview, Arnold admitted that he took official documents and information
from his office and provided them to his private Attorney. Arnold said, “I gave them to
[my Attorney],” in reference to official correspondence and documentation that he
removed from his office. He denied that he provided the documents or information to
anyone else. Arnold also denied that he used government time and materials to further
his lawsuits because the information was gathered as part of the work assigned to him.

Arnold stated that he was not familiar with the MMS Manual, Part 386, Safeguarding of
Records and Information. He indicated that he knew parts of the MMS Manual were
available online, but he was not sure where to find the entire manual. Arnold said he had
researched the manual in the past when employees filed grievances.

Arnold said his understanding of the MMS policy on proprietary information was that
such information could not be released to the general public. He stated that it could be
used for the benefit of the government. Arnold said he used proprietary information to
recover money from the “auditee” for the government. He said, “[I]t was still used, in
my mind, for official government use.”




                                            84
Arnold claimed that MMS policy did not address the situation he and Little were
involved in (i.e. filing a False Claims Act lawsuit). He maintained that he used
proprietary information only to recover money owed to the U.S. Government. He opined
that he did not think the MMS policy was relevant to his situation because it did not
specifically address the filing of False Claims Act lawsuits.

We advised Arnold that the MMS Manual, Part 370, Chapter 735, Employee
Responsibilities and Conduct, defined conflict under the Conflict of Financial Interest
section as a situation where (1) “an employee’s public duty is or will be affected by his or
her financial interest” or (2) “an employee’s financial interest is or will be affected by
decisions he or she makes or operations in which he or she is involved in an official
capacity.”

Arnold stated that the MMS policy did not contemplate an MMS employee filing a False
Claims Act lawsuit. He maintained that he did not have a financial interest, stating,
“[T]hat’s yet to be determined.” Arnold opined that the False Claims Act took
precedence over MMS policy. He explained that if MMS management would not do its
job and “collect the money,” the False Claims Act provided a mechanism to collect such
money. He stated that there was no conflict of interest and the False Claims Act
encouraged employees to file lawsuits.

Our investigation found no evidence that the information used by Arnold and Little in
their lawsuits was provided to anyone other than the attorneys retained for the lawsuits.

                               Declination of Prosecution

On September 20, 2006, the U.S. Attorney’s Office, Public Corruption Unit, Oklahoma
City, OK, verbally declined criminal prosecution of Arnold and Little for alleged removal
and use of official government documents in order to pursue his False Claims Act
lawsuit. The Assistant U.S. Attorney advised that he was declining prosecution because
there were administrative remedies available to DOI to address the situation.




                                             85
                             Relator Claims of Retaliation

During their interviews, Arnold, Little, and Morris, as well as their attorneys, claimed
that they had been subjected to reprisal actions by MMS management. We also received
reprisal allegations from an Attorney representing Arnold and Little. We later contacted
the attorneys representing all three of the relators and asked them to verify the reprisal
allegations we had documented, and we invited them to provide any further claims of
retaliation that had not been communicated to OIG investigators. After receiving
responses from the attorneys, we identified a total of 17 allegations of reprisal pertaining
to Arnold, Little, and Morris.

We did not obtain allegations of reprisal directly from Maxwell because, as noted earlier
in this report, he would not agree to an interview. However, through a review of
documents contained in Maxwell’s lawsuit, we identified one claim of reprisal pertaining
to his termination of employment.

The following segment of this report is organized into sections pertaining to claims of
reprisal made by Maxwell, Arnold, Little, and Morris. Each allegation or related set of
allegations is presented to the reader followed by witness testimony and other
investigative activities related to each allegation.

                                      Bobby Maxwell

Allegation No. 1: Bobby Maxwell’s employment as a re-employed annuitant was
allegedly terminated as a direct result of, and in retaliation for, filing his qui tam lawsuit.

In an affidavit to the court involving his qui tam lawsuit, dated April 1, 2005, Maxwell
stated, “I believe that my termination of employment from MMS was a direct result of,
and in retaliation for my having filed this False Claims case.” Maxwell also claimed the
following in the affidavit:

    •   He “received absolutely no input about any possible job elimination or inquiry as
        to other positions that might be of interest.”
    •   He attended a meeting on January 27, 2005, where he was advised that his
        position had been eliminated because of a reorganization.
    •   He was never offered the opportunity to apply for other MMS positions of
        interest.
    •   He did not recall participating in a meeting with other MMS managers to discuss
        the organizational structure of the Compliance and Asset Management Program
        as stated in an MMS memorandum.

As noted earlier in the report, our repeated efforts to interview Maxwell for this
investigation were unsuccessful.

Our investigation found that Maxwell served as an MRM supervisory auditor until he
retired on June 28, 2003. Maxwell was hired as a re-employed annuitant on October 19,


                                              86
2003, and served as an MRM program manager until his employment was terminated on
February 25, 2005.

We found that the Notification of Personnel Action (SF-50) for Maxwell’s appointment
as a re-employed annuitant stated under the Remarks Section, “As a reemployed
annuitant, you serve at the will of the appointing officer.”

Our review of Title 5, U.S.C., Chapter 33, Subchapter I § 3323 (b)(1) disclosed that “An
annuitant so reemployed, other than an annuitant reappointed under paragraph (2)
[applicable to administrative law judges] of this subsection, serves at the will of the
appointing authority.”

A review of the DOI Departmental Manual archived files (370 DM 7.1) disclosed that
“Regardless of the type of appointment a reemployed annuitant may be separated at any
time at the discretion of the appointing officer.” Our review of active Departmental
Manual files disclosed no current policy or direction pertaining to re-employed
annuitants.

When interviewed regarding Maxwell’s allegations, Deborah Gibbs Tschudy, Deputy
Assistant Director, MRM, said Maxwell’s position was eliminated as a result of the
reorganization of Compliance and Asset Management. She explained that MRM decided
to consolidate the Offshore Compliance and Asset Management responsibilities under
one, rather than two, GS-15 managers. Tschudy said the reorganization of Compliance
and Asset Management was the reason for eliminating Maxwell’s position and it was not
in response, or retaliation for, his qui tam lawsuit.

Tschudy stated that she did not know about Maxwell’s lawsuit until July 12, 2004. She
added that Maxwell was a re-employed annuitant and therefore served at the will of the
employer.

Tschudy stated that during a meeting on June 8, 2004, Lucy Querques Denett announced
a decision to combine Onshore and Offshore Compliance and Asset Management and to
fill the then-vacant manager position at the MRM Business Center in Houston, TX.
According to Tschudy, Maxwell talked to Denett about Offshore Compliance and Asset
Management being consolidated under one manager rather than two. She said Denett
tasked her with talking to other Compliance and Asset Management managers about the
future framework of the organization. Tschudy identified the managers as Maxwell; a
Program Director, Compliance and Asset Management, MRM; and a Manager from
Onshore Compliance and Asset Management, MRM.

Tschudy said she met with the Compliance and Asset Management managers, including
Maxwell, on June 30, 2004. She said the managers agreed with the consolidation,
including a decision to locate the Offshore Compliance and Asset Management manager
in Houston, TX. During the week of the meeting, Tschudy said she informed Maxwell
that she might ask him to serve on the interview panel for the Houston, TX, manager
position. Maxwell’s response, according to Tschudy, was that he might apply for the



                                           87
vacancy so he would decline an offer to serve on the selection panel. Tschudy added that
Maxwell had offered to move to Houston, TX, at his expense but did not recall exactly
when he mentioned it.

Tschudy said she informed Denett about Maxwell’s interest in the Houston, TX, position
and, according to Tschudy, Denett responded, “Well, let’s follow up with Bobby, because
if we don’t need to advertise [the vacancy], we won’t.”

According to Tschudy, she left a voicemail message for Maxwell on July 2, 2004, stating
that she wanted to discuss his interest in the Houston Business Center manager position.
Tschudy said Maxwell never responded to her message so she assumed he was no longer
interested in the job. When asked if she made any further attempts to contact Maxwell
about the job, Tschudy responded that she did not. She opined that she should not “have
to beg” someone about his/her interest in a job and added that that if Maxwell was
interested in the job, he should have responded to her message.

Tschudy stated that on August 3, 2004, she met with the MRM executive team (Denett;
an MRM Senior Policy Advisor; the MRM Chief of Staff; and the MRM Deputy
Associate Director). Note: The Chief of Staff and the Deputy Associate Director are no
longer employed with MRM.

Tschudy said she presented the Compliance and Asset Management reorganization
proposal to the team and received concurrence to proceed with a vacancy announcement
for the Houston, TX, position.

Tschudy provided a copy of the vacancy announcement to hire a program manager (GS-
15) in Houston, TX. The announcement was open on USAJobs from August 17, 2004, to
September 1, 2004. Tschudy said Maxwell did not apply for the vacancy.

When asked, Tschudy also provided a copy of the e-mail originally sent to announce the
vacancy on August 18, 2004, by the MRM Human Resources Branch to the “WASC HR
Services Area no [Outer Continental Shelf]” e-mail group, which included all MRM
employees nationwide; MMS administration and budget employees in Denver, CO; and
some Offshore MMS employees. The e-mail also revealed that the MRM Human
Resources Branch later forwarded the e-mail to the same mailing group to announce that
the closing date of the vacancy announcement had been extended to September 8, 2004.

A review of the e-mail showed that it contained a caveat that stated the following:

       Please note that it is still your responsibility as an applicant to do your
       primary job searches through USAJOBS, because that is the only official
       Department of the Interior vacancy distribution system. While we will do
       our best to send out courtesy e-mail messages in a timely manner, we will
       not extend vacancy announcements if an employee does not receive/read
       this message; e.g. employee is on leave, in travel status, etc.




                                            88
We obtained a chronology of events involving Compliance and Asset Management
organizational changes from Tschudy that she said led to the decision to eliminate one
management position. Tschudy also provided copies of e-mail invitations for meetings
during the summer of 2004 that included Maxwell as an addressee.

When asked, Tschudy said she did not know why Maxwell, whose position would be
eliminated by the decision to have a single Offshore Compliance and Asset Management
manager in Houston, TX, did not apply for the Houston, TX, position.

Tschudy notified Maxwell in a memorandum dated January 27, 2005, that his position
was no longer needed by MRM as a result of the reorganization. In the memorandum,
she told Maxwell that he was a re-employed annuitant who served at the will of the
appointing officer and that his employment was being terminated on February 25, 2005.

According to Denett, Maxwell approached her (in about June 2004) and said he did not
believe MRM needed a GS-15 manager in Houston, TX, and a GS-15 manager in
Lakewood, CO. Denett said she told Maxwell that she would be receptive to the
elimination of one of the two Offshore Compliance and Asset Management manager
positions if it made good business sense.

Denett said that at her direction, Tschudy met with the other Compliance and Asset
Management managers and they decided to recommend the elimination of one of the two
Offshore positions.

Denett said she directed Tschudy to ask Maxwell if he was interested in the remaining
Offshore manager position, which would be located in Houston, TX. According to
Denett, Tschudy told her she had left a message for Maxwell but he never responded, so
they decided to proceed with the job announcement for the position in Houston, TX.

Denett said she announced to MMS personnel that the position was going to be
advertised, and Maxwell did not apply for the vacancy. She explained that at the time,
she thought that perhaps he did not apply because he wanted to return to Hawaii. Denett
commented that if Maxwell had expressed any continued interest in the Houston, TX,
position before a selection was made, the job announcement could have been canceled to
accommodate him.

Denett said she learned about Maxwell’s lawsuit shortly after he filed it in about June
2004 because MRM had to recuse Maxwell from working on anything related to Kerr-
McGee. Denett said Maxwell claimed that he was fired in retaliation for filing his
lawsuit. She acknowledged that Maxwell was terminated around the same time that the
lawsuit was unsealed by the court but denied that the two actions were related. She
denied that there was any retaliation against Maxwell because he filed a qui tam lawsuit.

Denett said Maxwell’s employment was terminated because he was a re-employed
annuitant and the position for which he was hired was eliminated with the decision to
consolidate the two Offshore manager positions into one position located in Houston, TX.



                                            89
The Program Director, Compliance and Asset Management, MRM, said he agreed with
the plan to combine the two GS-15 positions into one “for business reasons.” He said he
did not recall seeing Maxwell at the June 2004 manager’s meeting and added that he was
not involved in any of the decisions regarding Maxwell’s lawsuit. When asked, the
Program Director said he did not recall any conversations about “getting rid of
[Maxwell].” He recalled Maxwell informing him that he was applying for the Senior
Executive Service position that he currently occupied. The Program Director also noted
that he learned about Maxwell’s lawsuit from the media.

A Manager for Onshore Compliance and Asset Management, MRM, said he was present
at a manager’s meeting on June 30, 2004. He said Compliance and Asset Management
managers met to discuss combining two management positions into one. The Manager
recalled that meetings were held to discuss combining Onshore and Offshore compliance
operations and to determine where to locate the one remaining position. He also recalled
that Maxwell participated in these discussions. When asked, the Manager said he neither
recalled any discussions about taking retaliatory actions against Maxwell nor any reason
to think that any retaliatory action was taken against him.

Tschudy told us that after Lonnie Kimball was selected for the Houston position,
Maxwell’s services were no longer needed and his position was eliminated. Tschudy
related that Maxwell accepted a discontinued services retirement in a resolution
agreement. Note: A discontinued services retirement is used when an employee is
involuntarily separated from federal service.

[Exemption (b)(6)]

An Attorney-Advisor, Rocky Mountain Region, SOL, said he was the attorney assigned
to handle the negotiations pertaining to Maxwell’s Equal Employment Opportunity
complaint. [Exemption 5] The Attorney-Advisor said Maxwell had previously “beat
MMS” out of $300,000 in an earlier Equal Employment Opportunity complaint in which
Maxwell alleged gender discrimination.

[Exemption 5]

[Exemption 5]

The Attorney-Advisor stated that it was best to just “roll and settle.” He said the
settlement avoided a long drawn out legal process. He added that the settlement terms
allowed Maxwell to pursue his claims in the Kerr-McGee qui tam lawsuit but forbid any
other actions against DOI.

On August 4, 2005, Maxwell signed a settlement agreement with DOI, reaching a global
resolution for any and all pending and potential claims and complaints against MMS and
any entity, organization, or bureau of DOI. Maxwell agreed to retire from federal service
effective June 28, 2005, and to submit all retirement paperwork within 15 days of



                                           90
execution of the resolution. Maxwell received approximately $25,000 and a discontinued
services retirement at a GS-15, Step 10, salary of $123,905, with 31 years and 5 months
of service.

The resolution agreement included language that the settlement would not be construed
as an admission by either the complainant or the agency of any liability or acts of
wrongdoing. The settlement agreement allowed Maxwell to pursue his lawsuit against
Kerr-McGee.

                               Arnold, Little, and Morris

Arnold, Little, and Morris alleged during interviews with the OIG and/or through their
attorneys that they were victims of retaliation by MMS because they filed qui tam
lawsuits against oil companies. Their allegations and our investigative results are
chronicled below.

Allegation No. 1: Information from the qui tam lawsuits was allegedly released to MMS
personnel as an act of reprisal while the lawsuits were sealed.

Our investigation found that information about the sealed qui tam lawsuits was released
to the SOL, the OIG, and MMS by DOJ as part of its authorized efforts under the False
Claims Act to assess whether or not to intervene and proceed with the action or to allow
the relator to maintain primary responsibility for the conduct of the litigation.

A Trial Attorney, Civil Division, Commercial Litigation, Frauds, DOJ, advised us that
DOJ, consistent with its obligation to investigate violations of the False Claims Act, and
because a full and complete investigation in the interest of the government required the
participation of agencies beyond DOJ in every qui tam case, sent a letter and attached
copies of the complaint to the relevant federal agencies. Additionally, the DOJ Trial
Attorney said DOJ expected agencies to disclose the contents of the complaint to those
who would be involved in the government’s evaluation of the case. He added that such
disclosures were not a violation of the qui tam seal but rather a necessary and appropriate
part of the DOJ investigation.

The DOJ Trial Attorney added that the lawsuits had to be filed under seal and that it was
important to honor that seal by not disclosing the existence of, or information about, the
lawsuits to anyone except those in the government who would be involved in the case.

Tschudy said she learned of the qui tam lawsuits filed by Arnold, Little, and Morris from
SOL attorneys around the time each lawsuit was filed. Tschudy recalled that she also
received an e-mail from the DOJ Trial Attorney stating that he desired to interview MRM
employees as part of the DOJ investigation into the qui tam lawsuits, which she
forwarded to the appropriate MMS managers and supervisors. She said she informed the
contacted employees to keep the information regarding the qui tam actions on “close-
hold.”




                                            91
An SOL Attorney-Advisor who was assigned to work with DOJ on each of the involved
qui tam lawsuits told us that the DOJ Trial Attorney verbally apprised him that disclosure
of information about the lawsuits was authorized on a need-to-know basis. The Attorney-
Advisor added that his job as a representative of the SOL was to follow the lead of DOJ.

Denett said she learned about the qui tam lawsuits filed by Arnold, Little, and Morris
shortly after the lawsuits were filed in late 2005 and early 2006. Denett commented that
DOJ advised MMS about each of the sealed lawsuits because decisions had to be made
whether DOJ would intervene or not in the lawsuits. Denett said DOJ eventually decided
not to intervene in any of the lawsuits.

Allegation No. 2: As acts of reprisal, Morris, Little, and Arnold were allegedly detailed
from their assigned duties after MMS became aware of their qui tam lawsuits.

Specifically, Morris claimed that his detail assignment to BLM was an act of reprisal
because he had little work to do at BLM and he reported to a GS-5-level employee. He
also claimed that an involuntary detail was a prohibited personnel practice and that he
had never heard of anyone being placed on detail involuntarily. He asserted that over the
past 16 or more years, MMS asked for volunteers for detail assignments. Morris also
alleged that being detailed to Solids and Geothermal Compliance and Asset Management
(Solids and Geothermal) to serve as a program analyst following his detail to BLM
constructively fired him from his auditor profession.

Little claimed that his detail to BLM was an act of reprisal because he had no mission at
the BLM office and reported to a GS-5-level employee. He said a BLM Administrative
Officer told him that usually a bureau requests that employees be detailed when it needs
help. He said BLM should have requested that MMS detail employees to BLM verses
MMS making the request. He added that the Administrative Officer refused to sign the
personnel action for his detail extension because he did not have any duties to perform
and BLM did not request the detail.

Arnold’s Attorney claimed that Arnold’s detail to work with Solids and Geothermal may
have been an act of reprisal because he would no longer be a supervisory auditor.

During our investigation, we reviewed Title 5, U.S.C. § 3341, which disclosed that
employees may be detailed among the bureaus and offices of a department for no more
than 120 days and that a detail may be renewed for periods not exceeding 120 days.

We found that the U.S. Office of Personnel Management Guide to Processing Personnel
Actions defines a detail as “a temporary assignment [of an employee] to a different
position for a specified period when the employee is expected to return to his or her
regular duties at the end of the assignment.”

Our review of the current DOI Departmental Manual found that there was no guidance
regarding the detail of employees. We found that the portion of the Departmental




                                            92
Manual that discussed details (370 DM 300) was archived and that this section of the
manual remains to be updated.

The Chief, Human Resources Branch, MMS, explained that a detail was a temporary
assignment and that employees who were placed on a detail still occupied their
permanent position. He said employees might generally be placed on multiple 120-day
details, for up to 1 year, but MMS had the discretion to continue a detail beyond a year if
desired. The Chief said federal personnel regulations allowed managers to place
employees on detail assignments at their discretion. He added that in his professional
opinion, the actions to place Arnold, Little, and Morris on detail assignments complied
with regulations and no laws or regulations were violated.

In response to the allegation that the detail assignments were a prohibited personnel
practice, a Human Resources Specialist, Human Resources Branch, MMS, said
management had the authority to determine employees’ work assignments and had the
discretion to place employees on a detail. He said a detail was a temporary assignment
that had no impact on salary or grade. The Human Resources Specialist added that there
was no prohibition on placing an employee in a position where he or she had no
experience.

MMS Director R.M. “Johnnie” Burton (now retired), Deputy Director Walter
Cruickshank, Associate Director Lucy Querques Denett, Deputy Associate Director
Deborah Gibbs Tschudy, the Compliance and Asset Management Director (now retired),
and Offshore Compliance and Asset Management Manager Lonnie Kimball all stated that
the auditors’ detail assignments were necessary to avoid conflict of interest and
independence issues. All denied the allegations that the details were acts of reprisal.

Deborah Gibbs Tschudy said placing Arnold, Little, and Morris on detail to other duties
was not an act of retaliation. She referenced sections of the MMS Audit Manual and the
GAGAS that stated that auditors should be free of impairments that affect their
independence. She also referenced Section 3.09 of the GAGAS that stated that if an
auditor had an impairment to independence, it needed to be resolved in a timely manner.
Consequently, she said that if MMS had not “walled off” the auditors to eliminate the
independence issue created by the lawsuits, MMS could have been cited for violating the
GAGAS during an audit peer review.

Denett said MMS placed the auditors on detail assignments because MMS had to isolate
them from working on anything related to the companies they were suing. She noted that
the GAGAS required auditors to be independent, and, by filing the qui tam lawsuits, the
auditors had lost that independence.

Denett related that MMS considered placing Little and Morris on a detail to the DOI
Office of the Special Trustee but found that there was a problem involving security
clearances. As a result, Denett said they eventually placed the auditors at the BLM office
in Moore, OK, which was within the commuting distance of their permanent duty station
in Oklahoma City, OK. She said Arnold, who only filed a lawsuit against Shell, was



                                            93
recused from working on matters involving Shell and assigned to work on geothermal
issues.

The former Compliance and Asset Management Director said that after learning about the
lawsuits, management decided to detail Arnold, Little, and Morris because the lawsuits
created a potential conflict of interest. He stated that he made the decision after
consulting with Kimball, Denett, and possibly Tschudy.

The Compliance and Asset Management Director also said MMS considered placing
Little and Morris on a detail at the Office of the Special Trustee but decided against the
idea because of conflict of interest concerns. He said the Office of the Special Trustee
did not have work that was unrelated to oil and gas. When questioned, he said the
decision not to place Little and Morris on a detail at the Office of the Special Trustee was
unrelated to any issues with security clearances.

He summed up the decision to detail Little and Morris to BLM by saying, “We found a
place for them that was reasonably close to the type of work that they were doing; it was
outside of oil and gas; we felt like they could be productively used, and that’s where I left
it with Lonnie [Kimball].”

Kimball stated that MRM terminated Little and Morris’s access to MMS computer
systems so they would not have access to data related to the companies they were suing.
Kimball, when asked, said retaliation did not enter his mind when he was trying to find
positions for Arnold, Little, and Morris.

Kimball said Arnold’s lawsuit only pertained to one company (Shell), so he was required
to sign a statement in which he agreed to recuse himself from working on anything
related to Shell. He added that because Arnold’s complaint only involved Shell, he was
detailed to Solids and Geothermal to perform actual audits. Note: Shell was not involved
in solids or geothermal production.

According to Kimball, MMS first tried to assign Little and Morris to the Office of the
Special Trustee but could not because the auditors’ security clearance level was not
acceptable for the work they would perform. Kimball said MMS subsequently focused
on detailing Little and Morris to BLM because the office was in the Oklahoma City, OK,
area. He said a Field Station Manager, BLM, Moore, OK, said he could use help on a
project involving orphaned and abandoned wells. Kimball said, “And so BLM worked
out real well.”

When questioned regarding Morris’s allegation that his detail was a prohibited personnel
practice, Kimball opined that Morris was perhaps confusing a “voluntary detail,” in
which MMS would publish a request for volunteers for a temporary assignment, and a
directed or involuntary detail. In reference to Morris’s detail, Kimball said, “I didn’t
come to him and ask him where did he want to go. We just assigned him to BLM.”




                                             94
Our review of the GAGAS, 2003 Revision, disclosed the following in Chapter 3, General
Standards:

    •   “In all matters relating to the audit work, the audit organization and the
        individual auditor, whether government or public, should be free both in
        fact and appearance from personal, external, and organizational
        impairments to independence.”
    •   “Examples of personal impairments of individual auditors
        include…financial interest that is direct, or is significant/material though
        indirect, in the audited entity or program.”
    •   “When the audit organization identifies a personal impairment to
        independence, the impairment needs to be resolved in a timely manner.”

An Administrative Officer, BLM Area Office, Albuquerque, NM, said a BLM Field
Station Manager assigned him in March 2006 to assist in placing Little and Morris on a
detail at his office. He said the Field Station Manager told him Little and Morris were
auditors being detailed to work with BLM and they needed position descriptions. The
Administrative Officer said he suggested that the Field Station Manager create a list of
unclassified duties for Little and Morris. He explained that the BLM auditor position
description was not applicable to Little and Morris because they were at a higher pay
grade than BLM auditors.

A review of an e-mail string beginning on March 13, 2006, with an e-mail from the
Director, Compliance and Asset Management, and ending with an e-mail from the Field
Station Manager on March 15, 2006, disclosed the following:

   •    The MRM Compliance and Asset Management Director advised the BLM Field
        Station Manager that Little had been informed that he would be on detail to BLM
        to work on the abandoned/orphan well program for a minimum of 120 days. He
        stated, “I believe Mr. Little will be able to provide you excellent assistance in this
        program.”
   •    The MRM Compliance and Asset Management Director requested that MMS
        human resources personnel contact the BLM Field Station Manager to “discuss
        the paperwork and the position description.”
   •    The BLM Field Station Manager responded to the MMS Human Resources
        Branch and stated, “[I]n talking with [the Administrative Officer] about a Position
        description, we came to the conclusion that we would create a list of unclassified
        duties. We don’t really have a [position description] to cover the project that Mr.
        Little will be assigned to work on.”

On March 23, 2006, the BLM Field Station Manager sent an e-mail to the BLM
Administrative Officer in which he said, “I jut [sic] got a call from Lonnie Kimball with
MMS asking if we could use another person on our [Orphaned Temporarily Abandoned,
Shut-In wells] project. Their name [sic] is Lanis Morris and will be reporting Monday, 3-
27. We will use the same unclassified duties.”



                                              95
The BLM Administrative Officer said that although he processed the Notification of
Personnel Action (SF-50) forms for the initial details, he was reluctant to sign them
because he believed the protocol was for the employee’s permanent employer, in this
case MMS, to process the paperwork since it retained the employee’s personnel records.

The BLM Administrative Officer recalled that the BLM Field Station Manager asked him
to process extensions for the details of Little and Morris in approximately July 2006. The
Administrative Officer said he contacted the MMS Human Resources Specialist and
“insisted” that MMS process the extension. According to the Administrative Officer, the
Human Resources Specialist concurred and agreed to process the detail extensions.

The BLM Administrative Officer said that in July 2006, Little and Morris approached
him at the BLM office in Moore, OK. He said Morris verbally attacked him when
requesting a hard copy of the initial Request for Personnel Action (SF-52) completed for
the detail. He said he explained to Morris that there was no hard copy and that it was an
electronic process. The Administrative Officer said Morris began “ranting” and stated
that he wanted to know who generated his initial SF-52. According to the Administrative
Officer, Morris was trying to “twist [his] words” and “bully” him into saying that the
processing of the details was improper and illegal. He said he told Morris that the detail
assignment was not improper or illegal and that it really did not matter who completed
the paperwork. According to the Administrative Officer, Morris said he was going to file
a complaint and that the Administrative Officer would be taken to court.

When questioned, the BLM Administrative Officer said he never told Morris or Little
that he disagreed with the details, that he should not have signed the documents for the
details because it was dishonest or illegal, or that there was no work for them at BLM.
The Administrative Officer said he told Little and Morris that he refused to process the
detail extensions because he felt the “proper” process was for MMS to do it because
MMS had the master file. He said that while the details were proper, the correct protocol
was for MMS to process the actions.

A Senior Human Resources Specialist, Human Resources Branch, MMS, said he
contacted the Administrative Officer after he learned about Morris’s allegation that the
BLM Administrative Officer refused to process personnel actions for Little and Morris
and that the Administrative Officer believed the details were illegal or improper.
According to the Senior Human Resources Specialist, when he asked the Administrative
Officer about the allegation, the Administrative Officer responded, “[A]bsolutely not,”
and said he did not believe the details were illegal or improper. The Senior Human
Resources Specialist said the Administrative Officer also told him that it was difficult for
BLM to process the personnel actions because BLM did not have access to the MMS
personnel system. Subsequently, the Senior Human Resources Specialist said he agreed
to process extensions for the details.

In regard to the supervision of Little and Morris at BLM, our search of the DOI
Departmental Manual and the U.S. Office of Personnel Management regulations




                                             96
disclosed no policy or guidance pertaining to whether an employee at a lower grade could
provide direction, guidance, or tasks to higher-graded employees.

When we informed the Senior Human Resources Specialist, Human Resources Branch,
MMS, that Little and Morris had complained that they were being supervised by a GS-5-
level BLM employee, he replied that such an arrangement was “odd” but was legal.
Note: Little is a GS-13-level employee and Morris is a GS-12.

The BLM Field Station Manager (now retired), Oklahoma Field Station, BLM, said he
supervised Little and Morris while they were detailed to BLM. He said Little and Morris
were tasked with working on the BLM orphaned, temporarily abandoned, and shut-in
wells project. He added that Little and Morris had been working under the direction of a
GS-5, who was the project leader. The Field Station Manager explained that while he
was their official supervisor, the GS-5-level employee provided daily guidance and
direction on project needs.

Kimball, when informed that Morris had complained that he was working for a GS-5-
level employee at BLM, responded that he did not know specifically what Little and
Morris were doing at BLM other than that they were working on a project involving
abandoned wells. He said he was aware that the Field Station Manager was supervising
Little and Morris while they were working at BLM.

When we advised Kimball that the BLM project leader for the orphaned and abandoned
well project was a GS-5 and that Little and Morris were given day-to-day direction by
that individual, Kimball responded that the arrangement was unusual but acceptable. He
explained that sometimes employees received assignments that were below their grade
level. He said, “It’s part of a job that you have to do, regardless of what the task is and
regardless of who you get the assignments from.” Kimball added that Little and Morris
were on temporary details and that their details to BLM were not permanent.

In regard to Little and Morris’s work assignments at BLM, the Field Station Manager
said he informed Kimball that Little and Morris would be working on the orphaned,
temporarily abandoned, and shut-in wells project. He said he created a list of unclassified
duties for Little and Morris and provided copies to them approximately 1 week after they
began the detail in March 2006. He stated that Little and Morris did not raise any
questions about their duties.

According to the BLM Field Station Manager, Little and Morris’s duties in support of the
project included researching data and writing a proposal for project funding, reviewing
and analyzing well data, preparing reports, organizing correspondence, planning and
organizing the spotting of well locations and digital picture logs, evaluating proposals,
tracking progress of projects, and monitoring and reporting on the status and progress of
work, as well as other planning and coordinating with management and team members.

On November 21, 2006, the Field Station Manager e-mailed a written summary of Little
and Morris’s performance while detailed at BLM to Kimball. In that e-mail, the Field



                                             97
Station Manager said Little and Morris were assigned to work on the “Orphanied [sic]
Temporarily Abandoned, Shut-In (OTASI) project” and that the work they accomplished
“was very good.” He added that they “demonstrated their ability to produce a very good
product.”

In regard to Little and Morris’s details to Solids and Geothermal, a Senior Human
Resources Specialist, Human Resources Branch, MMS, Lakewood, CO, said the two
were detailed again after their details to BLM expired on December 31, 2006. He stated
that the details to Solids and Geothermal were within management’s authority to assign
employees to other duties. The Senior Human Resources Specialist said he believed
MMS moved Little and Morris to this area because BLM did not want to continue Little
and Morris’s details at BLM. He opined that MMS had few options for placing Little and
Morris in positions that gave them meaningful work due to the lawsuits they filed against
oil companies.

The Chief, Human Resources Branch, MMS, Lakewood, CO, said the most recent
personnel action detailing Little and Morris from their permanent auditor assignments to
program analyst positions was legal and complied with personnel regulations. The Chief
reiterated that Little and Morris were only on temporary assignments and retained their
permanent auditor positions. He opined that details could be an experience-building
opportunity for employees.

The Program Director, Compliance and Asset Management, MRM, said that in December
2006, he and Kimball discussed where to assign Little and Morris after expiration of the
detail assignments to BLM on December 31, 2006. He said they considered the fact that
MRM had to comply with the GAGAS, which required that MRM ensured its auditors
were not impaired by a conflict of interest.

The Program Director stated that because Little and Morris had a potential conflict of
interest with their audit duties, resulting from their financial interests in the lawsuits,
management decided that the two would be detailed to MRM Solids and Geothermal
Compliance and Asset Management as program analysts.

The Program Director said Little was assigned to work on a Solids and Geothermal
handbook and Morris was assigned to work on Solids and Geothermal training materials.
He explained that the Government Accountability Office had placed a deadline on MMS
to complete certain audits and to update handbooks and training materials. He added that
he worked with the MMS Human Resources Branch to ensure that Little’s position
description reflected the work of a GS-13 and stated that the handbook project required a
higher skill level than the training materials assignment given to Morris.

A Manager, Solids and Geothermal Compliance and Asset Management, MRM, said
Little and Morris were assigned to work on a geothermal handbook and geothermal
training material for oil and gas companies. He said he assigned Little and Morris to
work under a Supervisory Geologist (GS-13), Solids and Geothermal Compliance and
Asset Management, MRM, who would perform their evaluations for the Solids and



                                              98
Geothermal detail. According to the Manager, the Supervisory Geologist coordinated
with the Human Resources Branch to ensure position descriptions and personnel actions
were generated for the detail assignments. The Manager stated that Little and Morris
were assigned as program analysts for their detail to Solids and Geothermal.

Kimball stated that when Little and Morris’s details at BLM ended on December 31,
2006, MRM management decided that Little and Morris would be detailed to Solids and
Geothermal (even though they were officially transferred to auditor positions at Indian
Compliance and Asset Management as part of a reorganization in December 2006).
Kimball said the detail assignments to Solids and Geothermal were the positions
management thought Little and Morris would “best be suited for” until they could “find a
more permanent spot for them.” Kimball explained that because Little and Morris’s qui
tam lawsuit involved so many companies, he believed their independence in doing Indian
audit work would be difficult to maintain.

When told that Morris alleged that his assignment to Solids and Geothermal to write a
manual was retaliatory because he had no experience in that area and feared being set up
for failure, Kimball responded, “It’s not retaliatory. I don’t think he’s being set up for
failure.” Kimball added, “Can they learn it? Yes. Can they succeed? Yes. At the same
level that they think they should be because of their previous years’ cash awards? Maybe
not. But again, I don’t think it’s retaliatory.”

In response to Morris’s allegation that the detail to Solids and Geothermal had
“constructively fired” him and removed him from his lifelong profession as an auditor,
Kimball said, “And that’s why I think he can still do a good job, because he’s gotten a
number of years of auditing experience. It may not be in Geothermal, but it’s just another
natural resource. And I’m sure there’s some guidance that has already been written, and
it’s just updating the guidance.” Kimball added that Little and Morris would still be
attending and participating in continuing education as auditors while on the detail to
Solids and Geothermal.

A Program Manager, Indian Compliance and Asset Management, MRM, said Little and
Morris completed their detail assignments at Solids and Geothermal and, effective April
30, 2007, were returned to Indian Compliance and Asset Management to work as
auditors. He explained that during discussions with the Program Director, Compliance
and Asset Management, he told him that he could find audit work for Little and Morris at
Indian Compliance and Asset Management that was not related to the oil companies
named in their lawsuits. The Program Manager, Indian Compliance and Asset
Management, said he would be able to direct work for Little and Morris pertaining only
to small oil and gas companies who were not named in their lawsuits.

Subsequent to our interview with the Program Manager, Indian Compliance and Asset
Management, a Supervisory Minerals Revenue Specialist, MRM, provided copies of
Little and Morris’s recusal letters, dated May 9, 2007, via fax.




                                            99
Regarding Arnold’s detail assignment to a non-supervisory position at Solids and
Geothermal, the Chief, Human Resources Branch, MMS, said Arnold’s detail from a
supervisory position to a non-supervisory position complied with federal personnel
requirements. He said there was no prohibition from placing supervisory employees in a
non-supervisory detail.

A Senior Human Resources Specialist, Human Resources Branch, MMS, said detailing
Arnold to a non-supervisory position was allowed and opined that Arnold suffered no
harm because he received the same pay and officially remained in his position of record.

Kimball, in response to questions about whether detailing Arnold to a non-supervisory
position was retaliatory, said MMS was attempting to place Arnold in a position where he
could be productive within the agency. Kimball said he did not believe placing Arnold
into a non-supervisory position was harmful and added, “[Arnold] kept his same pay, less
responsibility.” He said Arnold still retained his original position and the detail was
temporary. When asked if detail assignments were harmful in any way, Kimball said, “I
don’t think they are.”

Allegation No. 3: MMS allegedly closed the Oklahoma City Offshore Compliance and
Asset Management office as retaliation for the qui tam lawsuits.

Information obtained during our investigation revealed that the Oklahoma City, OK,
Offshore Compliance and Asset Management office was part of a reorganization planned
prior to the filing of the qui tam lawsuits by Arnold, Little, and Morris.

When interviewed, the Program Director, Compliance and Asset Management, MRM,
stated that the transition of most of the Offshore Compliance and Asset Management staff
to the Indian Compliance and Asset Management office had been planned for
approximately 1 year. He said his predecessor (now retired) made the decision. The
Program Director said that in his former capacity as the Indian Compliance and Asset
Management Manager, he was aggressive in ensuring that the office received additional
resources. He said he played a key role in the decision to reorganize the Offshore office
and transition some of the staff to Indian Compliance and Asset Management. He
explained that Indian Compliance and Asset Management already managed a team in
Oklahoma City, OK, which made the transition easier. The Program Director added that
a few Oklahoma City, OK, auditors were not going to be transitioned and were going to
remain assigned to the Offshore office. He said they were going to be supervised by
Kimball to continue to work on Jicarilla Apache Tribe Compliance and Asset
Management work.

Kimball disputed the claim that Offshore Compliance and Asset Management was being
closed. He said the Offshore office was not being closed but rather the function of the
personnel in that location was being transferred or realigned to work for Indian
Compliance and Asset Management. Kimball explained that management was reviewing
the workload and recognized that many oil companies were located in Houston, TX.




                                           100
Kimball said the former Compliance and Asset Management Director began planning a
reorganization of the Compliance and Asset Management offices before MMS was aware
of the qui tam lawsuits filed by Arnold, Little, and Morris. He said the plan was to
redirect Offshore operations to Houston, TX, and Lakewood, CO. Kimball described the
reorganization as a mission adjustment that the MMS Associate Director for
Administration and Budget had approved. He noted that no employees had lost their jobs
due to the reorganization.

Subsequent to the above interview, Kimball provided a copy of a presentation from April
2006. A review of the presentation disclosed that, as part of an effort to realign
Compliance and Asset Management staffing during FY 2006, MMS planned to do the
following:

    •   Redirect Offshore Compliance and Asset Management resources to federal
        Onshore Compliance and Asset Management.
    •   Consolidate most Offshore Compliance and Asset Management resources in
        Houston, TX.
    •   Consolidate Oklahoma staff under a single management structure.

Our investigation found an Organization Change Clearance Record, including current and
proposed changes for the reorganization of Offshore Compliance and Asset Management
resources at Oklahoma City, OK. The summary block of the document stated the
following:

        Currently, MMS is managing approximately 80% and 60% of offshore oil
        and gas royalties, respectively, through the RIK program. The movement
        of offshore oil and gas production from in value (cash) to the RIK
        program results in less Offshore Compliance and Asset Management
        (CAM) resources required to perform audits and compliance reviews as
        well as less litigation risks. To address this shift in resources, the CAM is
        reorganizing by moving Offshore CAM resources in Oklahoma City to
        Indian Oil and Gas CAM in Oklahoma City.

Allegation No. 4: Arnold was allegedly treated differently from other employees because
he was required to complete his audit work at Solids and Geothermal Compliance and
Asset Management after being reassigned to Indian Compliance and Asset Management.
Allegedly, no other employees who were transferred to that office were required to
complete their prior assignments after they were moved.

In response to being informed about Arnold’s complaint of being treated differently or
retaliated against because he was required to complete an audit at Solids and Geothermal
after being transferred to Indian Compliance and Asset Management, Kimball responded,
“That’s not exactly true.” Kimball said Arnold was asked to follow up on the audited
company’s response to the audit Issue Letter he (Arnold) had drafted. Kimball said
Arnold was directed to create a draft Order, if needed, or an Order to Pay, and then to
complete the final audit report.


                                             101
Kimball said Arnold’s Solids and Geothermal audit was, at that time, in the “resolution
stage.” He said, “There’s no more work currently being done at the field level. It’s at a
higher level.” Kimball explained that MRM would incur a lot of wasted time if the audit
was reassigned at that stage because someone would have to learn the details of the audit.
He said it was easier to have Arnold, who conducted the audit, complete the remaining
work. He added that the other Offshore Compliance and Asset Management employees
reassigned to Indian Compliance and Asset Management had gradually completed all of
their work to simplify the transition. Note: Arnold, Little, Morris, a Supervisory
Auditor, two Auditors, and a former Secretary were reassigned from Offshore
Compliance and Asset Management to Indian Compliance and Asset Management on
December 24, 2006.

A Program Manager, Indian Compliance and Asset Management, MRM, recalled a
discussion in which Kimball said he was decreasing assignments to the Offshore
personnel being reassigned to Indian Compliance and Asset Management. He said this
would help make a smoother transition with little, if any, lingering work. He said
Kimball mentioned that Arnold might be needed to complete some remaining work on
the audit he was conducting at Solids and Geothermal. He said he told Kimball he had no
objection to allowing Arnold to complete the audit.

The Program Manager, Indian Compliance and Asset Management, said he later made an
agreement with a Manager, Solids and Geothermal Compliance and Asset Management,
MRM, to allow Arnold to conduct tasks related to the completion of the Solids and
Geothermal audit. He said allowing Arnold to finish the audit was “the logical thing to
do” and made sense. He provided the interviewing agents with an e-mail that he sent to
the Manager on December 20, 2006, in which he advised the Manager that he would
make Arnold available to complete the audit.

The Program Manager, Indian Compliance and Asset Management, said he also allowed
the former Secretary, Offshore Compliance and Asset Management, MRM, to continue
working on Offshore Compliance and Asset Management projects for Kimball involving
preparation of files for storage at the federal records center. He did not recall if any of
the other former Offshore personnel had unfinished Offshore work. He added that he
would have allowed any of the Offshore personnel to complete unfinished assignments.

When asked, the Program Manager, Indian Compliance and Asset Management, said
Arnold had been, and would be, given all of the time he needed to complete the Solids
and Geothermal audit. He said he believed the field work for Arnold’s audit had been
completed and all that remained was completion of some work papers or reports. He
opined that this would not be very time consuming because MRM used templates for
many of its work papers and reports. He commented that Arnold was free to work on the
audit whenever he wanted to and did not have to ask his permission before doing so.

According to the Program Manager, Indian Compliance and Asset Management, Arnold
was not being asked to do anything more than other Indian Compliance and Asset



                                            102
Management personnel. He said he believed in balancing the workload and that all of the
other Indian Compliance and Asset Management supervisors had been assigned audits
and/or other duties beyond their supervisory responsibilities. He also stated that two
MRM auditors and an Auditor from Indian Compliance and Asset Management were
directed to complete work assignments for the team led by another Indian Compliance
and Asset Management Supervisor, even though they had been reassigned to Arnold’s
team.

Allegation No. 5: In October 2006, Kimball allegedly asked Arnold whether he wanted
to be assigned to Solids and Geothermal as a senior auditor or to Indian Compliance and
Asset Management as a supervisor or senior auditor. Arnold allegedly requested to be
assigned as a senior auditor with Solids and Geothermal, but Kimball assigned him to
Indian Compliance and Asset Management as a supervisor without advanced notice.

Kimball, in response to questioning regarding the allegation about Arnold’s reassignment
to Indian Compliance and Asset Management, said Arnold initially responded that he
wanted to be treated the same as his peer, an Offshore Supervisory Auditor, when they
were eventually reassigned to Indian Compliance and Asset Management. According to
Kimball, he responded, “Joel, that’s not my question I’m asking you.” Kimball said
Arnold then commented about a senior staff position similar to the one held by a Senior
Auditor at Solids and Geothermal. Kimball said his response was the following: “Joel,
I’m asking you when I move you to Indian CAM in this reorganization, do you want to
become a supervisory auditor, or do you want to become a staff person?” Arnold,
according to Kimball, responded that he wanted to become a supervisory auditor.

Subsequent to the interview, Kimball provided copies of e-mail messages about Arnold’s
assignment preference. A review of the e-mail messages disclosed the following:

   •   On October 18, 2006, at 6:16 a.m., Arnold sent an e-mail to Kimball that
       stated, “Lonnie, If given the choice of either being a Supervisory Auditor
       with [Indian Compliance and Asset Management] in [Oklahoma City] or a
       Senior auditor (at the same grade and pay as I am now and located in
       OKC) with [Solids and Geothermal Compliance and Asset Management],
       I would prefer a position with S&G CAM.”

   •   On October 18, 2006, at 2:53 p.m., Kimball responded to Arnold via e-
       mail and stated the following:

       Joel, this is to confirm conversations we had on Monday, 10/16 and
       Tuesday, 10/17. In the reorganization, moving OffCAM employees in
       OKC to IndCAM in OKC (except three employees), I asked for your
       preference of work in IndCAM – as a supervisory auditor or a staff
       auditor. Your answer was that you preferred a supervisory auditor. I did
       not guarantee that management would place [you] in your preference, but
       that we would try to accommodate your desire.




                                          103
       In our conversations, you also expressed a desire because of the needs of
       the manager for the Solids and Geothermal CAM to continue to work as a
       staff auditor in the Solids and Geothermal CAM. When I asked your
       preference over a supervisory auditor in IndCAM and a staff auditor in the
       Solids and Geothermal CAM, you would choose the Solids and
       Geothermal CAM.

       It is understood that in any of the three positions your grade level and pay
       for OKC will not change.

   •   On October 18, 2006, at 3:22 p.m., Arnold responded to Kimball via e-
       mail and stated, “OK, except that it’s my understanding that with Solids
       and Geothermal CAM my title would be the same as a Senior Auditor
       rather than Staff Auditor. Don’t know if that makes any difference. Also,
       OKC would remain my as [sic] my duty station.”

The Program Director, Compliance and Asset Management, recalled that Kimball asked
Arnold and a Supervisory Auditor, who were both Offshore supervisors, about their
preference for assignment when they were reassigned to Indian Compliance and Asset
Management. He said he understood that Arnold said he would prefer to remain a
supervisor but he also liked working at Solids and Geothermal. He said the Supervisory
Auditor preferred a staff auditor position at Indian Compliance and Asset Management.
According to the Program Director, management told Arnold and the Supervisory
Auditor that it would take their preferences into consideration but did not guarantee that
they would be assigned to their preference. He said Arnold was selected for the Indian
Compliance and Asset Management supervisory position based on his indicated
preference and the Supervisory Auditor’s stated preference not to continue in a
supervisory role.

Allegation No. 6: Arnold, in his new assignment at Indian Compliance and Asset
Management, would be supervising an Auditor for Indian Compliance and Asset
Management, MRM, an employee that Arnold had previously supervised and had
complained to Kimball about because of the Auditor’s conduct and attendance problems.
Kimball allegedly ignored Arnold’s complaints about the Auditor.

The Program Manager, Indian Compliance and Asset Management, MRM, recalled that
in approximately August 2006, he learned that some of the Oklahoma City, OK, Offshore
staff would be transferring to Indian Compliance and Asset Management. He said a
Supervisory Auditor, Offshore Compliance and Asset Management, and two other
Offshore auditors were going to be transferred, along with the Offshore Secretary at the
time. According to the Program Manager, he decided that the Supervisory Auditor at the
Offshore office would supervise the two other Offshore auditors once they were
transferred to Indian Compliance and Asset Management.

The Program Manager, Indian Compliance and Asset Management, said he believed the
Supervisory Auditor should have had more than two auditors assigned to his team, so he



                                            104
asked the Supervisory Auditor and an Indian Compliance and Asset Management
Supervisory Minerals Revenue Specialist to name three auditors who would be
reassigned from the Indian Compliance and Asset Management office to the Supervisory
Auditor’s team. The Program Manager explained that by reassigning three auditors from
the Supervisory Minerals Revenue Specialist to the Supervisory Auditor, each of his
supervisors would have a team of five auditors. According to the Program Manager, the
Supervisory Auditor and the Supervisory Minerals Revenue Specialist decided that three
auditors would be transferred from Indian Compliance and Asset Management’s team to
Offshore Compliance and Asset Management’s team.

The Program Manager, Indian Compliance and Asset Management, stated that during a
December 20, 2006 telephone call with the Program Director, Compliance and Asset
Management, and Kimball, he learned that Arnold would be assigned to Indian
Compliance and Asset Management as a supervisory auditor. He said he was further
informed that although the Supervisory Auditor would be reassigned to Indian
Compliance and Asset Management, he would not be assigned to a supervisory position.
The Program Manager, Indian Compliance and Asset Management, said that based upon
this new information, he decided to assign Arnold to the team that was initially going to
be supervised by the Supervisory Auditor.

The Program Manager, Indian Compliance and Asset Management, said that after he had
assigned the team to Arnold, Arnold informed him that he had spoken with Kimball in
the past about [Exemptions (b)(6) and (b)(7)(C)]. He said Arnold did not request that
[Exemptions (b)(6) and (b)(7)(C)] be transferred from his team and [Exemptions (b)(6)
and (b)(7)(C)] did not complain about being assigned to Arnold’s team.

When questioned about the assignment of [Exemption (b)(6) and (b)(7)(C)] to Arnold’s
team, Kimball said, “I had no involvement in the assignment of the individuals at [Indian
Compliance and Asset Management]. That was done by [the Program Manager, Indian
Compliance and Asset Management]. I don’t know his reasoning.”

Kimball also said, “When [Exemptions (b)(6) and (b)(7)(C)] was assigned to Joel
[Arnold], Joel did tell me he had [Exemptions (b)(6) and (b)(7)(C)].” Kimball claimed
that he told Arnold he would support him, but Arnold never acted. He recalled that
another Auditor also complained about [Exemptions (b)(6) and (b)(7)(C)] but, like
Arnold, took no actions to resolve the problem. Kimball said he believed [Exemption
(b)(6) and (b)(7)(C)].

Allegation No. 7: MMS allegedly failed to place Arnold on performance standards while
on his detail assignment, precluding him from being rated for his performance at the
detail location.

Our investigation determined that Arnold was detailed to MMS Solids and Geothermal as
an auditor from March 2006 through December 2006. Little and Morris were detailed to
unclassified duties at BLM from March 2006 through December 2006.




                                           105
Our review of the DOI Departmental Manual, Part 370, Departmental Personnel
Program, Chapter 335, Promotion and Internal Placement, and Chapter 430, Performance
Management System, disclosed the following:

   •   Competitive procedures do not apply to “Details made in 120 day increments up
       to one year to unclassified duties.” (370 DM 335 3B[10])
   •   Rating officials are responsible for “documenting the elements and performance
       standards in a performance plan within 60 days of the beginning of … the
       assignment of an employee to a detail or temporary promotion scheduled to
       exceed 120 days….” (370 DM 430 1.5E[1])
   •   “If the rating official does not place an employee under standards for at least 90
       days during a rating period, the employee will not be eligible for a rating. A
       presumptive rating may not be assigned.” (370 DM 430 1.6G[2][g])

The Chief, Human Resources Branch, MMS, explained that if a detail exceeded 120
days, performance standards should be created for an employee so he/she could be rated
for the work performed while on the detail. He added that if the employee was not placed
on performance standards while on the detail, the employee could not be rated for the
work performed during the assignment.

The Chief said federal personnel policy allowed detail assignments to unclassified duties.
He commented that an assignment to unclassified duties was not punitive and it was not
hurtful to an employee’s career because the employee continued to receive credit for
occupying his or her permanent position. He added that details could be beneficial to
employees because details allowed employees to gain new experience and skills.

A Senior Human Resources Specialist, Human Resources Branch, MMS, stated, “[From
a Human Resources] perspective, we just don’t like to see folks detailed to unclassified
duties for a really lengthy period of time, because it does cause complications with
standards and things of that nature.” He said he did not believe anyone at the Human
Resources Branch advised managers that not placing Arnold, Little, and Morris under
standards would have an effect on their evaluations.

Another Human Resources Specialist, Human Resources Branch, MMS, said that in his
experience, it was relatively common to place employees in unclassified positions when
they were assigned to details. He explained that there was no suitable classified position
when employees, especially GS-12 and GS-13 auditors, were detailed to an organization
such as BLM.

When interviewed, the Chief, Human Resources Branch, MMS, and a Senior Human
Resources Specialist said Little and Morris were assigned to unclassified duties while on
detail to BLM, and they should have been given unique performance standards for the
assignment once it exceeded 120 days. The Senior Human Resources Specialist said it
would be difficult to provide a rating for Little and Morris unless performance standards
were created because there was no position description for unclassified duties.




                                            106
According to the Chief and the Senior Human Resources Specialist, Little and Morris’s
BLM supervisor was responsible for placing Little and Morris on performance standards
while they were at BLM.

When questioned, the Senior Human Resources Specialist explained that the difference
between the description of duties given to Little and Morris by BLM and performance
standards was that “…the duties are kind of what you do.” He said, “The standard is how
well you do it, how well you need to do it.”

When interviewed, the former Compliance and Asset Management Director said he
believed the auditor performance standards were broad enough to cover assignments such
as Little and Morris’s details to BLM. He did not recall any discussions or consideration
regarding the effect of not placing Little and Morris under standards or the effect the
detail assignments would have on their performance appraisals or potential for awards.

A BLM Field Station Manager recalled that he contacted the BLM Administrative
Officer to request assistance with personnel issues surrounding Little and Morris’s detail
assignment to BLM. According to the BLM Field Station Manager, the Administrative
Officer asked him to produce a list of unclassified duties describing the work for the
detail in lieu of preparing a position description.

When interviewed, the Administrative Officer said he suggested that the Field Station
Manager create a list of unclassified duties for Little and Morris because they held higher
pay grades than BLM auditors.

The Field Station Manager (who was the Acting Supervisor for the Oklahoma City
office) said he did not place Little and Morris under performance standards and he did
not rate them during the detail. He said he did not believe it was necessary for him to
complete a performance rating for Little and Morris because the detail was only a
temporary assignment and Kimball presumably remained their rating official.

When interviewed, Kimball said Little and Morris were placed under unclassified duties
because BLM did not have a position description applicable to their assignment. He said
he believed it was BLM’s responsibility to put Little and Morris on performance
standards.

When asked whether the decision to assign Little and Morris to a detail with unclassified
duties was retaliatory, Kimball said, “I don’t think it’s retaliatory. It’s a mistake on our
part for not giving them the duties … putting them in a classified position so that we
could then have standards. But you can do that. The personnel [regulations] allow you to
detail someone to an unclassified position.”

In regard to Little and Morris’s performance appraisals while at Solids and Geothermal, a
Manager, Solids and Geothermal Compliance and Asset Management, MRM, said a
Supervisory Geologist, MRM, coordinated with the Human Resources Branch to ensure




                                            107
position descriptions and personnel actions were generated for Little and Morris’s detail
assignments.

Regarding Arnold’s detail to Solids and Geothermal, the Chief, Human Resources
Branch, MMS, said Arnold remained under his permanent position description because,
in his opinion, the description was generic enough to use for Arnold’s detail assignment
to Solids and Geothermal as an auditor.

The Senior Human Resources Specialist commented that when a Supervisory Auditor,
MRM, Offshore Compliance and Asset Management, was promoted on March 6, 2006,
the Supervisory Auditor could have used the standards that Arnold was placed under
earlier in the rating period since the Supervisory Auditor became Arnold’s supervisor part
way through the rating period. The Senior Human Resources Specialist noted that
Arnold was placed on detail almost immediately after the Supervisory Auditor was
promoted so he would have had little time to do anything other than inherit the standards
already in place.

When interviewed, the Supervisory Auditor said that after he was promoted, Kimball told
him Arnold would not be under his supervision, so he believed there was no reason for
him to place Arnold under performance standards.

Kimball, when informed about the complaint that the Supervisory Auditor never placed
Arnold on performance standards, said the Supervisory Auditor was promoted in March
2006 and Arnold was placed on detail later that month; therefore, the Supervisory
Auditor had very little time to meet with Arnold.

A Supervisory Program Analyst, Compliance and Asset Management, MRM, said he
served as the acting manager for Solids and Geothermal from approximately March 2006
to late July 2006 or early August 2006. He said he was not involved in the arrangements
or discussions involving the decision to detail Arnold to Solids and Geothermal. He said
he presumed that the previous manager and the Compliance and Asset Management
Director worked out the details for Arnold’s assignment.

The Supervisory Program Analyst said he did not place Arnold on performance standards
because he believed the detail was only going to be for a short time. In about July 2006,
he said he recommended that the Compliance and Asset Management Director extend
Arnold’s detail because Arnold was working on a mandatory audit that had to be
finished. He said it did not occur to him that Arnold should have been placed on
performance standards when his detail was extended beyond the initial period. He
acknowledged that he should have placed Arnold on performance standards but said he
was overwhelmed performing two jobs and simply forgot to do it. The Supervisory
Program Analyst stated that the failure to place Arnold on performance standards was not
an act of reprisal or retaliation.

The Manager, Solids and Geothermal, said he began supervising Arnold on [Exemption
(b)(6)], when he assumed the duties of his position as Manager, Solids and Geothermal



                                           108
Compliance and Asset Management, MRM. He related that Arnold was under the
management of the Supervisory Program Analyst, Compliance and Asset Management,
and another Manager in Solids and Geothermal Compliance and Asset Management prior
to that date. He said the Manager in Solids and Geothermal Compliance and Asset
Management left MRM in March 2006, and the Supervisory Program Analyst,
Compliance and Asset Management, became acting Manager for Solids and Geothermal
at that time. He said he did not know what performance standards Arnold was placed
under while he was detailed to Solids and Geothermal and said he believed it would have
been Kimball’s responsibility to do so.

When asked about Arnold’s detail, Kimball said, “Arnold should have been placed on
standards, but was not.” Kimball explained that there was a breakdown in
communication with the Supervisory Program Analyst, who was the acting manager for
Solids and Geothermal. Kimball said, “I mean, even though I was responsible for
[Arnold, Little, and Morris] and prepared the paperwork, when Arnold went to
Geothermal, I kind of backed away. I didn’t follow to make sure that everything got
done.” Kimball said he did not think it was his responsibility at that time.

As noted earlier, 370 DM 430 1.5E(1) requires that the rating official document the
elements and performance standards in a performance plan within 60 days of an
employee beginning a detail assignment scheduled to exceed 120 days. Additionally, our
review of 370 DM 430 1.6E disclosed the following:

       A performance appraisal will be based on individual employee
       performance for the 12-month period of the rating cycle, including any
       details over 120 days…The rating official should make a reasonable effort
       to obtain written input for details/temporary assignments over 120 days.

Allegation No. 8: Allegedly, MMS did not provide annual appraisals to Arnold and
Little for FY 2006; Arnold did not receive an interim rating; and Kimball did not review
Arnold’s interim rating of Little.

Specifically, Arnold and Little alleged that MMS had not provided them with annual
appraisals for the FY 2006 rating period that ended on September 30, 2006, which
prevented them from receiving awards and hindered promotion opportunities.

In addition, Arnold alleged that he did not receive an interim rating or progress review
when he was placed on detail, and he alleged that his performance was not discussed with
him at the end of the year.

Little alleged that Kimball had not approved his interim rating, which was drafted by
Arnold, and that the review had been in Kimball’s possession since May 2006.




                                           109
A review of 370 DM 430 1.6G(3) disclosed the following:

       Annual summary ratings are to be completed and presented to the
       employee no later than 30 days after the completion of the annual
       appraisal period, or upon completion of the 90-day rating extension
       period. The original ratings will be submitted to the servicing [Human
       Resources office] within 60 days following the end of the rating period.

Further review of 370 DM 430 at 1.5E(4) and 1.5E(7) disclosed that rating officials were
responsible for conducting at least one progress review for each employee during the
rating period and for preparing interim ratings when appropriate.

When interviewed on January 16, 2007, the Chief, Human Resources Branch, MMS, said
it was unusual that the 2006 performance appraisals for Arnold, Little, and Morris had
not been completed. However, he stated that he did not believe the delay in completion
of the performance appraisals would hinder employment opportunities because the
employees could use prior appraisals on job applications and note that MRM had not
provided anything more recent if they applied for other jobs. The Chief said Arnold,
Little, and Morris would remain eligible for a performance award if they received a
Superior or Exceptional rating, but he said it was the supervisor’s decision whether or not
to give them an award.

When interviewed, a Senior Human Resources Specialist, Human Resources Branch,
MMS, said DOI policy required managers to complete the appraisals within 30 days of
the end of the rating period. He stated that he provided Kimball with the policy guidance
from the Departmental Manual, but he had not completed the appraisals for Arnold,
Little, and Morris. Human Resources records showed that the other Offshore employees
at Oklahoma City, OK, received their appraisals over a period of time ranging from
October 11, 2006, through November 20, 2006.

When asked, the Senior Human Resources Specialist opined that the delay in giving
appraisals would not have any impact on promotion opportunities but would result in a
delay for performance awards if the rating official elected to provide the employees with
a performance award.

The Senior Human Resources Specialist said he was not aware of any efforts or actions to
retaliate against Arnold, Little, or Morris. He opined that Kimball was overwhelmed by
the circumstances and that any miscommunication or delayed actions were not intentional
efforts to harm or inconvenience the employees.

When interviewed on this matter, Kimball said the delay in processing the appraisals
occurred because of the time it took to obtain input from BLM and Solids and
Geothermal; the uncertainty on how to proceed once he learned that Little and Morris had
not been placed under performance standards at BLM; and the complication of assessing
what input, if any, he could use from BLM and Solids and Geothermal. Kimball stated




                                            110
that the delay in completion of the appraisals for Arnold, Little, and Morris had nothing
to do with retaliation or reprisal.

When asked to respond to Little’s claim that the delay in issuing the appraisals could
have hurt promotion opportunities for Little, Kimball said he did not know how “that
would even fit [in]to the picture.” Kimball added that Little never came to him and said,
“I need [an appraisal] because I’m applying for a job.”

Regarding allegations that Arnold did not receive an interim rating or progress review
during his detail and that his performance was not discussed with him at the end of the
year, our investigation revealed that on January 19, 2007, Kimball rated Arnold as
[Exemption (b)(6)] for his performance during the period beginning October 1, 2005,
through March 20, 2006. The appraisal form showed that Arnold signed the Notification
of Standards on December 22, 2005. However, the progress review blocks for the
employee and the supervisor signature were blank, and the employee acknowledgement
of appraisal block was blank.

We also found that on January 19, 2007, Kimball completed a second appraisal form for
Arnold that covered the entire rating period from October 1, 2005, through September 30,
2006. [Exemption (b)(6)]

Kimball, when asked why Arnold did not receive an interim rating, acknowledged that it
was his responsibility and said, “I just was going to give it to him and never did get
around to doing it until now. So I didn’t do it. It’s my fault.” Kimball denied that he
failed to give Arnold an interim rating as an act of retaliation or because he was angry
with Arnold. He said, “… paperwork is not my forté in timing this, and I’ve learned a lot
of lessons in all of this. But it wasn’t as an act of retaliation or anything like that. No, I
did not do that.” Kimball said he did not believe Arnold was harmed as a result of this
oversight.

Kimball said Arnold’s appraisal was not processed after the Human Resources Branch
looked at it. He explained that the Human Resources Branch determined Kimball’s
appraisal of Arnold was not valid because Arnold was not under performance standards
for at least 90 days prior to his detail and he was not placed under performance standards
while on the detail to Solids and Geothermal. Kimball said, “So bottom line is, through a
conversation with [the Senior Human Resources Specialist] is that he will not receive an
appraisal for FY06.”

Kimball said he sent a copy of Arnold’s appraisal to Arnold before he learned from the
Human Resources Branch that Arnold could not be rated for the year. He said his
intention was to discuss the appraisal with Arnold either by telephone or during a visit to
Oklahoma City, OK. However, he said he never contacted Arnold to discuss his
performance because he learned that the appraisal was not valid.

The Manager, Solids and Geothermal Compliance and Asset Management, MRM, said
Kimball asked him to provide input on Arnold’s performance at Solids and Geothermal.



                                             111
The Manager said he provided input to Kimball but did not provide a formal written
evaluation. He said his assessment was based on Arnold’s performance on the audit that
was assigned to him.

When interviewed, the Human Resources Specialist, Human Resources Branch, MMS,
said DOI policy required that to be eligible for a performance rating, an employee had to
perform in a position supervised by the rating official, and under a performance plan, for
a minimum period of 90 days. He stated that Arnold was placed on performance
standards on December 22, 2005, and was subsequently detailed to Solids and
Geothermal on March 19, 2006, where he was not placed under performance standards.
The Human Resources Specialist said the result was that Arnold was only under
performance standards for 87 days during the rating period so he was not eligible to
receive a performance rating for FY 2006.

During our investigation into separate allegations that Kimball had not approved
Arnold’s interim rating of Little, we questioned Kimball about his role in the matter.
Kimball said Arnold rated Little as [Exemption (b)(6)] and he believed Arnold was
required to consult with him (Kimball) before giving an employee an [Exemption (b)(6)]
rating. Kimball stated that he was angry Arnold had not consulted with him before
issuing the interim rating to Little, so he did not sign it and withheld his approval.

Kimball said that after further discussions with the Human Resources Branch, they
decided that Arnold’s interim rating of Little would have to become his final rating due to
Little’s assignment to unclassified duties (and not being under performance standards).

The Senior Human Resources Specialist said his interpretation of the personnel
regulations (DOI Departmental Manual, 370 DM 430 1.6G[6]) were that if a supervisor
desired to give [Exemption (b)(6)] rating to an employee, the supervisor had to consult
with the next-level supervisor before giving the rating to the employee. He said the
regulations did not address whether this was also required when a supervisor provided an
employee with [Exemption (b)(6)] interim rating.

Our investigation found that Arnold gave Little an interim rating of [Exemption (b)(6)]
on May 9, 2006, for the period October 1, 2005, through March 20, 2006. Little
acknowledged being placed on performance standards by signing the appropriate block
on the appraisal form on December 7, 2005. There was no entry or signature in the
progress review section of the form. Kimball rated Little as [Exemption (b)(6)] on
January 22, 2007, for the period October 1, 2005, through March 20, 2006. In that rating,
Kimball included a rebuttal of Arnold’s interim rating that stated the following:

       Rebuttal to Randy Little’s Appraisal

       [Exemption (b)(6)]

Kimball said he approved Little’s interim rating as his yearly rating because of Little’s
unclassified position (he was not under performance standards at BLM). Regarding his



                                            112
change to Little’s rating, Kimball said, “[W]hat I did, I rebutted it and signed it,
[Exemption (b)(6)].”

Kimball stated the following regarding his discussions with Human Resources Branch
personnel:

       [Exemption (b)(6)]

We found that Morris’s supervisor (the Supervisory Auditor, Offshore Compliance and
Asset Management), prior to his detail to BLM, provided an interim rating for Morris of
[Exemption (b)(6)] on May 15, 2006. Morris acknowledged being placed on
performance standards by signing the appropriate block on the appraisal forms on
December 7, 2005. There was no entry or signature in the progress review section of the
form. On January 19, 2007, Kimball wrote on the appraisal form, “This interim rating
will serve as your yearly rating.”

Allegation No. 9: Morris, Little, and Arnold alleged reprisal regarding their lack of
receiving cash awards.

Specifically, Arnold said he received a cash award for 2006, which was [Exemption
(b)(6)] than he received the previous year and substantially less than other employees
received for 2006 (with the exception of Little and Morris).

Our investigation found that the MMS Human Resources Branch processed a
performance award of [Exemption (b)(6)] for Arnold on December 22, 2006.

Our investigation determined that Arnold had previously received a performance award
for [Exemption (b)(6)] on December 23, 2005.

Morris alleged that he had received a rating of [Exemption (b)(6)] for his “past year
evaluation” but was not given a cash award as he had received in prior years for
exceeding his performance goals. Morris also claimed, “[Cash awards] went out to
everyone in MMS who received a [Exemption (b)(6)] rating but myself and Mr. Little.”

Little’s Attorney alleged that Little did not receive any cash awards (during FY 2006).

[Exemption (b)(6)]

The Chief, Human Resources Branch, MMS, said employee performance awards were
tied to MMS performance ratings. The Chief and a Senior Human Resources Specialist,
Human Resources Branch, MMS, said employees who were rated [Exemption (b)(6)]
were eligible for performance awards. However, they also said awards were given at the
discretion of the supervisor and there was no entitlement to an award.

Kimball, after being apprised of the complaint that Arnold and Little were adversely
affected in their eligibility for performance awards because they were placed on detail,



                                             113
responded that awards were tied to performance ratings. Kimball said, “It’s always
discretionary.”

The former Secretary, Indian Compliance and Asset Management, Oklahoma City, OK,
said that when he provided Arnold with a copy of the personnel action for his
performance award, Arnold said he received a larger award for 2005. According to the
Secretary, he responded that Arnold should have received at least what he received for
the prior year. The Secretary stated that he had always admired Arnold’s work and was
just being supportive by commenting about the amount of the award.

We questioned Kimball about the allegation that Arnold should have received an award
for [Exemption (b)(6)], based upon a comment made by the Secretary. Kimball said the
office secretary had no input into the amount of performance awards and that there is no
requirement for a specific award amount.

A Human Resources Specialist, Human Resources Branch, MMS, said he was involved
in processing Arnold’s performance award in December 2006 before Arnold’s
performance appraisal was completed. He admitted that he failed to verify that the
performance appraisal was done before processing the award.

The Senior Human Resources Specialist said Arnold could not be rated for the rating
period that ended on September 30, 2006, because he had not been on performance
standards for at least 90 days. He added that because Arnold could not be rated, he was
not eligible for a performance award. He noted that this situation did not affect Arnold’s
eligibility to receive other types of awards that were not linked to an annual performance
rating.

Kimball said he had rated Arnold as [Exemption (b)(6)] and based the [Exemption (b)(6)]
performance award on a percentage of Arnold’s salary. He said the award would have to
be “reversed in the system” (because Arnold was not eligible for a performance award).

Kimball, in response to Morris’s claim that “everybody” in MMS who received a
[Exemption (b)(6)] rating got an award except for him and Little, replied, “[Little and
Morris’s awards] were delayed, but they’re going to get theirs this pay period.”

Our investigation confirmed that Little and Morris received performance awards of
[Exemption (b)(6)] and [Exemption (b)(6)], respectively, on January 25, 2007, based
upon the untimely appraisals given by Kimball.

We also found that Little had previously received a performance award for [Exemption
(b)(6)] and Morris had received a [Exemption (b)(6)] Time Off Award on December 23,
2005.




                                            114
Allegation No. 10: Kimball allegedly promoted an Auditor into a position that Arnold
sought.

We found that on October 12, 2005, Arnold filed an informal grievance, and on October
26, 2005, it became a formal grievance, pertaining to a decision to replace a then-vacant
GS-14 supervisory position at Oklahoma City, OK, with a supervisory position at
Houston, TX. The Compliance and Asset Management Director denied Arnold’s
informal grievance on October 25, 2005, after he found no reprisal against Arnold and
determined that the change of location for the position was made for “valid business
reasons.”

On November 22, 2005, Deborah Gibbs Tschudy replied to Arnold’s formal grievance.
In that reply, Tschudy said she had “determined not to grant [the] grievance and the relief
requested.” On November 23, 2005, Arnold sent an e-mail to Tschudy in which he
stated, “Thanks for the response. Considering that [the Compliance and Asset
Management Director] is looking at where to fill [Oklahoma City] Offcam vacancies,
then I see no reason to pursue this grievance.”

Kimball said Arnold filed a grievance about the position that was filled by another
Auditor. He explained that Arnold was complaining about the relocation of a vacant GS-
14 position from Oklahoma City, OK, to Houston, TX. Kimball explained that he
decided to shift the position to Houston, TX, because many of the oil companies were
moving there.

Kimball said he understood that Arnold wanted the position to remain in Oklahoma City,
OK, because Arnold did not want to move. Kimball said, “I knew he didn’t want to
move, but that wasn’t the reason [I announced the position in Houston], no.”

Allegations No. 11: During a teleconference on October 4, 2006, Kimball allegedly
instructed the participants to provide copies of any personnel records in their possession
regarding Lanis Morris and Randy Little to the Program Manager, Indian Compliance
and Asset Management. Kimball also allegedly told the teleconference participants that
if they had no such records, they were to provide a written statement to him to that effect.
Kimball allegedly provided no explanation for his request.

Note: Our investigation determined that Kimball had requested the information in
response to a request from the U.S. Office of Special Counsel (OSC). OSC is a federal
agency charged with investigation of Whistleblower reprisal complaints.

When we informed Kimball of the allegation that Little and Morris were being singled
out at a teleconference on October 4, 2006, Kimball responded that the Program Director,
Compliance and Asset Management, had contacted him by telephone and said he had
received a request from the MMS Human Resources Branch for copies of any unofficial
personnel files pertaining to Little and Morris. Kimball said he relayed the records
request to Arnold; a Supervisory Auditor, Offshore Compliance and Asset Management;
and the Secretary for Indian Compliance and Asset Management. Kimball said he was



                                            115
instructed to give any files they had to the Program Manager, Indian Compliance and
Asset Management, so that he could forward everything to the Human Resources Branch.
Kimball said he believed Little and Morris made the request for the records under the
FOIA.

The Program Manager, Indian Compliance and Asset Management, recalled that Kimball
telephoned him on October 3, 2006, and said the Secretary was going to be providing him
with four blue envelopes. He said he sent the unopened envelopes via FedEx (at the
instruction of Kimball) to a Senior Human Resources Specialist at the MMS Human
Resources Branch.

When asked about the purpose for the aforementioned request for personnel records, the
Senior Human Resources Specialist said the information was gathered at the request of an
SOL Attorney-Advisor. He explained that OSC had asked the SOL for the information.

Note: While OSC has opened an investigation regarding allegations of reprisal against
Arnold, Little, and Morris, our report will be provided to OSC for its use in making a
final reprisal determination.

When interviewed, the SOL Attorney-Advisor said he was assigned to represent DOI and
MMS for the OSC investigation of reprisal complaints made by Arnold, Little, and
Morris. He stated that OSC made three data or record requests as part of its investigation
and that he was the conduit for providing the requested information to OSC. He said the
requests were made on September 27, 2006; October 19, 2006; and April 11, 2007. The
Attorney-Advisor said he coordinated with the Human Resources Specialist for the first
two data requests. When asked, he stated that the information collected for each request
was provided to OSC and that the information was only used for purposes involving the
OSC investigation.

Allegation No. 12: Little allegedly had limited access to MMS computer systems.

Specifically, Little alleged that while Arnold was able to retain his access to MMS
computer systems, Little’s access was removed when he was placed on detail to BLM in
March 2006. Little also alleged that he had no access to the QuickTime time and
attendance system and was required to submit spreadsheets to Kimball’s secretary, who
would then enter the data into QuickTime. Little alleged that he was not able to review
his leave balances and had to wait up to 3 weeks for his “paystub.”

Little further alleged that he did not have access to e-mail, which prevented him from (1)
knowing when continuing education was offered, (2) accessing agency-wide e-mails, and
(3) since March 2006, obtaining information about mandatory meetings.

Our review of the DOI Departmental Manual disclosed no information to indicate that
there was a requirement to provide employees with access to automated systems such as
e-mail and payroll.




                                           116
The Chief, Human Resources Branch, MMS, said he was not aware of any requirement in
the personnel regulations to provide an employee with access to agency computer
systems while on detail to another agency.

The former Compliance and Asset Management Director said the decision to restrict
Little and Morris from accessing the MMS network was made because of the number of
companies involved in their lawsuits. He said that otherwise, MMS would have had to
build numerous firewalls within its network. He said Kimball was responsible for
ensuring that appropriate MMS e-mail messages reached Little and Morris while they
were at BLM.

Kimball acknowledged that Little and Morris were not given access to MMS computer
systems after being placed on detail at BLM. He said their system accounts were cut off
because their qui tam lawsuits involved over 25 companies. He explained that the access
was restricted so Little and Morris would not have access to information about the
companies they were suing.

Kimball said Arnold’s lawsuit only pertained to Shell, and Arnold signed a recusal
statement in which he was required to refrain from involvement in any activities
involving Shell.

The Program Director, Compliance and Asset Management, said that since Little and
Morris were assigned to Indian Compliance and Asset Management at MMS, instead of
BLM, their access to some MMS systems such as e-mail was restored. He said they were
still blocked from having access to systems that contained royalty data, such as the BRIO
interface to the MRM Support System. The Program Director explained that if Little and
Morris were allowed access to the BRIO (software used by MRM auditors), they would
have access to data on all companies, including those in their lawsuits.

Regarding Little’s access to QuickTime, Kimball said BLM signed time and attendance
sheets and leave statements for Little and Morris during their detail assignment. He said
the auditors (Little and Morris) sent the statements to MMS to be entered into
QuickTime. According to Kimball, two MMS secretaries entered the information into
QuickTime. Kimball described QuickTime as the system that charged time to various
functions, such as leave, holidays, work time, and compensatory time.

Kimball said he did not recall any complaints from Morris or Little regarding the time
sheets and he did not think it would be a hardship to have a secretary do the data input.
He said, “None of this had to do with, quote, ‘retaliation,’ in my eyes.”

Kimball recalled that Little mentioned that he could not immediately look at his leave
balances. According to Kimball, Little admitted that he had access to Employee Express,
a system designed for employees to access their payroll, leave, and benefits information.
Kimball said he felt access to Employee Express would be sufficient for Little to manage
his leave account. He said he never received a complaint or a question from Morris about
time and attendance.



                                            117
Kimball also said, “There was one situation where I think [the Secretary] recorded some
time incorrectly. And [Little] brought it to our attention. It was like it was charged
annual leave, and it should have been sick leave or vice versa.”

The Field Station Manager, BLM, said Little and Morris did not have access to the
QuickTime system while detailed to BLM. He said they used paper leave requests and
submitted them to him for approval. He said Little and Morris would then fax the signed
leave requests to MMS for entry into QuickTime.

The Field Station Manager said he received no complaints from Little or Morris
regarding leave issues. However, he recalled one occasion in December 2006 when
Little informed him about an administrative error with his sick leave caused by the MMS
timekeeper. The Field Station Manager understood from the conversation that the error
was unintentional.

A Senior Human Resources Specialist, Human Resources Branch, MMS, opined that it
was acceptable to have an employee manually record his/her time and attendance data
and to have clerical personnel enter the data into the QuickTime system. He added that
he did not believe there would be any validity to a claim that it was a hardship to wait for
a leave and earnings statement to see leave balances. He said employees without
automated access to the time and attendance system could contact clerical personnel if
they had concerns or questions about their pay or leave. Note: Leave and earnings
statements are generated every 2 weeks for each pay period and are provided to
employees.

Regarding Little’s access to e-mail, the Field Station Manager said Little and Morris
claimed they could not access MMS e-mail at the BLM office in Moore, OK, so he
allowed them to go to the MMS office in Oklahoma City, OK, each week to check their
MMS e-mail messages. The Field Station Manager stated that Little and Morris were
provided BLM e-mail accounts and computers soon after they reported to BLM to
perform their duties.

A Petroleum Engineering Technician, BLM, Moore, OK, stated that Little and Morris
told him their access to MMS databases, MMS e-mail accounts, QuickTime, and the
Internet had been terminated during their details to BLM. He said Little and Morris were
provided BLM e-mail accounts during their detail.

A search of BLM e-mail accounts disclosed the following:

   •   Little’s BLM e-mail account contained messages from March 17, 2006, through
       January 26, 2007. Little communicated with MRM personnel throughout the
       duration of his detail to BLM. Additionally, Little exchanged e-mail messages
       pertaining to time and attendance matters with a Secretary for Compliance and
       Asset Management and a Secretary for Offshore Compliance and Asset
       Management, who were tasked with entering Little’s time and attendance data



                                            118
       into the QuickTime system. The Secretary for Compliance and Asset
       Management and the Secretary for Offshore Compliance and Asset Management
       routinely sent e-mails to Little with a screen print from the time and attendance
       system of the data entry for the pay period. Additionally, the Secretary for
       Offshore Compliance and Asset Management routinely provided a screen print
       that included leave balances. Note: The Secretary for Offshore Compliance and
       Asset Management assumed the time and attendance duties for the Secretary for
       Compliance and Asset Management in June 2006.

Further review disclosed the following:

   •   On March 22, 2006, Little advised Kimball, “I now have an email address at the
       BLM.”

   •   On April 28, 2006, Little advised Arnold, “I, as of today, have email access.”
       Arnold responded that Little and Morris were listed as having two e-mail
       addresses. He said, “One [e-mail was] for MMS and one for BLM. Apparently,
       you guys are only receiving the e-mail addressed to your BLM email address.”

   •   Morris’s BLM e-mail account contained messages from March 31, 2006, through
       January 26, 2007. Morris communicated with MRM personnel throughout the
       duration of his detail to BLM. Additionally, Morris exchanged e-mail messages
       pertaining to time and attendance matters with the Secretary for Compliance and
       Asset Management and/or the Secretary for Offshore Compliance and Asset
       Management, who were tasked with entering Morris’s time and attendance data
       into the system. The secretaries routinely sent e-mails to Morris with a screen
       print from the time and attendance system of the data entry for the pay period.
       Additionally, the Secretary for Offshore Compliance and Asset Management
       routinely provided a screen print that included leave balances.

Further review disclosed the following:

   •   On September 5, 2006, Morris received an e-mail from an Information
       Technology Specialist, MRM, advising that Morris, Little, and an MRM Auditor
       had been added to the “deepwater group” and “should be receiving all employee
       messages.”

We also conducted interviews regarding Little’s allegations that his lack of e-mail access
prevented him from (1) knowing when continuing education was offered, (2) accessing
agency-wide e-mails, and (3) since March 2006, obtaining information about mandatory
meetings.

According to the Program Manager, Indian Compliance and Asset Management, MRM,
auditors had to complete 80 hours of continuing professional education (CPE)
requirements every 2 years. He stated that auditors had to take a minimum of 20 hours
each year, and 24 of the 80 hours had to be for audit or the GAGAS-related training. He


                                           119
said he believed all auditors reassigned from Offshore Compliance and Asset
Management to Indian Compliance and Asset Management had met their respective CPE
requirements, including Arnold, Little, and Morris.

A review of MRM training and education records disclosed the following:

   •   Joel Arnold received a total of 81.5 CPE training credits for calendar year 2005
       and 35 CPE training credits for 2006. Arnold’s training credits for 2006 were all
       completed after he was placed on detail to Solids and Geothermal.

   •   Randy Little received a total of 80 CPE training credits for 2005 and 40 CPE
       training credits for 2006. Little’s training credits for 2006 were all completed
       after he was placed on detail to BLM.

   •   Lanis Morris received a total of 69.5 CPE training credits for 2005 and 40 CPE
       training credits for 2006. Morris’s training credits for 2006 were all completed
       after he was placed on detail to BLM.

In addition to the CPE training, all three auditors received training pertaining to ethics,
Federal Information Systems Security Awareness, Information Technology Resources
Rules of Behavior, Records Management Awareness, Freedom of Information Act, and
the Privacy Act during the 2006 calendar year. Arnold also received training for Ethics
and Professional Conduct for Oklahoma Certified Public Accountants during the 2006
calendar year.

A Supervisory Auditor, Offshore Compliance and Asset Management, told us he was not
sure whether Little or Morris had e-mail access while on detail to BLM. He stated that
since he had been Morris’s supervisor before he was detailed to BLM, he “tried to call
him and let him know” whenever training was scheduled or when there were birthday
celebrations, etc. The Supervisory Auditor said he did this as a courtesy and added that
he was not instructed by Kimball to keep Morris apprised of training or any other matters
while he was detailed to BLM.

The Field Station Manager, BLM, said he allowed Little and Morris to attend training and
other functions at the MMS office in Oklahoma City, OK, during their detail to BLM.

The Petroleum Engineering Technician, BLM, said Little and Morris went to the MMS
office in Oklahoma City, OK, once or twice a week throughout their detail to BLM. He
recalled that on some of those occasions, Little and Morris said the purpose for their
visits was to attend mandatory training.

When asked to respond to allegations that Little and Morris were not kept apprised of
continuing education opportunities because they did not have MMS e-mail access,
Kimball said, “Yeah, there was some breakdown there. I do admit that.” However,
Kimball claimed that Little and Morris were brought in for all of the training that was
held in Oklahoma City, OK, so that they could receive their CPE credit.


                                             120
Kimball acknowledged that Little and Morris were not given advance notification for
meetings or training and added, “I probably did slip up a couple of times and [did] not let
them know right away.” However, he said they always found out and they always
attended. He said the untimely communication was not an act of reprisal.

Kimball said he did not recall holding any “all-hands” meetings in which all Compliance
and Asset Management auditors were required to attend, with the exception of possibly
one meeting in about January 2006 when the Compliance and Asset Management
Director visited the office. Kimball said Little and Morris would not have attended
meetings concerning ongoing MMS audit work because they were on detail and were not
part of the work group during that time.

Kimball told us he traveled to Oklahoma “maybe once a month, every 6 weeks” and that
sometimes he “would call people together.” Kimball said he did not consider these to be
“all-hands” meetings. He acknowledged that he did not invite Little and Morris to some
of the preliminary transition meetings held in preparation for the transfer of Offshore
office personnel to Indian Compliance and Asset Management.

Kimball noted that Little and Morris were invited to a meeting held in December 2006 to
inform the Offshore staff that the transition to Indian Compliance and Asset Management
had been approved. He said neither Little nor Morris were on duty the day of the
meeting. He recalled leaving voicemail messages for Little and Morris prior to the
meeting and said Little responded to the message when he returned to work the following
day. Kimball stated that all participants were given short notice about the meeting
because he had to wait for departmental approval before he could announce the approval
of the transfer. He said everyone was notified about the meeting at the same time.

We determined that on December 21, 2006, Kimball sent an e-mail to Little, Morris, and
other MRM personnel asking that they participate in a teleconference at 9 a.m. that day.
On December 22, 2006, Little sent an e-mail to Kimball stating that he was out of the
office on December 21, 2006. Little said, “I understand your meeting involved a re-
organization effective December 24, 2006.” Kimball responded to Little and said, “I left
a message on your phone. Please call me at [Exemption 2]. Thanks.”

Allegation No. 13: Kimball allegedly failed to uphold his promise to Little to restore sick
leave incurred by Little when he had to drive farther to get to his medical appointments
as a result of his detail location at BLM.

We asked the Chief, Human Resources Branch, MMS, if Kimball was required to restore
Little’s sick leave because Little had to commute farther to his doctor from the detail
location in Moore, OK. The Chief explained that there was no obligation to restore leave
if the detail location was within the commuting area of his permanent duty location.
Note: An Internet search disclosed that it was approximately 16.3 driving miles from the
MMS office in Oklahoma City, OK, to the BLM office in Moore, OK.




                                            121
The former Compliance and Asset Management Director recalled that he and Kimball
discussed Little’s request for reimbursement of sick leave related to medical
appointments. He claimed that he told Kimball to give Little whatever he needed to get
to his medical appointments.

Kimball told us the leave taken by Little was coded correctly as sick leave. He explained
that the decision to restore the sick leave was made because it was an issue in Little’s
Equal Employment Opportunity complaint. Kimball said he discussed the situation with
the former Compliance and Asset Management Director, who was Kimball’s supervisor
at the time, and said, “[I]t was suggested that that’s how we handle it, in giving him the
additional hours, even though he had enough sick leave to cover him.”

We found that on August 5, 2006, Kimball sent an e-mail to Little with the subject line
“Reimbursed Sick Leave.” In that e-mail, Kimball stated the following:

       This is going to be a lengthy and very tedious process. We are going to
       have to adjust each pay period and each day. It will get done. I have been
       out of the office a lot. I will be out next week. When I return, I will have
       [the Secretary for Offshore Compliance and Asset Management] start the
       process of adjusting. It will be accomplished by the end of August.

Kimball acknowledged that although his e-mail advised Little that the sick leave would
be restored by the end of August 2006, it actually took until about December 2006.
Kimball explained that the Secretary for Offshore Compliance and Asset Management
had to retrieve all of the relevant time and attendance files in order to process the
changes. He said he told Little the sick leave would be restored, and, after appropriate
processing, it was. Kimball denied that the delay was an act of reprisal or retaliation.

The Secretary for Offshore Compliance and Asset Management recalled that he was
asked to amend pay periods for Little to credit time back to him. He said the corrections
had been completed. The Secretary stated that restoration of the sick leave and
amendment of payroll records was a tedious and complicated process. He explained that
he had to obtain source documents from Little, retrieve past payroll records, adjust
Little’s leave balances, amend payroll records, and obtain certification from Kimball in
order to complete the changes. The Secretary stated that he proceeded carefully because
he wanted to do everything properly and added that the delay in accomplishing the task
was not an act of reprisal or an attempt to retaliate against Little.

A Senior Human Resources Specialist, Human Resources Branch, MMS, advised that
Little’s records in the Federal Personnel Payroll System showed that his sick leave taken
between March 19, 2006, and July 8, 2006, was changed to administrative leave. He
described administrative leave as an excused absence granted by management. He added
that Little’s sick leave was restored to his account balance during pay period 2007-02
(ending on January 6, 2007).




                                           122
Allegation No. 14: Allegedly, Little and Arnold were not notified in a timely manner
regarding detail extensions or locations of details.

The Senior Human Resources Specialist said MMS extended the detail assignments for
Arnold, Little, and Morris several times. He commented that all three contacted the
Human Resources Branch shortly before expiration of their details indicating that
Kimball had not informed them where they were supposed to report for duty when the
details expired. He said the Human Resources Branch answered the inquiries if they
knew the answer but generally referred them to Kimball because it was management’s
responsibility to discuss duties and responsibilities with employees.

The Senior Human Resources Specialist stated that the Human Resources Branch advised
Kimball to inform the employees about the extension of the details prior to their
expiration. He opined that it was proper courtesy to inform the employees that their
details would or would not be extended prior to the expiration of the details.

When questioned, the Chief, Human Resources Branch, MMS, said the manager was
responsible for notifying employees about the status of their assignments and added that
it was a good management practice to communicate with and inform employees prior to
an event. He added that the Human Resources Branch advised managers about personnel
matters but did not police managers to ensure they followed advice because the manager
was responsible for the action.

The Senior Human Resources Specialist and the Chief provided copies of the Human
Resources Branch e-mail messages pertaining to Arnold, Little, and Morris. Examination
of the e-mail messages disclosed that MMS and BLM management were confused about
who should process the personnel actions to extend the details, that the MMS Human
Resources Branch provided Kimball with advanced notification concerning the upcoming
expiration of the details, and that both Little and Morris made inquiries about the status of
their detail assignments and the associated personnel actions.

Our review of the e-mails contained in Little’s BLM e-mail account disclosed the
following:

   •   On July 25, 2006, Kimball sent an e-mail that advised Little that his detail to
       BLM was extended for another 120 days. In that e-mail, Kimball said he talked
       to the Field Station Manager, BLM, who said he had plenty of work to keep Little
       busy. Kimball added that he did not telephone Little because his “phone number
       in Outlook is not complete.” Note: This e-mail was sent after the expiration of
       Little’s initial 120-day detail to BLM, which began on March 19, 2006.

   •   On November 17, 2006, an MMS Human Resources Specialist sent an e-mail to
       Little that included a scanned copy of the extension of his detail. Note: The
       effective date of the extension was November 15, 2006.




                                            123
Our review of e-mails contained in Morris’s BLM e-mail account disclosed the
following:

   •   On July 25, 2006, Kimball advised Morris that his detail to BLM was extended
       for another 120 days. In that e-mail, Kimball said he talked to the BLM Field
       Station Manager, who said he had plenty of work to keep him busy. He added
       that he did not telephone Morris because his “phone number in Outlook is not
       complete.”

   •   On July 28, 2006, a Senior Human Resources Specialist advised Morris that he
       would be receiving a Notification of Personnel Action (Form SF-50) for the
       extension of his detail at BLM.

An MMS Human Resources Specialist said management was responsible for informing
employees about their detail assignments. He said the Human Resources Branch
informed Kimball about the status of the details and told him to inform the employees.
The Human Resources Specialist commented that based upon the number of calls or e-
mails from the auditors concerning their details, he believed notification was not always
provided in a timely manner. He said Kimball appeared frustrated with the situation
regarding the details and the difficulty of keeping the auditors busy.

Another MMS Human Resources Specialist said the Human Resources Branch received
numerous calls from Morris and Little regarding their details. He said he felt that
Kimball should have advised the auditors right away about changes to their details, and
this lack of communication seemed unprofessional. The Human Resources Specialist
said he referred questions from the auditors to Kimball. He said management was
responsible for advising the auditors of their detail extensions; the Human Resources
Branch only processed the paperwork.

The Field Station Manager, BLM, said he was not responsible for, or actively involved
in, extending Little and Morris’s details to BLM. He said he relied on Little and Morris
to inform him about their detail extensions. He said he did not request and did not
receive copies of SF-50s (Notification of Personnel Action) from MMS or Kimball. He
said the only copies of SF-50s he received were given to him by Little and Morris as a
courtesy.

When asked about the extensions of the details for Arnold, Little, and Morris, Kimball
said, “… I don’t think that they were given notification by me [about the extensions], and
I guess that would have been my responsibility.” Kimball added, “I just didn’t think it
was at the level of importance that they think it should have been. I mean, I had nothing
in my plan to fire them the day they didn’t show up where they were supposed to be, like
they’re claiming.” Kimball also said the following:

       [T]hey kind of blame me for not notifying them of certain things, and
       probably in some of those cases, and this is one of them, I do accept that.
       I didn’t notify them. But they didn’t pick up the phone and call me and



                                           124
       say, ‘Is my detail going to be extended?’ Now is it their responsibility or
       is it mine? It was probably mine.

Kimball denied that the failure to notify the auditors about the status of their details in a
timely manner was an act of reprisal.

Allegation No. 15: Kimball allegedly told the BLM Petroleum Engineering Technician
that he wanted Morris and Little to quit and that he detailed them to menial jobs for the
purpose of humiliating them. He also allegedly told Morris he was not allowed to assign
audit work to Morris. Kimball also allegedly begged the Petroleum Engineering
Technician to keep Little and Morris at BLM. He also allegedly had an e-mail from (or
including) the BLM Field Station Manager that contained derogatory information
regarding Morris and Little.

The BLM Petroleum Engineering Technician related that Little and Morris were detailed
from MMS to BLM from March 2006 through December 2006. He said he would have
liked to have Little and Morris assist with BLM inspection and enforcement efforts that
involved oil and gas matters. However, he said that when he asked the BLM Field
Station Manager if Little and Morris could assist with inspections and evaluations, he
would not allow it. The Petroleum Engineering Technician recalled having several
conversations with Little and Morris in which they expressed frustration because they
were not being allowed to work on BLM oil and gas matters.

When questioned regarding this matter, Kimball said, “We may have given [BLM] some
guidance that, you know, [Little and Morris] were not to do any kind of audit
verification.” He said employees tasked with such work could potentially have contact
with oil companies. Kimball said this would have been a verbal instruction to the Field
Station Manager.

The Petroleum Engineering Technician said he talked to Kimball in late December 2006
and informed him that, as instructed by the Field Station Manager, BLM had no further
work for Little and Morris and that their detail to BLM was to end December 31, 2006.
He opined that Kimball was “very upset” at the news that BLM had no further work for
Little and Morris.

According to the Petroleum Engineering Technician, Kimball never said he wanted Little
and Morris gone or wanted them to quit, and Kimball did not state that he detailed Little
and Morris to BLM to work in menial jobs as a means to humiliate them so they would
quit. He added that no MMS manager had expressed the aforementioned desires to him.
When we asked the Petroleum Engineering Technician if he made these comments to
Little and Morris, he responded, “I think that was probably just my opinion. I may have
voiced that opinion to Randy [Little] or Lanis [Morris].”

The Petroleum Engineering Technician stated that all communication he had with the
Field Station Manager regarding Little and Morris was related to their duties at BLM. He
said the Field Station Manager never made any negative comments about Little or
Morris. He recalled seeing an e-mail from the Field Station Manager related to Little and


                                              125
Morris but claimed he could not remember its subject. He said that on one occasion he
related a comment made by the Field Station Manager to Little and Morris “and they got
all upset.” However, he claimed he could not recall the subject matter of the comment.

When we asked Kimball if he attempted to keep Little and Morris on detail, he said,
“Yes. I probably begged [BLM] to keep [Little and Morris] for – I don’t think I would
use the word – I wasn’t on hands and knees, but we didn’t have a place for them at the
time.”

After being apprised of the allegation that he had wanted Little and Morris to quit and
that he assigned them to BLM to humiliate them with menial tasks, Kimball stated, “That
is a pack of lies. That never even entered my mind. I mean, I can’t believe that. I didn’t
tell that to anyone at BLM. I didn’t make that comment to anyone.” Kimball said, “No,
never. See? I mean, that’s the part I, you know, I really get mad about. They make these
allegations and they’re wasting your time, my time.”

The Secretary for Offshore Compliance and Asset Management, MRM, stated that he
never heard Kimball say or do anything that he believed could be considered retaliatory
against Arnold, Little, or Morris. When questioned, the Secretary said he had never
heard Kimball say he wanted to fire Arnold, Little, or Morris, humiliate them, or wanted
them gone. He added that Kimball had not done anything that he considered improper
toward Arnold, Little, or Morris. Further, the Secretary said he considered Kimball to be
honest and fair.

When asked, the Minerals Revenue Specialist (formerly Kimball’s Secretary), MRM,
said he never heard Kimball or anyone else say anything that made him believe there was
a desire to retaliate against Arnold, Little, or Morris for filing their lawsuits. He
commented, “Oh no. That’s not the man he is,” when referring to Kimball. He also said
Kimball never said he wanted Arnold, Little, or Morris to quit; that he wanted them to be
fired; or that he was attempting to humiliate them.

Allegation No. 16: MMS allegedly failed to compensate Morris for additional
commuting distance to BLM. Morris allegedly drove an additional 2,200 miles because
of the detail.

A review of the DOI Departmental Manual, 347 DM 1.2, disclosed that DOI adopted the
Federal Travel Regulations (41 C.F.R. §§ 301-304) as its basic travel and transportation
policy.

Further review of the manual disclosed that the DOI Federal Travel Regulations
Implementing Instructions for Special Travel (347 DM 200-201) defined local travel as
travel that was performed for official purposes in and around the duty point that did not
entitle an employee to per diem or other subsistence allowances. Additionally, a review
of 347 DM 201-5 disclosed that employees who were approved to use a personally
owned vehicle to travel to an alternate work site near their duty station would be




                                           126
reimbursed for increased costs incurred, not to exceed the mileage allowance plus
increased tolls and parking fees.

Note: The Departmental Manual states that in order for employees to qualify for
reimbursement, they need to obtain approval from their supervisor to use a personally
owned vehicle at an alternate work site and then request reimbursement for any
additional mileage. Provided that they have approval to use their personally owned
vehicles and request reimbursement, MMS employees are entitled to reimbursement for
the additional cost of traveling to a temporary, alternate work site near their original
work site.

A Financial Analyst, MMS, Herndon, VA, stated that MMS had adopted the DOI travel
rules as its policy. He opined that it was the responsibility of the employee to file a claim
if the employee desired reimbursement for local travel. He added that responsibility
shifted to the supervisor after the employee submitted the reimbursement request.

Our investigation determined that the mileage from Morris’s residence of record
[Exemption (b)(6)] to the Oklahoma City MMS office was [Exemption (b)(6)] miles.
The mileage from his residence to the Moore, OK, BLM office was [Exemption (b)(6)]
miles. Thus, the commute to BLM, rather than MMS, required Morris to drive an
additional 7.06 miles each way.

We determined that the mileage from Little’s residence of record [Exemption (b)(6)] to
the Oklahoma City MMS office was [Exemption (b)(6)] miles. The mileage from his
residence to the Moore, OK, BLM office was [Exemption (b)(6)] miles. Thus, the
commute to BLM, rather than MMS, required Little to drive an additional 8.18 miles
each way.

The former Compliance and Asset Management Director recalled discussions with
Kimball about the additional commuting distance that Little and Morris would be
required to drive as a result of their detail to BLM. The former Compliance and Asset
Management Director did not recall the details of the conversation but said he probably
told Kimball to authorize any extra mileage. He added that he would have suggested to
Kimball to allow Little and Morris to have whatever the rules allowed. The former
Compliance and Asset Management Director explained that he relied on his
administrative staff for the local commuting rules and stated, “[I]t’s the same as if they’re
going to an audit site as far as I was concerned.”

The former Compliance and Asset Management Director said the decision was ultimately
up to Kimball and that he did not follow up with Kimball about the matter. He
summarized by saying, “We found a place for them that was reasonably close to the type
of work that they were doing, it was outside of oil and gas, we felt like they could be
productively used, and that’s where I left it with Lonnie.”

Kimball said he discussed Little and Morris’s detail to BLM with the Compliance and
Asset Management Director and they decided to wait to see if Little and Morris asked for



                                             127
reimbursement rather than volunteer to reimburse them for any additional mileage needed
to commute to BLM.

Kimball said he never researched the distance from Morris and Little’s residences to their
permanent duty stations and to their detail assignments, so he did not know if their
commuting distance to BLM was farther than their commuting distance to their
permanent MMS office. Kimball added that neither Little nor Morris had asked for travel
reimbursement. He said MMS would probably have paid for the additional mileage if
Little or Morris had made a request.

When asked, Kimball said he did not offer to allow Morris or Little to use a government-
owned vehicle to commute from their permanent duty location to BLM. He said that
although it did not occur to him to offer the use of a government owned vehicle, he
speculated it would have been complicated because he believed Morris and Little worked
different hours.

We asked Kimball whether Morris and Little were given permission or were authorized
to use their personally owned vehicles (and claim reimbursement for mileage) in lieu of a
government-owned vehicle to travel to their detail assignments at BLM. According to
Kimball, Morris and Little were not expressly given permission to use their personally
owned vehicles but this was implied because they were not directed to use a government-
owned vehicle.

Kimball said he did not believe reimbursement in this situation was a requirement.
However, he noted that it was normal MMS policy to reimburse employees for mileage
to a duty site that was over and above the commuting distance from the residence to the
permanent duty location.

When asked, Kimball agreed that he should have volunteered to reimburse Little and
Morris for any additional mileage. He claimed that he would have processed a claim for
reimbursement if one had been submitted. Kimball denied that he was retaliating against
Little and Morris when he decided to wait for them to request reimbursement for local
travel.

After being contacted by the OIG regarding this matter on July 26, 2007, Morris replied
in an e-mail that he and Randy Little had submitted claims that same day for
reimbursement of additional travel expenses from the detail assignment at BLM (from
March 2006 through December 2006).

Allegation No. 17: E-mail messages were allegedly transmitted between MMS offices
joking about Morris and Little being detailed to BLM.

During an interview of Morris on September 22, 2006, the Attorney representing Arnold
and Little said, “We’ve got an e-mail that says, I mean, it came from like, Dallas, Denver;
it bounced all over MMS, ‘ha ha ha, these guys are excile [sic]. We’re not supposed to
even talk to them’ kind of thing.” Morris said the e-mail was indicative of a hostile work
environment. Note: The Attorney for Little and Arnold was present during the


                                           128
September 22, 2006 interview of Morris because Morris and his Attorney were being
interviewed at the offices of Little and Arnold’s Attorney’s law firm immediately
following interviews of Arnold and Little (who jointly filed a lawsuit with Morris).

We found an e-mail string beginning and ending on August 2, 2006, that included the
following comments made by non-supervisory MRM auditors:

   •   “Isn’t he one of [the] guys exiled by Lonnie for filing a qui tam?”
   •   “He’s one of the guys exiled. I think he’s suppose [sic] to be dead to us.”
   •   “Who exactly was in charge of their deportation?”
   •   “Lonnie deported Lanis and Randy Little to the BLM. Rumor has it that MMS
       wants neither to come back .... Ahahahahahahahahahahahahahahahahahahaha”
   •   “I think this is funny ....”

An Auditor, Indian Compliance and Asset Management, MRM, said he and other Indian
Compliance and Asset Management employees joked about Little and Morris being
exiled to BLM for “bucking” management decisions. He said he felt badly for Little and
Morris. In reference to the e-mail identified by the Attorney for Little and Arnold, the
Auditor said he “was making fun of the situation.” He claimed his comments that
“Lonnie deported Lanis and Randy Little to BLM. Rumor has it that MMS wants neither
to come back. I have no idea whom [an Auditor, Audit Services and Mid-Continent
Region] should contact…maybe he should try Lonnie.
Ahhahahahahahahahahahahahahahahahahahaha” were not directed at any one person.

The Auditor opined that management created a hostile work environment for Little and
Morris by assigning them on detail to BLM. He also opined that Little and Morris were
being retaliated against for filing qui tam lawsuits.

Another Auditor, Indian Compliance and Asset Management, MRM, said the e-mail
string was not intended to “make fun” of Little and Morris but was intended to “sting”
management and that it was “like ridiculing management.” He said none of the auditors
in the Oklahoma City office had any malice toward Little or Morris. He said he was not
aware of any other e-mails concerning the reassignment of Little and Morris.

This Auditor opined that management wanted Little and Morris out of the office. He said
he believed Kimball reassigned them to BLM out of “sheer spite” based upon a
conversation he had with Little and Morris. The Auditor opined that MMS used the qui
tam lawsuits filed by Little and Morris as an excuse to reassign them to BLM because, in
her opinion, they could have been reassigned to Indian Compliance and Asset
Management instead. He commented that once a person became a member of
management, the person developed a different attitude toward the “underlings” and
added, “I don’t know if you become subhuman or what.”

A third Auditor for Indian Compliance and Asset Management, MRM, opined that the e-
mail string was not intended to “make fun” of Little and Morris but was written from the
perspective of “can you believe [management] did that to them?”


                                          129
We informed Kimball that Morris claimed to have been subjected to a hostile work
environment because of an e-mail circulated by MRM personnel about his detail to BLM.
Kimball said he was not aware of the e-mail. He stated that he would not encourage that
type of banter or communication and he would not condone that sort of behavior.

We asked Kimball if he told anyone that he wanted to get rid of the relators or humiliate
them. Kimball replied, “No.” In response to a question about what he would have done
if he had become aware of the e-mail string described above, Kimball said, “I’d probably
call that person in and talk to them … [t]ell them they had no right doing this and, you
know, why did they do it? What’s the purpose of doing this?” Kimball said, “We’ve got
problems there, and I think the people feed on each other.”




                                           130
                                 OTHER ISSUES
        During our investigation, we became aware of other allegations and issues
pertaining to MMS employees and programs regarding potential criminal conduct, ethical
violations, and mismanagement. After reviewing these additional allegations, obtained
through interviews and other investigative efforts, we conducted multiple preliminary
investigations to determine whether further in-depth investigations were warranted.
Some of the allegations were ultimately determined to be unfounded; however, we
initiated investigations into the following four issues:

   •   The acquisition, contract management, and performance of the MRM Support
       System, which has cost approximately $149 million since the contract was
       awarded on September 23, 1999.
   •   The involvement of three senior MMS employees to create a consulting contract
       that led to the post employment of two of the employees, in potential violation of
       procurement laws and regulations.
   •   The potential criminal misconduct and ethical violations of a senior RIK manager.
   •   The potential criminal and ethical violations of MRM employees assigned to the
       RIK Program.




                                          131
